<html>
<title> - NUCLEAR FUEL REPROCESSING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       NUCLEAR FUEL REPROCESSING

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2005

                               __________

                           Serial No. 109-18

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
21-711                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 MICHAEL M. HONDA, California
CURT WELDON, Pennsylvania            LYNN C. WOOLSEY, California
ROSCOE G. BARTLETT, Maryland         LINCOLN DAVIS, Tennessee
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
JO BONNER, Alabama                   DANIEL LIPINSKI, Illinois
BOB INGLIS, South Carolina           JIM MATHESON, Utah
DAVE G. REICHERT, Washington         SHEILA JACKSON LEE, Texas
MICHAEL E. SODREL, Indiana           BRAD SHERMAN, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan  AL GREEN, Texas
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
               KEVIN CARROLL Subcommittee Staff Director
          DAHLIA SOKOLOV Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                     COLIN HUBBELL Staff Assistant


                            C O N T E N T S

                             June 16, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.     8
    Written Statement............................................     9

Statement by Representative Michael M. Honda, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    12

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    14

                               Witnesses:

Mr. Robert Shane Johnson, Acting Director, Office of Nuclear 
  Energy, Science, and Technology; Deputy Director for 
  Technology, U.S. Department of Energy
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    19

Mr. Matthew Bunn, Senior Research Associate, Project on Managing 
  the Atom, Harvard University, John F. Kennedy School of 
  Government
    Oral Statement...............................................    19
    Written Statement............................................    22
    Biography....................................................    28

Dr. Roger Hagengruber, Director, Office for Policy, Security, and 
  Technology; Director, Institute for Public Policy; Professor of 
  Political Science, University of New Mexico
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    66

Dr. Phillip J. Finck, Deputy Associate Laboratory Director, 
  Applied Science and Technology and National Security, Argonne 
  National Laboratory
    Oral Statement...............................................    66
    Written Statement............................................    68
    Biography....................................................    80
    Financial Disclosure.........................................    81

Discussion.......................................................    82

              Appendix: Answers to Post-Hearing Questions

Mr. Robert Shane Johnson, Acting Director of the Office of 
  Nuclear Energy, Science, and Technology; Deputy Director for 
  Technology, U.S. Department of Energy..........................   138

Mr. Matthew Bunn, Senior Research Associate, Project on Managing 
  the Atom, Harvard University, John F. Kennedy School of 
  Government.....................................................   142

Dr. Roger Hagengruber, Director, Office for Policy, Security, and 
  Technology; Director, Institute for Public Policy; Professor of 
  Political Science, University of New Mexico....................   145

Dr. Phillip J. Finck, Deputy Associate Laboratory Director, 
  Applied Science and Technology and National Security, Argonne 
  National Laboratory............................................   147


                       NUCLEAR FUEL REPROCESSING

                              ----------                              


                        THURSDAY, JUNE 16, 2005

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy 
Biggert [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       Nuclear Fuel Reprocessing

                        thursday, june 16, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, June 16, the Energy Subcommittee of the House 
Committee on Science will hold a hearing to examine the status of 
nuclear fuel reprocessing technologies in the United States.
    Report language accompanying the House-passed H.R. 2419, the Energy 
and Water Development Appropriations Act for Fiscal Year 2006, directs 
the Department of Energy (DOE) to accelerate efforts to develop 
reprocessing technologies and to recommend a specific technology by 
September 2007.
    The hearing will examine the status of reprocessing technologies 
and the impact reprocessing would have on energy efficiency, nuclear 
waste management and weapons proliferation.

2. Witnesses

Mr. Robert Shane Johnson is the Acting Director of the Office of 
Nuclear Energy, Science and Technology and the Deputy Director for 
Technology at the Department of Energy.

Dr. Phillip J. Finck is the Deputy Associate Laboratory Director, 
Applied Science and Technology and National Security at Argonne 
National Laboratory.

Dr. Roger Hagengruber serves at the University of New Mexico as 
Director of the Office for Policy, Security and Technology; Director of 
the Institute for Public Policy; and Professor of Political Science. He 
also chairs the Nuclear Energy Study Group of the American Physical 
Society, which issued a May 2005 report, Nuclear Power and 
Proliferation Resistance: Securing Benefits, Limiting Risk.

Mr. Matthew Bunn is a Senior Research Associate in the Project on 
Managing the Atom at Harvard University's John F. Kennedy School of 
Government.

3. Overarching Questions

        <bullet>  What are the advantages and disadvantages of nuclear 
        reprocessing in terms of efficiency of fuel use, disposal of 
        nuclear waste, and proliferation of nuclear weapons?

        <bullet>  What is the current state of reprocessing 
        technologies? What criteria should be used to choose a 
        technology? What do we still need to know to make this 
        decision? Would choosing a reprocessing technology in 2007 
        limit future choices regarding other nuclear technologies, such 
        as reactor designs?

4. Brief Overview

        <bullet>  Nuclear reactors generate about 20 percent of the 
        electricity used in the U.S. No new nuclear plants have been 
        ordered in the U.S. since 1973, but there is renewed interest 
        in nuclear energy both because it could reduce U.S. dependence 
        on foreign oil and because it produces no greenhouse gas 
        emissions.

        <bullet>  One of the barriers to increased use of nuclear 
        energy is concern about nuclear waste. Every nuclear power 
        reactor produces approximately 20 tons of highly radioactive 
        nuclear waste every year. Today, that waste is stored on-site 
        at the nuclear reactors in water-filled cooling pools, or at 
        some sites, after sufficient cooling, in dry casks above 
        ground. About 50,000 metric tons of commercial spent fuel is 
        being stored at 73 sites in 33 states. A recent report issued 
        by the National Academy of Sciences concluded that this stored 
        waste could be vulnerable to terrorist attacks.

        <bullet>  Under the current plan for long-term disposal of 
        nuclear waste, the waste from around the country would be moved 
        to a permanent repository at Yucca Mountain in Nevada, which is 
        now scheduled to open around 2012. Yucca continues to be a 
        subject of controversy. But even if it opened and functioned as 
        planned, it would have only enough space to store the nuclear 
        waste the U.S. is expected to generate by about 2010.

        <bullet>  Consequently, there is growing interest in finding 
        ways to reduce the quantity of nuclear waste. A number of other 
        nations, most notably France and Japan, ``reprocess'' their 
        nuclear waste. Reprocessing involves separating out the various 
        components of nuclear waste so that a portion of the waste can 
        be recycled and used again as nuclear fuel (instead of 
        disposing of all of it). In addition to reducing the quantity 
        of nuclear waste, reprocessing allows nuclear fuel to be used 
        more efficiently. With reprocessing, the same amount of nuclear 
        fuel can generate more electricity because some components of 
        it can be used as fuel more than once.

        <bullet>  The greatest drawback of reprocessing is that current 
        reprocessing technologies produce weapons-grade plutonium 
        (which is one of the components of the spent fuel). Any 
        activity that increases the availability of plutonium increases 
        the risk of nuclear weapons proliferation.

        <bullet>  Because of proliferation concerns, the U.S. decided 
        in the 1970s not to engage in reprocessing. (The policy 
        decision was reversed the following decade, but the U.S. still 
        did not move toward reprocessing.) But the Department of Energy 
        (DOE) has continued to fund research and development (R&D) on 
        nuclear reprocessing technologies, including new technologies 
        that their proponents claim would reduce the risk of 
        proliferation from reprocessing.

        <bullet>  The report accompanying H.R. 2419, the Energy and 
        Water Development Appropriations Act for Fiscal Year 2006, 
        which the House passed in May, directed DOE to focus research 
        in its Advanced Fuel Cycle Initiative program on improving 
        nuclear reprocessing technologies. The report went on to state, 
        ``The Department shall accelerate this research in order to 
        make a specific technology recommendation, not later than the 
        end of fiscal year 2007, to the President and Congress on a 
        particular reprocessing technology that should be implemented 
        in the United States. In addition, the Department shall prepare 
        an integrated spent fuel recycling plan for implementation 
        beginning in fiscal year 2007, including recommendation of an 
        advanced reprocessing technology and a competitive process to 
        select one or more sites to develop integrated spent fuel 
        recycling facilities.''

        <bullet>  During Floor debate on H.R. 2419, the House defeated 
        an amendment that would have cut funding for research on 
        reprocessing. In arguing for the amendment, its sponsor, Mr. 
        Markey, explicitly raised the risks of weapons proliferation. 
        Specifically, the amendment would have cut funding for 
        reprocessing activities and interim storage programs by $15.5 
        million and shifted the funds to energy efficiency activities, 
        effectively repudiating the report language. The amendment was 
        defeated by a vote of 110-312.

        <bullet>  But nuclear reprocessing remains controversial, even 
        within the scientific community. In May 2005, the American 
        Physical Society (APS) Panel on Public Affairs, issued a 
        report, Nuclear Power and Proliferation Resistance: Securing 
        Benefits, Limiting Risk. APS, which is the leading organization 
        of the Nation's physicists, is on record as strongly supporting 
        nuclear power. But the APS report takes the opposite tack of 
        the Appropriations report, stating, ``There is no urgent need 
        for the U.S. to initiate reprocessing or to develop additional 
        national repositories. DOE programs should be aligned 
        accordingly: shift the Advanced Fuel Cycle Initiative R&D away 
        from an objective of laying the basis for a near-term 
        reprocessing decision; increase support for proliferation-
        resistance R&D and technical support for institutional measures 
        for the entire fuel cycle.''

        <bullet>  Technological as well as policy questions remain 
        regarding reprocessing. It is not clear whether the new 
        reprocessing technologies that DOE is funding will be developed 
        sufficiently by 2007 to allow the U.S. to select a technology 
        to pursue. There is also debate about the extent to which new 
        technologies can truly reduce the risks of proliferation.

        <bullet>  It is also unclear how selecting a reprocessing 
        technology might relate to other pending technology decisions 
        regarding nuclear energy. For example, the U.S. is in the midst 
        of developing new designs for nuclear reactors under DOE's 
        Generation IV program. Some of the potential new reactors would 
        produce types of nuclear waste that could not be reprocessed 
        using some of the technologies now being developed with DOE 
        funding.

        <bullet>  Finally, the economics of nuclear reprocessing are 
        unclear. (The Committee intends to examine the economic 
        questions in a later hearing.) The U.S. nuclear industry has 
        not been interested in moving to reprocessing because today it 
        is cheaper to mine uranium and turn it into fresh fuel (through 
        ``uranium enrichment'') than it is to reprocess and recycle 
        spent fuel.

5. Background

Current U.S. Practice: The open fuel cycle
    Current U.S. nuclear technology uses what is called an ``open fuel 
cycle,'' also known as a ``once-through cycle'' because the nuclear 
fuel only goes through the reactor one time before disposal, leaving 
most of the energy content of the uranium ore unused. In an open cycle, 
the uranium is mined and processed, enriched, and packaged into fuel 
rods, which are then loaded into the reactor. In the reactor, some of 
the uranium atoms in the fuel undergo fission, or splitting, releasing 
energy in the form of heat, which in turn is used to generate 
electricity. Once the fission efficiency of the uranium fuel drops 
below a certain level, the fuel rods are removed from the reactor as 
spent fuel. Spent fuel contains 95 percent uranium by weight, one 
percent plutonium, with the remaining four percent consisting of 
fission products (Strontium, Cesium, Iodine, Technetium) and a class of 
elements known as actinides (Neptunium, Americium and Curium).
    Actinides are a class of radioactive metals that are major 
contributors to the long-term radioactivity of nuclear waste. The 
fission products and actinides have half-lives\1\ ranging from a few 
days to millions of years. The ongoing radioactivity of the spent fuel 
means that it still generates a lot of heat, so after removal, the 
spent fuel rods are cooled in deep, water-filled pools. After 
sufficient cooling, the fuel rods may be transferred to dry cask 
storage pending ultimate disposal at a geologic waste repository such 
as Yucca Mountain. Often they are just left in the cooling pools while 
awaiting disposal.
---------------------------------------------------------------------------
    \1\ The ``half-life'' of a radioactive substance is the period of 
time required for one-half of a given quantity of that substance (e.g., 
plutonium) to decay either to another isotope of the same element, or 
to another element altogether. The substances with shorter half-lives 
tend to generate more heat.
---------------------------------------------------------------------------
    A recent National Academy of Sciences study examined the 
vulnerability of interim spent fuel storage to terrorist attack. After 
a dispute with the Nuclear Regulatory Commission, the Academy released 
a declassified version of the study in April, titled Safety and 
Security of Commercial Spent Nuclear Fuel Storage.\2\ That report 
concluded that the pools, under certain conditions, could be vulnerable 
to attack, resulting in a large release of radioactivity, and 
recommended steps to reduce the risk of such an incident. Dry cask 
storage has inherent security advantages, according to the study, but 
can be used only after the fuel has cooled for at least five years in a 
water-filled pool.
---------------------------------------------------------------------------
    \2\ Board on Radioactive Waste Management, National Research 
Council of the National Academies, Safety and Security of Commercial 
Spent Nuclear Fuel Storage, April 2005
---------------------------------------------------------------------------
    If the licenses for most currently operational nuclear power plants 
are extended to allow a 60-year operational lifetime as anticipated, 
the U.S. will need to make a choice: increase the statutory storage 
capacity of Yucca, build a second repository, close the fuel cycle, or 
change the Nuclear Waste Policy Act to allow indefinite above-ground 
dry storage until another solution is found. Some suggest that such a 
decision is a necessary prerequisite to any expansion of the nuclear 
industry in this country, in large part because the public needs to be 
convinced that the U.S. has a long-term strategy for waste disposal. In 
addition, by law, the Nuclear Regulatory Commission must make a ``waste 
confidence determination''--that the waste created can be safely 
disposed of--in order to continue issuing facility licenses.

Closing the fuel cycle: Reprocessing and Recycling
    The ``closed'' fuel cycle requires the same mining, processing and 
fuel fabrication as the open cycle, prior to initial loading of the 
fresh fuel rods into the reactor. However, in the closed cycle, the 
cooled spent fuel is reprocessed, or separated into its individual 
components. In this approach, some components of the spent fuel can be 
used to fabricate new fuel for the reactor. The unusable waste is 
either safely encased and disposed of as is (which means it is still 
very hot and radioactive), or ``burned'' in a different type of reactor 
to reduce the heat and radioactivity and then disposed of. In theory, 
the fuel can go around this cycle many times until most of the energy 
content is converted into electricity and only unusable products remain 
for disposal.
    Several countries around the world, including Japan, Russia and 
France, currently reprocess their spent fuel with a process known as 
PUREX, short for plutonium-uranium extraction, in which plutonium and 
uranium streams are isolated from the remaining waste products. The 
fission products and minor actinides are cooled and then vitrified, or 
encased in glass, for long-term disposal. The uranium separated through 
PUREX is impure and can't be fabricated into fuel without further 
processing. As a result, the separated uranium is disposed of as low-
level waste. The plutonium, on the other hand, can be mixed with 
freshly mined and enriched uranium to fabricate a mixed-oxide fuel 
known as MOX, which is recycled into reactors to generate more power. 
Plutonium can also be used to make weapons. Current practice in these 
countries is to reuse the plutonium only once and then dispose of the 
remaining waste rather than reprocessing and recycling a second time.

The Advanced Fuel Cycle Initiative at DOE
    The Administration's May 2001 National Energy Policy recommended 
that the United States ``develop reprocessing and fuel treatment 
technologies that are cleaner, more efficient, less waste-intensive, 
and more proliferation-resistant.'' The Advanced Fuel Cycle Initiative 
(AFCI) in the Nuclear Energy, Science and Technology Office at DOE has 
existed in various forms for many years, but adjusted its mission in 
response to the President's call for a return to reprocessing. The 
primary goals of the AFCI program are to: ``develop technologies that 
will reduce the cost of geologic disposal of high-level waste from 
spent nuclear fuel, enhancing the repository performance [and] develop 
reactor fuel and fuel cycle technologies to support Generation IV 
nuclear energy systems.''
    Scientists working on AFCI are developing at least two reprocessing 
technologies, UREX+ and pyroprocessing, while continuing research on a 
new generation of technologies. The Department claims that both UREX+ 
and pyroprocessing have the potential to reduce U.S. nuclear waste 
problems while effectively managing proliferation and safety concerns. 
In UREX+, plutonium is never extracted in a pure stream--it remains 
mixed with neptunium and americium, two long-lived actinides that may 
act as proliferation deterrents by making the plutonium too toxic to 
handle without special equipment. In pyroprocessing, also known as 
``electro-metallurgical'' processing, spent fuel rods are mechanically 
chopped, and the fuel is electrically separated into constituent 
products. This isolates the uranium while leaving the plutonium and 
other actinides mixed together. UREX+ is closer technologically to 
PUREX and is better suited than pyroprocessing for reprocessing the 
spent fuel from the current type of U.S. nuclear reactors, known as 
light water reactors.

Optimizing the fuel cycle
    Reprocessing is only one of several steps that could be used to 
address nuclear waste problems. After actinides are separated from the 
waste stream, they can be further processed--``burned''--through a 
process called ``transmutation.'' Transmutation, which requires a 
different type of nuclear reactor (such as a ``fast reactor''), can 
generate electricity while reducing the toxicity of the actinides. 
Transmutation reduces the temperature of the waste products 
(radioactive materials are literally hot). This is significant because 
disposal sites, such as Yucca Mountain, can be limited in terms of the 
heat content they can accept as well as in terms of volume. 
Transmutation technologies have not yet been developed for other 
components of the nuclear waste stream.
    Unless the U.S. also put into use transmutation technologies, 
reprocessing might be of less use. Reprocessing could increase the 
efficiency of nuclear fuel use and reduce the volume of waste, but 
without transmutation, it could not reduce the temperature (``heat 
load'') of the waste sufficiently to allow Yucca Mountain to store more 
years of byproducts from nuclear generation.
    In addition to pursuing reprocessing technologies, DOE has a 
program to develop the next generation of nuclear plants, known as 
Generation IV reactor designs that would be more energy efficient, 
proliferation-resistant and safer than the current fleet of reactors. 
Once DOE settles on a particular Generation IV design, it intends to 
sponsor a demonstration project, known as the Next Generation Nuclear 
Plant (NGNP) in Idaho. The NGNP also has the potential to make more 
efficient use of recycled plutonium as well as the other actinides to 
produce more electricity, possibly reducing the need for separate 
transmutation facilities in the future. However, spent fuel from some 
of the kinds of reactors being considered for the NGNP might not be 
able to be reprocessed using UREX+.

6. Witness Questions

Mr. Johnson

        <bullet>  What are the advantages and disadvantages of using 
        reprocessing to address efficiency of fuel use, waste 
        management and non-proliferation? How would you assess the 
        advantages and disadvantages, and how might the disadvantages 
        be mitigated?

        <bullet>  What are the greatest technological hurdles in 
        developing and commercializing advanced reprocessing 
        technologies? Is it feasible for the government to select a 
        technology by 2007?

        <bullet>  To what extent will the Department have to modify its 
        plans in order to comply with the report language accompanying 
        the House-passed fiscal year 2006 Energy and Water 
        Appropriations bill?

        <bullet>  What reprocessing technologies are currently under 
        consideration? Is there one particular technology that is 
        considered more promising than others?

        <bullet>  How should technology and policy decisions about 
        other components of the fuel cycle influence the selection of a 
        reprocessing technology?

Dr. Finck

        <bullet>  What are the advantages and disadvantages of using 
        reprocessing to address efficiency of fuel use, waste 
        management and non-proliferation? How would you assess the 
        advantages and disadvantages, and how might the disadvantages 
        be mitigated?

        <bullet>  What are the greatest technological hurdles in 
        developing and commercializing advanced reprocessing 
        technologies? Is it feasible for the government to select a 
        technology by 2007?

        <bullet>  What reprocessing technologies currently are being 
        developed at Argonne or at other National Labs? What technical 
        questions must be answered?

        <bullet>  What reprocessing technologies are still in the basic 
        research stage, what advantages might they offer, and what is 
        the estimated timeline for development of laboratory-scale 
        models?

        <bullet>  How would you contrast what is being done 
        internationally with U.S. plans for reprocessing, recycling and 
        associated waste management? What countries recycle now? What 
        components of the waste fuel are or can be used to make new 
        reactor fuel?

Dr. Hagengruber

        <bullet>  What are the advantages and disadvantages of using 
        reprocessing to address efficiency of fuel use, waste 
        management and non-proliferation? How would you assess the 
        advantages and disadvantages, and how might the disadvantages 
        be mitigated?

        <bullet>  What are the greatest technological hurdles in 
        developing and commercializing advanced reprocessing 
        technologies? Is it feasible for the government to select a 
        technology by 2007?

        <bullet>  What kinds of research and development should the 
        Department of Energy fund to ensure the proliferation 
        resistance of future reprocessing technologies?

Mr. Bunn

        <bullet>  What are the advantages and disadvantages of using 
        reprocessing to address efficiency of fuel use, waste 
        management and non-proliferation? How would you assess the 
        advantages and disadvantages, and how might the disadvantages 
        be mitigated?

        <bullet>  What are the greatest technological hurdles in 
        developing and commercializing advanced reprocessing 
        technologies? Is it feasible for the government to select a 
        technology by 2007?

        <bullet>  How should technology and policy decisions about 
        other components of the fuel cycle influence the selection of a 
        reprocessing technology? From your perspective, is the 
        Department of Energy conducting the systems analysis required 
        to make sound near-term technology decisions and guide long-
        term research and development?
    Chairwoman Biggert. The hearing of the Subcommittee on 
Energy of the Committee on Science will come to order.
    Good morning to you all. I want to welcome everyone to this 
hearing on nuclear fuel cycle and the potential for 
reprocessing and recycling to help us better manage the 
Nation's growing inventory of spent nuclear fuel.
    To start, I want to quickly review our current situation to 
put today's hearing into some context. Twenty years from now, 
electricity demand in the United States is expected to increase 
by 50 percent. If we are to meet this incredible growth in 
demand without significantly increasing emissions of greenhouse 
gases, we must maintain a diverse supply of electricity, and 
nuclear power must be part of that mix. Nuclear energy is the 
only carbon-free source of electricity that is currently 
operating on a commercial scale nationwide. We know how to use 
nuclear energy, and we know how to use it safely. But if we are 
to continue to benefit from safe, emissions-free nuclear power 
for at least 20 percent of our electricity, there is at least 
one more issue that must be resolved: what do we do with the 
growing inventories of spent nuclear fuel?
    Yucca Mountain was to be the solution. However, its 
intended opening slipped from 1998 to 2010, and now it is 
likely to slip again to 2012 or 2014, according to the 
Department of Energy. This failure to open Yucca Mountain as 
scheduled or deal with the spent fuel accumulating at our 
nuclear power plants in other ways may soon cost the Federal 
Government up to $1 billion annually in legal liability and 
interim storage costs. And when it does finally open, Yucca 
Mountain will be full. It is limited by statute to store only 
as much spent fuel as will have been created by 2010.
    That Yucca Mountain, for all its intents and purposes, 
already is full should come to no surprise. If you think of 
nuclear fuel like a log, we currently burn only three percent 
of that log at both ends and then pull it out of the fire to 
bury it in a mountain. The bulk of what we call nuclear 
``waste'' is actually nuclear ``fuel'' that still contains over 
90 percent of its original energy content. Does that make any 
sense? No, but that is our current policy, and it is just plain 
wasteful. Unless we do something different or take another 
approach, a second repository, or an expanded Yucca Mountain, 
will be required. Politically, fiscally, and logistically, this 
will be no easy task, and could preclude greater use of 
emissions-free nuclear power.
    For years now, scientists at DOE and a number of its 
national laboratories have been working on ``new approaches'' 
to dealing with commercial spent nuclear fuel and solving the 
long-term Yucca Mountain problem. More specifically, they have 
developed technologies and processes to do something with spent 
nuclear fuel besides bury it all in a mountain, like reprocess 
and then recycle parts of it into new fuel for reactors.
    There are many advantages to these technologies, which have 
names like UREX+ and pyroprocessing. Let me just name a few.
    First, they are proliferation resistant unlike the 30- to 
40-year-old technologies already in use.
    Second, they reduce the volume of our nuclear waste, which 
could render another Yucca Mountain unnecessary.
    And third, they could reduce the toxicity, the heat and 
radioactivity, of the waste.
    To fully realize these benefits and deal with the growing 
inventory of spent fuel, the fiscal year 2006 Energy and Water 
Appropriations bill, passed by the House last month, requires 
the Department of Energy to develop an integrated spent fuel 
recycling plan by the start of fiscal year 2007, and select a 
reprocessing technology by the end of fiscal year 2007. I am 
pleased, timing was perfect, that my colleague and author of 
that bill, Chairman Hobson, has joined us here today.
    These activities could be the key to better managing our 
spent fuel. Reprocessing is just one step in the entire fuel 
cycle, the cradle-to-grave path of nuclear fuel. However, it is 
the first step to better managing our waste. We can learn 
lessons from what the French and Japanese have done with 
reprocessing. I know I did after visiting the French 
reprocessing facilities with Chairman Hobson in early April. We 
can continue to improve upon their technologies, processes, and 
monitoring capabilities.
    But we almost certainly won't achieve these improvements 
without first doing a comprehensive systems analysis. 
Technology decisions for reprocessing must take into account 
technology and policy decisions for the entire fuel cycle. For 
example, we need to know if the reprocessing technologies under 
discussion here today are compatible with designs for the next 
generation nuclear plant. Through modeling that incorporates 
the relevant technical, economic, and policy considerations, 
this ``systems approach'' will allow us to optimize the fuel 
cell and make an informed decision about reprocessing.
    Finally, how much could all of this cost? And that is a 
good and important question, which is why it will be the 
subject of another hearing at a later date.
    This is a complex topic and one that involves many 
interrelated technical and policy issues. Yet the technologies 
and policies we will discuss today could help determine whether 
nuclear energy becomes an even more significant source of 
emissions-free electricity when we need it most in the years to 
come.
    And so to conclude, I want to thank the witnesses for 
agreeing to share their knowledge and insight with us today. I 
look forward to an open and spirited debate on this very 
important subject.
    [The prepared statement of Chairman Biggert follows:]

              Prepared Statement of Chairman Judy Biggert

    I want to welcome everyone to this hearing on the nuclear fuel 
cycle, and the potential for reprocessing and recycling to help us 
better manage the Nation's growing inventory of spent nuclear fuel.
    To start, I want to quickly review our current situation to put 
today's hearing into some context. Twenty years from now, electricity 
demand in the United States is expected to increase by 50 percent. If 
we are to meet this incredible growth in demand without significantly 
increasing emissions of greenhouse gases, we must maintain a diverse 
supply of electricity, and nuclear power must be part of that mix. 
Nuclear energy is the only carbon-free source of electricity that is 
currently operating on a commercial scale nation-wide. We know how to 
use nuclear energy, and we know how to use it safely. But if we are to 
continue to benefit from safe, emissions-free nuclear power for at 
least 20 percent of our electricity, there is one more issue that must 
be resolved--what we do with growing inventories of spent nuclear fuel.
    Yucca Mountain was to be the solution. However, its intended 
opening slipped from 1998 to 2010, and is now likely to slip again to 
2012 or 2014 according to the Department of Energy (DOE). This failure 
to open Yucca Mountain as scheduled--or deal with the spent fuel 
accumulating at our nuclear power plants in other ways--may soon cost 
the Federal Government up to $1 billion annually in legal liability and 
interim storage costs. And when it does finally open, Yucca Mountain 
will be full. It is limited by statute to store only as much spent fuel 
as will have been created by 2010.
    That Yucca Mountain, for all intents and purposes, already is full 
should come as no surprise. If you think of nuclear fuel like a log, we 
currently burn only three percent of that log at both ends, and then 
pull it out of the fire to bury it in a mountain. The bulk of what we 
call nuclear ``waste'' is actually nuclear ``fuel'' that still contains 
over 90 percent of its original energy content. Does that make any 
sense? No, but that's our current policy, and it's just plain wasteful. 
Unless we do something different or take another approach, a second 
repository, or an expanded Yucca Mountain, will be required. 
Politically, fiscally, and logistically, this will be no easy task, and 
could preclude greater use of emissions-free nuclear power.
    For years now, scientists at DOE and a number of its national 
laboratories have been working on ``new approaches'' to dealing with 
commercial spent nuclear fuel and solving the long-term Yucca Mountain 
problem. More specifically, they have developed technologies and 
processes to do something with spent nuclear fuel besides bury it all 
in a mountain, like reprocess and then recycle parts of it into new 
fuel for reactors.
    There are many advantages to these technologies, which have names 
like UREX+ and pyroprocessing. Let me just name a few.
    First. They are proliferation resistant unlike the 30- to 40-year-
old technologies already in use.
    Second. They reduce the volume of our nuclear waste, which could 
render another Yucca Mountain unnecessary.
    Third. They also could reduce the toxicity--the heat and the 
radioactivity--of the waste.
    To fully realize these benefits and deal with the growing inventory 
of spent fuel, the Fiscal Year 2006 Energy and Water Appropriations 
bill, passed by the House last month, requires the DOE to develop an 
integrated spent fuel recycling plan by the start of fiscal year 2007, 
and select a reprocessing technology by the end of fiscal year 2007. I 
am pleased that my colleague and the author of that bill, Chairman 
Hobson, has joined us here today.
    These activities could be the key to better managing our spent 
fuel. Reprocessing is just one step in the entire fuel cycle--the 
cradle-to-grave path of nuclear fuel. However, it is the first step to 
better managing our waste. We can learn lessons from what the French 
and the Japanese have done with reprocessing. I know I did after 
visiting French reprocessing facilities with Chairman Hobson in early 
April. We can continue to improve upon their technologies, processes, 
and monitoring capabilities.
    But we almost certainly won't achieve these improvements without 
first doing a comprehensive systems analysis. Technology decisions for 
reprocessing must take into account technology and policy decisions for 
the entire fuel cycle. For example, we need to know if the reprocessing 
technologies under discussion here today are compatible with designs 
for the next generation nuclear plant (NGNP). Through modeling that 
incorporates the relevant technical, economic, and policy 
considerations, this ``systems approach'' will allow us to optimize the 
fuel cycle and make an informed decision about reprocessing.
    Finally, how much could all this cost? That's a good and important 
question, which is why it will be the subject of another hearing at a 
later date.
    This is a complex topic, and one that involves many interrelated 
technical and policy issues. Yet the technologies and policies we will 
discuss today could help determine whether nuclear energy becomes and 
even more significant source of emissions-free electricity when we need 
it most in the years to come. And so to conclude, I want to thank the 
witnesses for agreeing to share their knowledge and insight with us 
today, and I look forward to an open and spirited debate on this very 
important subject.

    Chairwoman Biggert. And with that, I now recognize the--Mr. 
Honda, the Ranking Minority Member of the Subcommittee, for an 
opening statement.
    Mr. Honda. Thank you, Madame Chairwoman, and thank you for 
holding this very important hearing today.
    From early on in the Nation's nuclear energy program, the 
``plan'' to recycle, reprocess is the technical term, the fuel 
used in the reactor, to reduce the amount of material defined 
as waste and stretch the supply of available material needed 
for the generation of electricity.
    Indeed, scattered across America are facilities that were 
built in anticipation of a ``closed'' back end fuel cycle, such 
as those at West Valley, New York, Morris, Illinois, and 
Barnwell, South Carolina.
    These facilities never fulfilled their mission, however, 
because of two principal factors.
    First, the Carter Administration's decision to abandon the 
reprocessing in the 1970s based on concerns raised about the 
proliferation of nuclear weapons, and second, economics.
    The Reagan Administration reversed course on the issue of 
whether domestic reprocessing should serve as a tool in our 
non-proliferation policy, but even then no reprocessing began.
    Then, as now, it didn't make economic sense to develop a 
domestic recycling capacity, partly because of the stagnation 
that developed in the U.S. nuclear energy construction program.
    Also, the so-called ``megatons to megawatts'' program that 
takes Russian weapons-grade uranium and down-blends it to the 
lower concentrations needed for nuclear power reactors has 
helped to keep down the cost of reactor fuel, making 
reprocessing uneconomical.
    Whether we like it or not, it seems clear that this 
Administration is leading us to a new era in the use of nuclear 
energy for the production of electricity over the next several 
decades.
    This will create new demand for fuel, and the changing 
conditions may well make the economics of reprocessing as a 
means of supplying material for fuel more favorable.
    Additionally, our nation is left with 50,000 metric tons of 
commercial spent fuel currently being stored at 73 sites in 33 
states, and each nuclear power reactor continues to produce 20 
tons of highly radioactive waste every year.
    Even if a waste repository at Yucca Mountain opens and 
functions as planned, it would have only enough space to store 
the nuclear waste the United States is expected to generate by 
2010.
    If reprocessing can facilitate either a reduction in 
ultimate waste volumes or positively affect the challenge of 
isolating the ultimate waste form from the accessible 
environment, then perhaps we should assign some ``value'' to 
those societal goods, further affecting the economic balance.
    In short, we may need to take a long-term approach to this 
issue and see if, indeed, it is not time to reexamine some 
fundamental tenets of U.S. fuel cycle policy.
    But in doing so, we must be sure to be mindful of the 
threat any changes might pose in terms of nuclear 
proliferation.
    At a time when the United States is seeking to discourage 
other nations from acquiring technologies that would produce 
weapon-usable plutonium, we do not want to send the signal that 
the United States is seeking to commercialize those very 
technologies.
    I look forward to learning more from the witnesses about 
the state of the technology today, the economics surrounding 
that technology, and its nonproliferation implications.
    Thank you again, Madame Chairwoman, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Madam Chairwoman, thank you for holding this important hearing 
today.
    From early on in the Nation's nuclear energy program, the ``plan'' 
was to recycle, reprocess is the technical term, the fuel used in the 
reactor, to reduce the amount of material defined as waste and stretch 
the supply of available material needed for the generation of 
electricity.
    Indeed, scattered across America are facilities that were built in 
anticipation of a ``closed'' back end fuel cycle, such as those at West 
Valley, NY, Morris, IL, and Barnwell, SC.
    These facilities never fulfilled their mission, however, because of 
two principal factors:
    First, the Carter Administration's decision to abandon reprocessing 
in the 1970's based on concerns raised about the proliferation of 
nuclear weapons; and second, economics.
    The Reagan Administration reversed course on the issue of whether 
domestic reprocessing should serve as a tool in our non-proliferation 
policy, but even then no reprocessing began.
    Then, as now, it didn't make economic sense to develop a domestic 
recycling capacity, partly because of the stagnation that developed in 
the U.S. nuclear energy construction program.
    Also, the so-called ``megatons to megawatts'' program that takes 
Russian weapons-grade uranium and down-blends it to the lower 
concentrations needed for nuclear power reactors has helped to keep 
down the cost of reactor fuel, making reprocessing uneconomical.
    Whether we like it or not, it seems clear that this Administration 
is leading us to a new era in the use of nuclear energy for the 
production of electricity over the next several decades.
    This will create new demand for fuel, and the changing conditions 
may well make the economics of reprocessing as a means of supplying 
material for fuel more favorable.
    Additionally, our nation is left with 50,000 metric tons of 
commercial spent fuel currently being stored at 73 sites in 33 states, 
and each nuclear power reactor continues to produce 20 tons of highly 
radioactive waste every year.
    Even if a waste repository at Yucca Mountain opens and functions as 
planned, it would have only enough space to store the nuclear waste the 
U.S. is expected to generate by about 2010.
    If reprocessing can facilitate either a reduction in ultimate waste 
volumes or positively affect the challenge of isolating the ultimate 
waste form from the accessible environment, then perhaps we should 
assign some ``value'' to those societal goods--further affecting the 
economic balance.
    In short, we may need to take a long-term approach to this issue 
and see if indeed it is not time to re-examine some fundamental tenets 
of U.S. fuel cycle policy.
    But in doing so, we must be sure to be mindful of the threat any 
changes might pose in terms of nuclear proliferation.
    At a time when the United States is seeking to discourage other 
nations from acquiring technologies that would produce weapon-usable 
plutonium, we do not want to send the signal that the U.S. is seeking 
to commercialize those very technologies.
    I look forward to learning more from the witnesses about the state 
of the technology today, the economics surrounding that technology, and 
its non-proliferation implications.
    Thank you again Madam Chairwoman, and I yield back the balance of 
my time.

    Chairwoman Biggert. Thank you.
    At this time, I would like to extend a warm welcome to my 
colleague from Ohio, Mr. Hobson, Chairman of the Energy and 
Water Development Appropriations Subcommittee. And I would ask 
unanimous consent that Chairman Hobson be allowed to sit in 
with the Committee and participate in today's hearing. Without 
objection, so ordered.
    Chairman Hobson, would you like to say a few words?
    Mr. Hobson. Well, it is hard to say a few words when you 
are a Congressman, but I will try.
    I want to thank the Chairwoman for allowing me to be here 
with all of you today, and I am really here to listen for a few 
moments. I do have to leave, but I want to demonstrate our 
support together with this committee and my Committee for the 
work that you are doing.
    I think this is most important to the future of our 
country. Recycling, or reprocessing, is something that I think 
we need to do. Recently, we sent some material to France, and 
it was recycled and returned to this country where it is going 
to be burned in a nuclear power plant in this country. There 
aren't any dire consequences of doing all of that. It is too 
bad we couldn't do it here. This has a lot of economic benefit 
to this country in the future, and what we are trying to do is 
get the dialogue going and to get some real action.
    I know that what we did in our bill is a little 
controversial, but it is a way to kick the can over to try to 
start people to talk about things and to get some new 
processes, if necessary. This is being done in the rest of the 
world. We need to relook at our policies that were determined 
probably 50 years or so ago. But I want to also say that I am 
very supportive of Yucca Mountain. I just don't want to get the 
Yucca Mountain II any sooner than we have to, and this is a way 
of not doing that.
    But I want to thank you for the courage that you have taken 
to step forward, Madame Chairwoman, to raise this issue and to 
look at it from your Committee's standpoint, and I commend you 
for that. And thank you for allowing me to be here.
    Chairwoman Biggert. Thank you very much for coming today.
    And let us see. Any additional opening statements submitted 
by the Members may be added to the record.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine the status of nuclear fuel reprocessing 
technologies in the United States. Every nuclear power reactor produces 
approximately 20 tons of highly radioactive nuclear waste every year. 
Today, the waste is stored on-site at the nuclear reactors in water-
filled cooling pools, or at some sites, after sufficient cooling, in 
dry casks above ground. It is important to note that a recent report 
issued by the National Academy of Sciences concluded this stored waste 
could be vulnerable to terrorist attacks. Therefore, it is critical we 
begin to review our current nuclear waste policies and access possible 
policy options that may come before the Congress in the next few years.
    Today's hearing marks the beginning of an important policy 
discussion on reprocessing technologies and the impact it will have on 
energy efficiency, nuclear waste management and weapons proliferation. 
I believe we should carefully examine the advantages and disadvantages 
of using reprocessing, and evaluate the policy options before making 
any decisions. At the same time, we cannot back away or retract from 
addressing critical national security concerns, such as nuclear waste 
management and weapons proliferation just because nuclear reprocessing 
is a controversial issue.
    Within my home State of Illinois, the only nuclear engineering 
department is at the University of Illinois. This is particularly 
alarming because our state has 11 operating nuclear power reactors, 
Argonne National Laboratory, where Dr. Phillip Finck is from, and other 
nuclear facilities. Illinois residents have paid more than $2.4 billion 
on the federal Nuclear Waste Fund. My state has a large stake in 
nuclear power and technology and under-supported programs and 
initiatives that could improve upon our nuclear capabilities are quite 
troubling.
    I am interested in hearing from our witnesses about the feasibility 
of selecting a reprocessing technology by 2007. Over time, technology 
will develop, interest will continue to grow, and economic 
circumstances may change in ways that point clearly in one direction. I 
believe we have an obligation to set aside sufficient funds so that we 
are not passing unfunded obligations on to our children and 
grandchildren, but not at the risk of implementing decisions 
prematurely, thereby depriving future generations of what might turn 
out to be better options developed later.
    I welcome our witnesses and look forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Examining nuclear fuel reprocessing technologies is a vital step in 
developing energy policy for the United States. Currently, this country 
relies on nuclear reactors for roughly 20 percent of our total energy. 
While nuclear energy provides less reliance on foreign oil and produces 
no greenhouse gas emissions, there is the persistent concern about 
nuclear waste. Today, this waste is stored on-site at the nuclear 
reactors power facilities. This is not only a safety concern, but also 
makes these facilities prime targets to terrorist attack. In order to 
move towards the future, we must examine the best methods to deal with 
this waste--whether it's through reprocessing or moving it to another 
location. This hearing is a key step in beginning this dialogue for the 
future.

    Chairwoman Biggert. And with that, we will turn to our 
witnesses.
    And I thank you all for coming this morning. And first of 
all, we have Mr. Shane Johnson, who is the Acting Director of 
the Office of Nuclear Energy, Science, and Technology and the 
Deputy Director for Technology at the Department of Energy. 
Next is Mr. Matthew Bunn, who is a Senior Research Associate in 
the Project on Managing the Atom at Harvard University's John 
F. Kennedy School of Government. Thank you for coming. And then 
Dr. Roger Hagengruber. I am going to stumble over that all day 
long. Hagengruber. He serves at the University of New Mexico as 
Director of the Office for Policy, Security, and Technology, 
Director of the Institute for Public Policy, and professor of 
political science, and he chairs the Nuclear Energy Study Group 
of the American Physical Society, which issued a May 2005 
report: ``Nuclear Power and Proliferation Resistance: Securing 
Benefits, Limiting Risks.'' And last, but not least, is Dr. 
Phillip Finck, who is the Deputy Associate Laboratory Director, 
Applied Science and Technology and National Security at Argonne 
National Laboratory right in Illinois in my District. Welcome. 
And welcome to you all.
    As the witnesses know, spoken testimony will be limited to 
five minutes each, after which the members will have five 
minutes each to ask questions.
    And we will begin with Mr. Johnson. You are recognized for 
five minutes.

STATEMENT OF MR. ROBERT SHANE JOHNSON, ACTING DIRECTOR, OFFICE 
OF NUCLEAR ENERGY, SCIENCE AND TECHNOLOGY; DEPUTY DIRECTOR FOR 
             TECHNOLOGY, U.S. DEPARTMENT OF ENERGY

    Mr. Johnson. Chairman Biggert, Congressman Honda, Members 
of the Committee, and Chairman Hobson, I would like to thank 
you for the opportunity to speak today on the Department of 
Energy's efforts to develop and demonstrate advanced spent fuel 
separations and recycling technologies.
    I have submitted a written statement for the record, but 
would like to provide a few summary remarks.
    As you know, the President's National Energy Policy 
recommended the expansion of nuclear energy in the United 
States. To do this, we must also develop and apply advanced 
technologies, including advanced proliferation resistance, 
spent fuel treatment technologies, and next generation reactor 
technologies.
    These fuel treatment technologies are aimed at safely and 
securely reducing the amount of commercial spent fuel requiring 
disposal in a geologic repository. These technologies, in 
combination with Generation IV reactors, hold the promise of 
deferring, perhaps indefinitely, the need for a second 
repository while reducing the inventory of civilian plutonium.
    While the United States is a leader in the development of 
these technologies, it is important to note that other nations 
with domestic nuclear programs are also investigating similar 
technologies.
    The policy underpinnings of our Advanced Fuel Cycle 
Initiative and our international cooperation is found in the 
May 2001 National Energy Policy, which states that the United 
States should consider technologies in collaboration with 
international partners with highly-developed fuel cycles and a 
record of close cooperation to develop fuel treatment 
technologies that are cleaner, more efficient, less waste-
intensive, and more proliferation-resistant.
    The technologies being developed in our Advanced Fuel Cycle 
program present a significant advantage in proliferation 
resistance over separation technologies currently being used in 
other parts of the world and which were previously used in the 
United States, namely the Plutonium-Uranium Extraction process, 
or PUREX. PUREX is an aqueous separations process that was 
deployed in the United States in the mid-1950s to separate 
high-purity plutonium and uranium from fission products and 
minor transuranic elements in irradiated nuclear fuels.
    Over the last several years, our Advanced Fuel Cycle 
program has made significant progress in the development of 
advanced separation processes. We have successfully 
demonstrated the feasibility of the Uranium Extraction Plus, or 
UREX+, process at laboratory scale using actual spent nuclear 
fuel and are planning integrated experiments at larger scale. 
The UREX+ process is an advanced process that separates uranium 
from spent nuclear fuel at a very high level of purity. Unlike 
the PUREX process, UREX+ does not produce a separated plutonium 
product and thus provides a considerable advantage in reducing 
proliferation risks.
    The Department is also investigating alternative 
separations technology, called pyroprocessing. Pyroprocessing 
technology employs high-temperature operations that use 
selective reduction and oxidation steps in molten salts and 
metals to recover nuclear materials.
    The scale-up of these technologies from laboratory-scale to 
engineering-scale is possible with minimal technical risk. 
Using existing facilities, engineering-scale verification 
experiments could be underway in five to six years with 
possible commercial-scale operations possible in 10 to 12 
years. Fuel fabrication experiments, as well as commercial-
scale operations, would lag the demonstration of the 
separations technology by two to four years. However, modifying 
existing structures presents numerous technical and regulatory 
challenges.
    An option to existing facilities is a greenfield approach 
for the engineering-scale demonstration. If such an 
engineering-scale operation were conducted in a new facility, 
the demonstration experiments could begin in approximately nine 
years, and it is anticipated that commercial--that would--that 
the technology would be commercially available within about 20 
years. Again, fuel fabrication would lag, the separations work 
by about two to four years.
    The Administration is currently examining recommendations 
of the Congress contained in the U.S. House of Representatives 
report accompanying the Energy and Water Development 
Appropriations bill for fiscal year 2006 specifically that the 
Department should inform a decision by fiscal year 2007 on a 
preferred separations technology and develop an integrated 
spent fuel management plan by that time that will ensure safe, 
secure, and efficient deployment of nuclear power around the 
globe.
    We look forward to working closely with the Congress on 
what is a key issue to spent nuclear fuel management today and 
into the future.
    Madame Chairman, this completes my statement, and I would 
be pleased to answer any questions you might have. Thank you.
    [The prepared statement of Mr. Johnson follows:]

               Prepared Statement of Robert Shane Johnson

    Chairman Biggert, Ranking Member Honda, and Members of the 
Committee, I would like to thank you for the opportunity to speak 
before the Committee on Science, Subcommittee on Energy concerning 
United States and international efforts to develop and demonstrate 
advanced spent fuel separations and recycling technologies. Also, I 
thank you for your leadership in the area of nuclear energy 
technologies and for your interest in pursuing solutions to the 
Nation's challenges with the disposition of commercial spent nuclear 
fuel.
    As you know, the President's 2001 National Energy Policy 
recommended the expansion of nuclear energy in this country to reduce 
our dependence on imported fuels needed for electricity generation and 
to reduce emissions. To meet these challenges, we must develop and 
apply advanced technologies, including advanced nuclear fuel cycles and 
next generation reactor technologies, and development of advanced fuel 
treatment technologies. These efforts are aimed at developing new 
advanced proliferation-resistant spent fuel treatment technologies to 
reduce the amount of commercial high level waste and spent fuel 
requiring storage in a geologic repository. If successful, these 
efforts could substantially improve repository capacity. In the longer-
term future, these technologies in combination with advanced nuclear 
reactor technologies hold the promise of deferring, perhaps 
indefinitely, the need for a second repository, while reducing the 
inventory of civilian plutonium.
    My testimony today focuses on U.S. efforts to develop new advanced 
separations technologies technologies that are more efficient, less 
waste intensive and more proliferation resistant--our progress in 
developing these technologies, and additional work that is needed to 
demonstrate commercial viability of these technologies. While the 
United States is a leader in development of these technologies, it is 
important to recognize that other nations (e.g., France, Japan, the 
United Kingdom, China, India, and Russia) with domestic nuclear 
programs are also investigating these technologies. Collaborations are 
also underway between the United States and several of these countries. 
A fundamental objective of U.S. collaborations is development of 
advanced proliferation resistant fuel cycle technologies that will set 
the standard for future international deployment of fuel cycle 
facilities.

BACKGROUND

    The policy underpinnings of the Department of Energy's Advanced 
Fuel Cycle Initiative and its program for international cooperation 
with other countries is contained in the May 2001 National Energy 
Policy, which states that:

         ``. . .in the context of developing advanced nuclear fuel 
        cycles and next generation technologies for nuclear energy, the 
        United States should re-examine its policies to allow for 
        research, development and deployment of fuel conditioning 
        methods that reduce waste streams and enhance proliferation 
        resistance. In doing so, the United States will continue to 
        discourage the accumulation of separated plutonium, 
        worldwide.''

    The policy further states that the United States should consider 
technologies, in collaboration with international partners with highly-
developed fuel cycles and a record of close cooperation, to develop 
fuel treatment technologies that are cleaner, more efficient, less 
waste-intensive, and more proliferation-resistant.
    Inherent in this recommendation is the recognition that regardless 
of anticipated growth in nuclear generation, the Nation needs to 
establish a permanent geological repository for spent nuclear fuel from 
the operation of our existing commercial nuclear power plants. Further, 
growth in nuclear energy in the United States using the current spent 
fuel management approach would require construction of additional 
geologic repositories to address spent nuclear fuel inventories 
generated by the operation of additional nuclear power plants. However, 
development of advanced separations technologies present a potential 
alternative to building new repositories, optimizing the current 
geologic repository, and enabling more efficient use of our nuclear 
fuel resources.
    As such, separations technologies are under development in the 
United States and by other countries to reduce the volume, toxicity, 
and fissile material content of spent nuclear fuel requiring the 
disposal in a permanent geologic repository. These advanced 
technologies are aimed at avoiding the proliferation issues associated 
with separated plutonium while resulting in significantly smaller 
quantities of high-level radioactive waste, enabling optimization of 
the geological repository.
    These new technologies present a significant advantage in 
proliferation resistance over existing separations technologies being 
used in other parts of the world today and which were used previously 
in the United States--the Plutonium-Uranium Extraction (PURER) 
technology. PURER is an aqueous separations process that was deployed 
initially in the mid-1950s to recover high purity plutonium and uranium 
from fission products and minor transuranic elements (elements heavier 
than uranium). PURER has been deployed commercially in several 
countries--principally France, the United Kingdom, Japan and Russia.
    In the future, we believe that advanced separations technologies, 
such as URanium EXtraction Plus (UREX+), could enable us to further 
extend the useful life of any geologic repository and reduce the 
radiotoxicity of the waste it contains such that it would decay to the 
toxicity of natural uranium ore in less than 1,000 years--instead of 
over 100,000 years as is the case with our current, untreated spent 
nuclear fuel. This technology could also allow our nuclear plants to 
use a far higher fraction of the energy contained in uranium ore, 
potentially expanding the lifetime of the world's nuclear fuel 
resources from around 100 years up to 1,000 years.

DEVELOPMENT OF INNOVATIVE SEPARATIONS TECHNOLOGIES

    Over the last several years, the Department's Advanced Fuel Cycle 
Initiative has made significant progress in the development of new fuel 
treatment technologies, particularly as applied to the development of 
the UREX+ technology, a technology that separates uranium from spent 
nuclear fuel at a very high level of purity. This is important because 
it demonstrates the feasibility of greatly reducing the mass of 
material that would require disposal in a geologic repository. The 
research has also successfully demonstrated the ability to separate the 
short-term heat generating constituents of spent fuel and the 
partitioning of the transuranic elements. Unlike the PUREX process, the 
UREX+ process does not produce a separated plutonium product which 
provides a considerable advantage in reducing proliferation risk.
    Presently, the Department has demonstrated the feasibility of the 
UREX+ process based on laboratory-scale tests using actual spent 
nuclear fuel. While the results from our laboratory-scale tests coupled 
with general industrial-scale experience could provide a high level of 
confidence that the general direction being recommended is technically 
feasible, integrated processing experiments carried out successfully at 
a larger engineering-scale would be needed before there is sufficient 
information to design and build new facilities or make needed major 
modifications to existing facilities for commercial-scale operations.
    While the UREX+ process has great potential to address the spent 
fuel challenges associated with today's commercial light water 
reactors, the Department has also been investigating an alternative 
separations technology called pyroprocessing, which is more appropriate 
for treating advanced fuels from fast reactors like those under 
investigation in the Department's Generation IV reactor program that 
may be developed and deployed in the long-term future. The 
pyroprocessing technology employs high-temperature operations that use 
selective reduction and oxidation in molten salts and metals to recover 
nuclear materials. The pyrochemical processing technology is also 
supportive of nonproliferation objectives in that the resulting 
separated fuel material is adequate for use in fueling advanced fast-
neutron spectrum reactors but represents a significant reduction in 
proliferation risk as the plutonium remains mixed with the other 
transuranic elements and fission products. The largest scale 
application of this technology is found at the Idaho National 
Laboratory where engineering-scale treatment of sodium-bonded spent 
nuclear fuel from the shutdown Experimental Breeder Reactor II has 
provided several years of research and operations data. At maximum 
capacity, this engineering-scale demonstration is capable of processing 
up to three metric tons of spent nuclear fuel annually.

DEVELOPMENT OF ADVANCED FUEL CYCLE TECHNOLOGIES

    The United States presently employs a once-through fuel cycle--that 
is, the spent fuel is not recycled but rather discharged from the 
reactor and maintained in interim storage at the reactor site pending 
future shipment to a geologic repository. However, as discussed 
previously, a number of countries operate a partially closed fuel cycle 
in that the plutonium is removed from the spent fuel at a reprocessing 
facility and is sent to a fuel fabrication facility to be blended with 
fresh uranium and re-fabricated into mixed oxide (MOX) fuel pellets. 
The pellets are placed into cladding material and bundled into fuel 
assemblies for subsequent return to light water reactors capable of 
using MOX as fuel. The other spent fuel constituents are immobilized in 
glass for storage in a geologic repository. The Department is pursuing 
an approach similar to this one used by other countries to create MOX 
from surplus weapons grade plutonium.
    The Department's Advanced Fuel Cycle Initiative fuels development 
includes proliferation-resistant fuels for light water reactors, fuels 
that will enable transmutation of transuranics in Generation IV 
reactors, and all fuels for the fast reactor group of Generation IV 
reactors. The objective of these technologies is to avoid separating 
plutonium in a pure form. The resultant mixed oxide fuel would contain 
some or all of the minor actinides (neptunium, americium and curium) 
contained in the spent fuel to enhance its proliferation resistance and 
allow for further reductions in the volume and radiotoxicity of the 
resulting high-level wastes. In each of these technologies, the benign 
residual fission products would be sent to a geologic repository with 
the exception of iodine-129 and strontium/cesium which would be 
disposed by means other than a geologic repository. These approaches 
are anticipated to increase the effective capacity of a geologic 
repository by a factor of 50 to 100.
    In fast reactor scenarios, actinides from spent fuel can be 
processed to separate them from the bulk of the fission products and 
uranium. The actinide stream can then be used to manufacture fuel for 
use in fast reactors. Because the fuel is highly radioactive, the fuel 
fabrication process must be conducted in shielded facilities, 
conferring an additional degree of proliferation resistance.
    Commercial scale-up of these spent fuel technologies can, based on 
our recent analysis, be performed relatively rapidly, if existing 
domestic facilities could be substantially modified and utilized. Using 
existing facilities, engineering-scale verification experiments for a 
chosen separation technology could be underway in five to six years and 
commercial-scale operations could begin in ten to twelve years. Fuel 
fabrication experiments and commercial-scale operations would lag the 
demonstration of the separations technology by two to four years. 
However, retrofitting existing structures to demonstrate commercial 
viability of spent fuel treatment presents numerous technical and 
regulatory challenges and may not be the most reasonable approach. For 
example, a down-side to retrofitting existing structures would be the 
current age of the structure and inherent inflexibilities such as the 
introduction and testing of modern instrumentation for process control, 
accountability and proliferation resistance.
    An alternate scenario could be to build a ``greenfield'' 
engineering-scale demonstration facility that could provide assurance 
of the commercial viability of spent fuel treatment and fuel 
fabrication technologies. If both the engineering-scale and commercial-
scale operations were conducted in new facilities designed from the 
ground up, engineering-scale experiments of a selected separations 
process could begin in approximately nine years and commercial 
operation, in about twenty. Again, fuel fabrication would lag by two to 
four years.

CONCLUSION

    Over the last few years, the Department has successfully 
demonstrated the technical feasibility of advanced, proliferation-
resistant fuel cycle technologies. Engineering-scale demonstrations, 
however, are needed to demonstrate with reasonable confidence the 
commercial feasibility of these technologies. We look forward to 
working closely with the Congress on the key issue of spent nuclear 
fuel management today and in the future.
    I would be pleased to answer any questions you may have.

                   Biography for Robert Shane Johnson

    Shane Johnson is the Acting Director of DOE's Office of Nuclear 
Energy, Science and Technology. He was appointed to this position in 
May 2005, upon the resignation of the prior Director.
    In this capacity, Mr. Johnson leads the Department's nuclear energy 
enterprise, including nuclear technology research and development; 
management of the Department's nuclear technology infrastructure; and 
support to nuclear education in the United States. Mr. Johnson also 
serves as the Lead Program Secretarial Officer for the Idaho National 
Laboratory, the Department's lead laboratory for nuclear technology 
research, development and demonstration.
    Since 2000, Mr. Johnson has led the Office's nuclear technology 
initiatives, serving a key leadership role in the initiation and 
management of all of the Office's major research and development 
initiatives, including the Generation IV Nuclear Energy Systems 
Initiative, the Advanced Fuel Cycle Initiative, and the Nuclear 
Hydrogen Initiative. In 2004, Mr. Johnson was promoted to the position 
of Deputy Director for Technology, where his responsibilities also 
include management of the Nuclear Power 2010 program and initiatives 
aimed at strengthening university nuclear science and engineering 
programs in the United States.
    Mr. Johnson serves a central role in the Department's efforts to 
reassert U.S. leadership in nuclear technology development. He led the 
formation of the Generation IV International Forum (GIF), an 
international collective of ten leading nations and the European 
Union's Euratom, dedicated to developing advanced reactor and fuel 
cycle technologies. He leads the Office's international cooperation 
activities, including establishment of cooperative research agreements 
with other countries and the development by the GIF of the Generation 
IV technology roadmap, which resulted in the selection of six promising 
reactor and fuel cycle technologies by the GIF for future development 
efforts. Mr. Johnson currently serves as the acting chairman of the 
GIF, pending election of a permanent chairman, and has served as the 
U.S. representative to the policy committee since 2001.
    Mr. Johnson has over twenty years of relevant management and 
engineering experience within Government and industry. Prior to joining 
DOE, Mr. Johnson was employed for five years by Duke Power Company and 
Stoner Associates, Inc. where he was responsible for performing 
engineering studies for nuclear, natural gas, and water utilities.
    Mr. Johnson received his B.S. degree in Nuclear Engineering from 
North Carolina State University and his M.S. degree in Mechanical 
Engineering from Pennsylvania State University. He is a licensed 
professional engineer.

    Chairwoman Biggert. Thank you very much, Mr. Johnson.
    And now Mr. Bunn, you are recognized for five minutes.

   STATEMENT OF MR. MATTHEW BUNN, SENIOR RESEARCH ASSOCIATE, 
   PROJECT ON MANAGING THE ATOM, HARVARD UNIVERSITY, JOHN F. 
                  KENNEDY SCHOOL OF GOVERNMENT

    Mr. Bunn. Madame Chairwoman and Members of the Committee, 
it is an honor to be here today to discuss a subject that is 
very important to the future of nuclear energy and efforts to 
stem the spread of nuclear weapons, that is reprocessing of 
spent nuclear fuel.
    I support limited continued R&D on advanced fuel cycle 
concepts that may offer promise for the future, but I believe a 
near-term decision to reprocess U.S. commercial spent nuclear 
fuel would be a serious mistake, with costs and risks far 
outweighing its potential benefits.
    Let me make seven points to support that view.
    First, reprocessing, by itself, does not make any of the 
nuclear waste go away. It simply separates--it is a chemical 
process that separates the radioactive materials into different 
components. Only if the added complexity of recycling or 
transmutation follows reprocessing is there a potential, not 
yet demonstrated, for destroying many of the long-lived 
radioactive materials. Whatever course we choose, we will still 
need nuclear waste repositories, such as Yucca Mountain.
    As we heard, in the traditional process, known as PUREX, 
the spent fuel is separated into plutonium, which is weapons-
usable, recovered uranium, and high-level waste. More advanced 
processes, like UREX+ and pyroprocessing, attempt to address 
some of the problems of PUREX, but whether they will do so 
successfully remains to be seen.
    Second, reprocessing using current technologies or 
technologies available in the near-term would substantially 
increase, not decrease, the costs of nuclear waste management. 
In a recent Harvard study, we found, making assumptions quite 
favorable to reprocessing, that the costs of reprocessing and 
recycling would be about 80 percent higher than those of direct 
disposal, and other studies, including government studies in 
countries that are enthusiastic about reprocessing, such as 
France and Japan, have come to similar conclusions.
    The one mill per kilowatt-hour nuclear waste fee would no 
longer be sufficient. Either the fee would have to be 
substantially increased, or tens of billions of dollars in 
taxpayer subsidies would have to be provided, or onerous 
regulations would have to be imposed to force the industry to 
build and operate the needed facilities itself.
    The UREX+ technology now being researched adds a number of 
complex separation steps to the traditional PUREX approach and 
appears likely to further increase costs. Other processes might 
some day reduce costs, but this remains to be demonstrated. 
Official studies in recent years have predicted that the 
advanced processing and transmutation technologies being 
pursued would be more expensive than traditional approaches, 
not less.
    Third, reprocessing and recycling using the technologies 
now commercially available means separating, fabricating, and 
transporting tons of weapons-usable plutonium every year, when 
even a few kilograms is enough for a bomb, inevitably raising 
proliferation risks not posed by direct disposal. It is crucial 
to understand that any state or group that could make a bomb 
from weapon-grade plutonium would also be able to make a bomb 
from the reactor-grade plutonium separated by reprocessing.
    Moreover, a near-term U.S. return to reprocessing would 
make it more difficult to achieve President Bush's goal of 
convincing other countries not to build their own reprocessing 
facilities. The new approaches, as Mr. Johnson mentioned, are 
designed not to separate pure plutonium, but the plutonium-
bearing materials that would be separated in either the UREX+ 
process or by pyroprocessing would not be radioactive enough to 
meet international standards for being very difficult to steal. 
And if these technologies were widely deployed in the 
developing world where most of the future growth in electricity 
demand will be, that would contribute to the spread of 
expertise, experience, and facilities that could be readily 
turned to a nuclear weapons program.
    Fourth, while unfortunately no complete life cycle 
comparison of the safety and terrorism risks of reprocessing 
and direct disposal has yet been done, it seems clear that 
extensive processing of intensely radioactive fuel in the 
presence of highly volatile chemicals presents more 
opportunities for radioactive releases than simply leaving the 
fuel untouched in large casks.
    Fifth, the waste management benefits that might be derived 
are quite limited. While the new technologies have, as their 
goal, reducing both the volume of waste to be disposed and its 
long-term hazard, the reality is that the projected 
radiological doses from geologic repositories are already quite 
low, and there are a variety of approaches to providing 
additional disposal capacity at Yucca Mountain or elsewhere 
without recycling, and these have not yet been adequately 
examined.
    Sixth, the potential energy benefits are also quite 
limited. There is, indeed, quite a lot of energy in spent fuel, 
but in today's market, it is like oil shale: there is a lot of 
energy in it, but the cost of getting that energy out is much 
more than that energy is worth. World resources of uranium 
recoverable at prices far below those at which reprocessing 
would make sense are sufficient to fuel a growing global 
nuclear enterprise for many decades without recycling.
    Seventh, and perhaps most important, there is no need to 
rush to make this decision. We have today a proven, 
commercially-available technology that will manage spent fuel 
cheaply, safely, and securely for decades, and that is dry 
casks, which utilities around the country are buying today. We 
can, and should, allow time for technology to develop further 
and for this decision to be made with care. Our generation does 
have an obligation to set aside enough funds so that future 
generations are not left with an unfunded obligation, but we 
have no obligation to rush to judgment. Our grandchildren will 
not thank us for implementing a technology today and depriving 
them of options that might be better that might be developed 
later.
    Indeed, because the repository will remain open for 50 to 
100 years, with spent fuel readily retrievable, proceeding 
forward with direct disposal would leave all options open for 
the future. It is a good thing that there is no need to rush, 
because the technologies available are at a very early stage of 
development. Only the most limited, as we heard, laboratory-
scale experiments have been completed to date, and serious 
systems analysis of the costs of the different options, their 
safety and terrorism resistance, their proliferation impacts, 
prospects for licensing, and public acceptance have not yet 
been done.
    I recommend that we follow the bipartisan advice of the 
National Commission on Energy Policy, which concluded that the 
United States should continue its moratorium on reprocessing, 
should expand interim spent fuel storage capacities, should 
proceed with all deliberate speed toward opening a permanent 
geologic waste repository, and should continue R&D on advanced 
fuel cycle approaches.
    At the same time, the U.S. Government should redouble its 
efforts: to limit the spread of reprocessing and enrichment 
technologies around the world, as a critical element of 
President Bush's efforts to stem the spread of nuclear weapons; 
to ensure that every nuclear warhead and every kilogram of both 
plutonium and highly-enriched uranium worldwide is secure and 
accounted for, as a key element of our efforts to prevent 
nuclear terrorism; and to convince other countries to end the 
accumulation of plutonium stockpiles while working to reduce 
stockpiles of both plutonium and highly-enriched uranium around 
the world.
    Some day, approaches to reprocessing and recycling may be 
developed that make sense. Research and development should 
explore such possibilities, but we should not rush to judgment 
now. If we want nuclear energy to grow enough to make a 
significant contribution to meeting the climate change 
challenge, that will require building support from governments, 
publics, and utilities around the world, and doing that means 
making nuclear energy as cheap, as simple, as safe, as 
proliferation-resistant, and as terrorism-proof as possible. 
Reprocessing using any of the technologies we have now or will 
have in the near-term points in the wrong direction on every 
count. And therefore, those who hope for a bright future for 
nuclear energy ought to oppose near-term reprocessing of spent 
nuclear fuel.
    I would be happy to take your questions.
    [The prepared statement of Mr. Bunn follows:]
                   Prepared Statement of Matthew Bunn

 The Case Against a Near-Term Decision to Reprocess Spent Nuclear Fuel 
                          in the United States

    Madam Chairwoman and Members of the Committee: It is an honor to be 
here today to discuss a subject that is very important to the future of 
nuclear energy and efforts to stem the spread of nuclear weapons--
reprocessing of spent nuclear fuel.
    I believe that, while research and development (R&D) on advanced 
concepts that may offer promise for the future should continue, a near-
term decision to reprocess U.S. commercial spent nuclear fuel would be 
a serious mistake, with costs and risks far outweighing its potential 
benefits. Let me make seven points to support that view.
    First, reprocessing by itself does not make any of the nuclear 
waste go away. Whatever course we choose, we will still need a nuclear 
waste repository such as Yucca Mountain.\1\ Reprocessing is simply a 
chemical process that separates the radioactive materials in spent fuel 
into different components. In the traditional process, known as PUREX, 
reprocessing produces separated plutonium (which is weapons-usable), 
recovered uranium, and high-level waste (containing all the other 
transuranic elements and fission products). In the process, 
intermediate and low-level wastes are also generated. More advanced 
processes now being examined, such as UREX+ and pyroprocessing, attempt 
to address some of the problems of the PUREX process, but whether they 
will do so successfully remains to be seen. Once the spent fuel has 
been reprocessed, the plutonium and uranium separated from the spent 
fuel can in principle be recycled into new fuel; in the more advanced 
processes, some other long-lived species would also be irradiated in 
reactors (or accelerator-driven assemblies) to transmute them into 
shorter-lived species.
---------------------------------------------------------------------------
    \1\ Some residents of Nevada seem to see reprocessing, incorrectly, 
as an alternative to Yucca Mountain, but none of the strategies now 
proposed would eliminate the need for a repository for highly toxic 
nuclear waste. Indeed, it might surprise Nevadans to know that a stated 
purpose of the Advanced Fuel Cycle Initiative is to make it possible to 
bury the nuclear waste from a much larger quantity of electricity 
generation in Yucca Mountain--albeit after transmutation that, it is 
hoped, would reduce the long-term radioactive dangers posed by this 
waste.
---------------------------------------------------------------------------

More Expensive

    Second, reprocessing and recycling using current or near-term 
technologies would substantially increase the cost of nuclear waste 
management, even if the cost of both uranium and geologic repositories 
increase significantly. In a recent Harvard study, we concluded, even 
making a number of assumptions that were quite favorable to 
reprocessing, that shifting to reprocessing and recycling would 
increase the costs of spent fuel management by more than 80% (after 
taking account of appropriate credits or charges for recovered 
plutonium and uranium from reprocessing).\2\ Reprocessing (at an 
optimistic reprocessing price) would not become economic until uranium 
reached a price of over $360 per kilogram--a price not likely to be 
seen for many decades, if then. Government studies even in countries 
such as France and Japan have reached similar conclusions.\3\ The UREX+ 
technology now being pursued adds a number of complex separation steps 
to the traditional PUREX process, in order to separate important 
radioactive isotopes for storage or transmutation,\4\ and there is 
little doubt that reprocessing and transmutation using this process 
would be even more expensive. Other processes might someday reduce the 
costs, but this remains to be demonstrated, and a number of recent 
official studies have estimated costs for reprocessing and 
transmutation that are far higher than the costs of traditional 
reprocessing and recycling, not lower.\5\
---------------------------------------------------------------------------
    \2\ See Matthew Bunn, Steve Fetter, John P. Holdren, and Bob van 
der Zwaan, The Economics of Reprocessing vs. Direct Disposal of Spent 
Nuclear Fuel (Cambridge, MA: Project on Managing the Atom, Belfer 
Center for Science and International Affairs, John F. Kennedy School of 
Government, Harvard University, December 2003, available as of June 9, 
2005 at http://bcsia.ksg.harvard.edu/BCSIA<INF>-</INF>content/
documents/repro-report.pdf). For quite similar conclusions, see John 
Deutch and Ernest J. Moniz, co-chairs, The Future of Nuclear Power: An 
Interdisciplinary MIT Study (Cambridge, MA: Massachusetts Institute of 
Technology, 2003, available as of June 9, 2005 at http://web.mit.edu/
nuclearpower/). The MIT study presents the results of its fuel cycle 
cost calculations differently, comparing the cost of a new low-enriched 
uranium fuel element to those of a new plutonium fuel element, 
assigning all the costs of reprocessing to the plutonium incorporated 
in the new fuel element, rather than considering reprocessing as part 
of the cost of spent fuel management and comparing the cost of managing 
a fuel element by direct disposal to those of managing it by 
reprocessing and recycling, as the Harvard study does. But these are 
differences of presentation, which have no effect on the estimated per-
kilowatt-hour costs of the two fuel cycles; with the exception of a few 
differences in assumptions (more favorable to reprocessing in the case 
of the Harvard study), the conclusions of the two studies on the 
economics are very similar.
    \3\ France and Japan have been two of the countries most dedicated 
to reprocessing spent nuclear fuel; in both countries, and in the U.K., 
reprocessing continues not because it is economic but because of the 
inertia of past decisions and investments, the lack of available space 
for multi-decade interim storage of spent fuel, and arguments that the 
process will eventually have environmental and energy-security 
benefits. The French study compared a scenario in which all of the low-
enriched uranium fuel produced in French reactors was reprocessed to a 
hypothetical scenario in which reprocessing and recycling had never 
been introduced, and found that not reprocessing would have saved tens 
of billions of dollars compared to the all-reprocessing case, and would 
have reduced total electricity generation costs by more than five 
percent. See Jean-Michel Charpin, Benjamin Dessus, and Rene Pellat, 
Economic Forecast Study of the Nuclear Power Option (Paris, France: 
Office of the Prime Minister, July 2000, available as of December 16, 
2003 at http://fire.pppl.gov/
eu<INF>-</INF>fr<INF>-</INF>fission<INF>-</INF>plan.pdf), Appendix 1. 
In Japan, the official estimate is that reprocessing and recycling will 
cost more than $100 billion over the next several decades. Studies 
performed by both the government and the utilities a decade ago 
concluded that direct disposal of spent fuel would be much less costly; 
new analyses performed for an advisory committee to the Japan Atomic 
Energy Commission in 2004 came to similar conclusions. See, for 
example, Mark Hibbs, ``AEC Advisory Panel Clears Japan's Rokkashomura 
for Reprocessing,'' Nuclear Fuel, November 8, 2004; and Mark Hibbs, 
``Japan's Look at Long-Term Policy May Solve Rokkashomura Puzzle,'' 
Nuclear Fuel, July 19, 2004. The government's withholding of the data 
on these past studies caused a scandal in Japan. In France, the 
electric utility is state-owned, and so can be directed to pursue 
reprocessing even if it is the more expensive approach; in Japan, the 
utilities are seeking legislation that would subsidize the costs of 
reprocessing with a government-imposed charge to all electricity users.
    \4\ George F. Vandegrift et al., ``Designing and Demonstration of 
the UREX+ Process Using Spent Nuclear Fuel,'' paper presented at 
``ATALANTE 2004: Advances for Future Nuclear Fuel Cycles,'' Nimes, 
France, June 21-24, 2004, available as of June 10, 2005 at http://
www.cmt.anl.gov/science-technology/processchem/Publications/
Atalante04.pdf.
    \5\ See, for example, Organization for Economic Cooperation and 
Development, Nuclear Energy Agency, Accelerator-Driven Systems (ADS) 
and Fast Reactors (FR) in Advanced Nuclear Fuel Cycles: A Comparative 
Study (Paris, France: NEA, 2002, available as of December 16, 2003 at 
http://www.nea.fr/html/ndd/reports/2002/nea3109-ads.pdf), p. 211 and p. 
216; U.S. Department of Energy, Office of Nuclear Energy, Generation IV 
Roadmap: Report of the Fuel Cycle Crosscut Group (Washington, DC: DOE, 
March 18, 2001, available as of July 25, 2003 at http://www.ne.doe.gov/
reports/GenIVRoadmapFCCG.pdf.), p. A2-6 and p. A2-8.
---------------------------------------------------------------------------
    To follow this course, either the current one mill/kilowatt-hour 
nuclear waste fee would have to be substantially increased, or billions 
of dollars in tax money would have to be used to subsidize the effort. 
Since facilities required for reprocessing and transmutation would not 
be economically attractive for private industry to build, the U.S. 
Government would either have to build and operate these facilities 
itself, give private industry large subsidies to do so, or impose 
onerous regulations requiring private industry to do so with its own 
funds. All of these options would represent dramatic government 
intrusions into the nuclear fuel industry, and the implications of such 
intrusions have not been appropriately examined. I am pleased that the 
Subcommittee plans a later hearing with representatives from the 
nuclear industry to discuss these economic and institutional issues.

Unnecessary proliferation risks

    Third, traditional approaches to reprocessing and recycling pose 
significant and unnecessary proliferation risks, and even proposed new 
approaches are not as proliferation-resistant as they should be. It is 
crucial to understand that any state or group that could make a bomb 
from weapon-grade plutonium could make a bomb from the reactor-grade 
plutonium separated by reprocessing.\6\ Despite the remarkable progress 
of safeguards and security technology over the last few decades, 
processing, fabricating, and transporting tons of weapons-usable 
separated plutonium every year--when even a few kilograms is enough for 
a bomb--inevitably raises greater risks than not doing so. The dangers 
posed by these operations can be reduced with sufficient investment in 
security and safeguards, but they cannot be reduced to zero, and these 
additional risks are unnecessary.
---------------------------------------------------------------------------
    \6\ For an authoritative unclassified discussion, see 
Nonproliferation and Arms Control Assessment of Weapons-Usable Fissile 
Material Storage and Excess Plutonium Disposition Alternatives, DOE/NN-
0007 (Washington DC: U.S. Department of Energy, January 1997), pp. 38-
39.
---------------------------------------------------------------------------
    Indeed, contrary to the assertion in the Energy and Water 
appropriations subcommittee report that plutonium reprocessing in other 
countries poses little risk because the plutonium is immediately 
recycled as fresh fuel--a conclusion that would not be correct even if 
the underlying assertion were true--the fact is that reprocessing is 
far outpacing the use of the resulting plutonium as fuel, with the 
result that over 240 tons of separated, weapons-usable civilian 
plutonium now exists in the world, a figure that will soon surpass the 
amount of plutonium in all the world's nuclear weapons arsenals 
combined. The British Royal Society, in a 1998 report, warned that even 
in an advanced industrial state like the United Kingdom, the 
possibility that plutonium stocks might be ``accessed for illicit 
weapons production is of extreme concern.'' \7\
---------------------------------------------------------------------------
    \7\ The Royal Society, Management of Separated Plutonium (London: 
Royal Society, 1998, summary available at http://www.royalsoc.ac.uk/
displaypagedoc.asp?id=11407 as of June 10, 2005.
---------------------------------------------------------------------------
    Moreover, a near-term U.S. return to reprocessing could 
significantly undermine broader U.S. nuclear nonproliferation policies. 
President Bush has announced an effort to convince countries around the 
world to forego reprocessing and enrichment capabilities of their own; 
has continued the efforts of past administrations to convince other 
states to avoid the further accumulation of separated plutonium, 
because of the proliferation hazards it poses; and has continued to 
press states in regions of proliferation concern not to reprocess 
(including not only states such as North Korea and Iran, but also U.S. 
allies such South Korea and Taiwan, both of which had secret nuclear 
weapons programs closely associated with reprocessing efforts in the 
past). A U.S. decision to move toward reprocessing itself would make it 
more difficult to convince other states not to do the same.
    Advocates argue that the more advanced approaches now being pursued 
would be more proliferation-resistant. Technologies such as 
pyroprocessing are undoubtedly better than PUREX in this respect. But 
the plutonium-bearing materials that would be separated in either the 
UREX+ process or by pyroprocessing would not be radioactive enough to 
meet international standards for being ``self-protecting'' against 
possible theft.\8\ Moreover, if these technologies were deployed widely 
in the developing world, where most of the future growth in electricity 
demand will be, this would contribute to potential proliferating states 
building up expertise, real-world experience, and facilities that could 
be readily turned to support a weapons program.\9\
---------------------------------------------------------------------------
    \8\ See Jungmin Kang and Frank von Hippel, ``Limited Proliferation-
Resistance Benefits From Recycling Unseparated Transuranics and 
Lanthanides From Light-Water Reactor Spent Fuel,'' Science & Global 
Security, forthcoming.
    \9\ For a discussion of the importance of these elements of 
proliferation resistance, see Matthew Bunn, ``Proliferation Resistance 
(and Terror-Resistance) of Nuclear Energy Systems,'' lecture for 
``Nuclear Energy Economics and Policy Analysis,'' Massachusetts 
Institute of Technology, April 12, 2004, available as of June 10, 2005 
at http://bcsia.ksg.harvard.edu/BCSIA<INF>-</INF>content/documents/
prolif-resist-lecture04.pdf.
---------------------------------------------------------------------------
    Proponents of reprocessing and recycling often argue that this 
approach will provide a nonproliferation benefit, by consuming the 
plutonium in spent fuel, which would otherwise turn geologic 
repositories into potential plutonium mines in the long-term. But the 
proliferation risk posed by spent fuel buried in a safeguarded 
repository is already modest; if the world could be brought to a state 
in which such repositories were the most significant remaining 
proliferation risk, that would be cause for great celebration. 
Moreover, this risk will be occurring a century or more from now, and 
if there is one thing we know about the nuclear world a century hence, 
it is that its shape and contours are highly uncertain. We should not 
increase significant proliferation risks in the near-term in order to 
reduce already small and highly uncertain proliferation risks in the 
distant future.\10\
---------------------------------------------------------------------------
    \10\ For a discussion, see John P. Holdren, ``Nonproliferation 
Aspects of Geologic Repositories,'' presented at the ``International 
Conference on Geologic Repositories,'' October 31-November 3, 1999, 
Denver, Colorado; available as of June 10, 1995 at http://
bcsia.ksg.harvard.edu/
publication.cfm?program=CORE&ctype=presentation&item<INF>-</INF>id=1.
---------------------------------------------------------------------------

As-yet-unexamined safety and terrorism risks

    Fourth, reprocessing and recycling using technologies available in 
the near-term would be likely to raise additional safety and terrorism 
risks. Until Chernobyl, the world's worst nuclear accident had been the 
explosion at the reprocessing plant at Khystym in 1957, and significant 
accidents at both Russian and Japanese reprocessing plants occurred as 
recently as the 1990s. No complete life-cycle study of the safety and 
terrorism risks of reprocessing and recycling compared to those of 
direct disposal has yet been done by disinterested parties. But it 
seems clear that extensive processing of intensely radioactive spent 
fuel using volatile chemicals presents more opportunities for release 
of radionuclides than does leaving spent fuel untouched in thick metal 
or concrete casks.

Limited waste management benefits

    Fifth, the waste management benefits that might be derived from 
reprocessing and transmutation are quite limited. Two such benefits are 
usually claimed: decreasing the repository volume needed per kilowatt-
hour of electricity generated (potentially eliminating the need for a 
second repository after Yucca Mountain); and greatly reducing the 
radioactive dangers of the material to be disposed.
    It is important to recognize that reprocessing and recycling as 
currently practiced (with only one round of recycling the plutonium as 
uranium-plutonium mixed oxide (MOX) fuel) does not have either of these 
benefits. The size of a repository needed for a given amount of waste 
is determined not by the volume of the waste but by its heat output. 
Because of the build-up of heat-emitting higher actinides when 
plutonium is recycled, the total heat output of the waste per kilowatt-
hour generated is actually higher--and therefore the needed 
repositories larger and more expensive--with one round of reprocessing 
and recycling than it is for direct disposal.\11\ And the estimated 
long-term doses to humans and the environment from the repository are 
not noticeably reduced.\12\
---------------------------------------------------------------------------
    \11\ See, for example, Brian G. Chow and Gregory S. Jones, Managing 
Wastes With and Without Plutonium Separation, Report P-8035 (Santa 
Monica, CA: RAND Corporation, 1999).
    \12\ This is because the uranium and plutonium separated by the 
traditional PUREX process, not being very mobile in the geologic 
environment, are not significant contributors in models of the long-
term radiation releases from a geologic repository.
---------------------------------------------------------------------------
    Newer approaches that might provide a substantial reduction in 
radiotoxic hazards and in repository volume are complex, likely to be 
expensive, and still in an early stage of development. Most important, 
even if they achieved their goals, the benefits would not be large. The 
projected long-term radioactive doses from a geologic repository are 
already low. No credible study has yet been done comparing the risk of 
increased doses in the near-term from the extensive processing and 
operations required for reprocessing and transmutation to the reduction 
in doses thousands to hundreds of thousands of years in the future that 
might be achieved by this method.
    With respect to reducing repository volume, while the Department of 
Energy (DOE) has not yet performed any detailed study of the maximum 
amount of spent fuel that could be emplaced at Yucca Mountain, there is 
little doubt that even without reprocessing, the mountain could hold 
far more than the current legislative limit. There are a variety of 
approaches to providing additional capacity at Yucca Mountain or 
elsewhere without recycling. Indeed, as a recent American Physical 
Society report noted, it is possible that even if all existing reactors 
receive license extensions allowing them to operate for 60 years, Yucca 
Mountain will be able to hold all the spent fuel they will generate in 
their lifetimes, without reprocessing.\13\ While proponents of 
reprocessing and transmutation point to the likely difficulty of 
licensing a second repository in the United States after Yucca 
Mountain's capacity is filled, it is likely to be at least as difficult 
to gain public acceptance and licenses for the facilities needed for 
reprocessing and transmutation--particularly as such facilities will 
likely pose more genuine hazards to their neighbors than would a 
nuclear waste repository.\14\
---------------------------------------------------------------------------
    \13\ Nuclear Energy Study Group, American Physical Society Panel on 
Public Affairs, Nuclear Power and Proliferation Resistance: Securing 
Benefits, Limiting Risk (Washington, D.C.: American Physical Society, 
May 2005, available as of June 9, 2005 at http://www.aps.org/
public<INF>-</INF>affairs/proliferation-resistance), p. 17.
    \14\ For an initial discussion of these points, see Bunn, Fetter, 
Holdren, and van der Zwaan, The Economics of Reprocessing vs. Direct 
Disposal of Spent Nuclear Fuel, pp. 64-66.
---------------------------------------------------------------------------

Limited energy benefits

    Sixth, the energy benefits of reprocessing and recycling would also 
be limited. Additional energy can indeed be generated from the 
plutonium and uranium in spent fuel. But in today's market, spent fuel 
is like oil shale: getting the energy out of it costs far more than the 
energy is worth. In the only approach to recycling that is commercially 
practiced today--which involves a single round of recycling as MOX fuel 
in existing light-water reactors--the amount of energy generated from 
each ton of uranium mined is increased by less than 20 percent.\15\ In 
principle, if, in the future, fast-neutron breeder reactors become 
economic, so that the 99.3 percent of natural uranium that is U-238 
could be turned to plutonium and burned, the amount of energy that 
could be derived from each ton of uranium mined might be increased 50-
fold.
---------------------------------------------------------------------------
    \15\ John Deutch and Ernest J. Moniz, co-chairs, The Future of 
Nuclear Power: An Interdisciplinary MIT Study (Cambridge, MA: 
Massachusetts Institute of Technology, 2003, available as of June 9, 
2005 at http://web.mit.edu/nuclearpower/), p. 123. They present this 
result as uranium consumption per kilowatt-hour being 15 percent less 
for the recycling case; equivalently, if uranium consumption is fixed, 
then electricity generation is 18 percent higher for the recycling 
case.
---------------------------------------------------------------------------
    But there is no near-term need for this extension of the uranium 
resource. World resources of uranium likely to be economically 
recoverable in future decades at prices far below the price at which 
reprocessing would be economic are sufficient to fuel a growing global 
nuclear enterprise for many decades, relying on direct disposal without 
recycling.\16\
---------------------------------------------------------------------------
    \16\ For discussion, see ``Appendix B: World Uranium Resources,'' 
in Bunn, Fetter, Holdren, and van der Zwaan, The Economics of 
Reprocessing vs. Direct Disposal of Spent Nuclear Fuel.
---------------------------------------------------------------------------
    Nor does reprocessing serve the goal of energy security, even for 
countries such as Japan, which have very limited domestic energy 
resources. If energy security means anything, it means that a country's 
energy supplies will not be disrupted by events beyond that country's 
control. Yet events completely out of the control of any individual 
country--such as a theft of poorly guarded plutonium on the other side 
of the world--could transform the politics of plutonium overnight and 
make major planned programs virtually impossible to carry out. Japan's 
experience following the scandal over BNFL's falsification of safety 
data on MOX fuel, and following the accidents at Monju and Tokai, all 
of which have delayed Japan's plutonium programs by many years, makes 
this point clear. If anything, plutonium recycling is much more 
vulnerable to external events than reliance on once-through use of 
uranium, whose supplies are diverse, plentiful, and difficult to cut 
off.

Premature to decide--and no need to rush

    Seventh, there is no need to rush to make this decision in 2007, or 
in fact any time in the next few decades. Dry storage casks offer the 
option of storing spent fuel cheaply, safely, and securely for decades. 
During that time, technology will develop; interest will accumulate on 
fuel management funds set aside today, reducing the cost of whatever we 
choose to do in the long run; political and economic circumstances may 
change in ways that point clearly in one direction or the other; and 
the radioactivity of the spent fuel will decay, making it cheaper to 
process in the future, if need be. Our generation has an obligation to 
set aside sufficient funds so that we are not passing unfunded 
obligations on to our children and grandchildren, but it is not our 
responsibility to make and implement decisions prematurely, thereby 
depriving future generations of what might turn out to be better 
options developed later. Indeed, because the repository will remain 
open for 50-100 years, with the spent fuel readily retrievable, moving 
forward with direct disposal will still leave all options open for 
decades to come.
    Similarly, there is no need to rush to set up new interim storage 
sites on DOE or military sites, and no possibility of performing the 
needed reviews and getting the needed licenses to do so by 2006, as the 
Energy and Water appropriations subcommittee proposed.\17\ There is a 
legitimate debate as to whether such interim spent fuel storage prior 
to emplacement in a geologic repository should be centralized at one or 
two sites, or whether in most cases the fuel should continue to be 
stored at existing reactor sites. In any case, the government should 
fulfill its obligations to the utilities by taking title to the fuel 
and paying the cost of storage. At the same time, we should continue to 
move toward opening a permanent geologic repository as quickly as we 
responsibly can--in part because public acceptance of interim spent 
fuel storage facilities is only likely to be forthcoming if the public 
is convinced that they will not become permanent waste dumps.
---------------------------------------------------------------------------
    \17\ See, for example, Allison Macfarlane, ``Don't Put Waste on 
Military Bases,'' Boston Globe, June 4, 2005.
---------------------------------------------------------------------------
    Nor is there any need to rush on deciding whether a second nuclear 
waste repository will be needed. While existing nuclear power plants 
will have discharged enough fuel to fill the current legislated 
capacity limit within a few years, the reality is that it will be 
decades before sufficient fuel to fill Yucca Mountain has in fact been 
emplaced. We can and should defer this decision, and take the time to 
consider the options in detail. Congress should consider amending 
current law and giving the Secretary of Energy another decade or more 
before reporting on the need for a second repository.
    Proponents of deciding quickly on reprocessing sometimes argue that 
such decisions are necessary because no new nuclear reactors will be 
purchased unless sufficient geologic repository capacity for all the 
spent fuel they will generate throughout their lifetimes has already 
been provided. I do not believe this is correct. I believe that if the 
government is fulfilling its obligation to take title to spent fuel and 
pay the costs of managing it, and clear progress is being made toward 
opening and operating a nuclear waste repository, investors will have 
sufficient confidence that they will not be saddled with unexpected 
spent fuel obligations to move forward. By contrast, if the government 
were seriously considering drastic changes in spent fuel management 
approaches which might major increases in the nuclear waste fee, 
investors might well wish to wait to see the outcome of those decisions 
before investing in new nuclear plants.
    It is a good thing there is no need to rush, as we simply do not 
have the information that would be needed to make a decision on 
reprocessing in 2007. The advanced reprocessing technologies now being 
pursued are in a very early stage of development. As of a year ago, 
UREX+ had been demonstrated on a total of one pin of real spent fuel, 
in a small facility--and had not met all of its processing goals in 
that test.\18\ Frankly, in my judgment there is little prospect that 
further development of complex multi-stage aqueous separations 
processes such as UREX+ will result in processes that will provide low 
costs, proliferation resistance, and waste management benefits 
sufficient to make them worth implementing in competition with direct 
disposal. Pyroprocessing has been tried on a somewhat larger scale over 
the years, but the process is designed for processing metals, and 
significant development is still needed to be confident in industrial-
scale application to the oxide spent fuel from current reactors. Other, 
longer-term processes might offer more promise, but too little is known 
about them to know for sure.
---------------------------------------------------------------------------
    \18\ Vandegrift et al., ``Designing and Demonstration of the UREX+ 
Process Using Spent Nuclear Fuel.''
---------------------------------------------------------------------------
    So far, we do not have a credible life-cycle analysis of the cost 
of a reprocessing and transmutation system compared to that of direct 
disposal; DOE has yet to do any detailed estimate of how much spent 
fuel can be placed in Yucca Mountain, and of non-reprocessing 
approaches to extending that capacity; we do not have a realistic 
evaluation of the impact of a reprocessing and transmutation on the 
existing nuclear fuel industry; we do not have a serious evaluation of 
the licensing and public acceptance issues facing development and 
deployment of such a system; we do not have any serious assessment of 
the safety and terrorism risks of a reprocessing and transmutation 
system, compared to those of direct disposal; and we do not yet have 
assessments of the proliferation implications of the proposed systems 
that are detailed enough to support responsible decision-making. In 
short, now is the time for continued research and development, and 
additional systems analysis, not the time for committing to processing 
using any particular technology.

Recommendations

    For the reasons just outlined, I recommend that we follow the 
advice of the bipartisan National Commission on Energy Policy, which 
reflected a broad spectrum of opinion on energy matters generally and 
on nuclear energy in particular, and recommended that the United States 
should:

        (1)  ``continue indefinitely the U.S. moratoria on commercial 
        reprocessing of spent nuclear fuel and construction of 
        commercial breeder reactors;''

        (2)  establish expanded interim spent fuel storage capacities 
        ``as a complement and interim back-up'' to Yucca Mountain;

        (3)  proceed ``with all deliberate speed'' toward licensing and 
        operating a permanent geologic waste repository; and

        (4)  continue research and development on advanced fuel cycle 
        approaches that might improve nuclear waste management and 
        uranium utilization, without the huge disadvantages of 
        traditional approaches to reprocessing.\19\
---------------------------------------------------------------------------
    \19\ National Commission on Energy Policy, Ending the Energy 
Stalemate: A Bipartisan Strategy to Meet America's Energy Challenges 
(Washington, D.C.: National Commission on Energy Policy, December 2004, 
available as of June 9, 2005, at http://www.energycommission.org/
ewebeditpro/items/O82F4682.pdf), pp. 60-61.

    At the same time, the U.S. Government should redouble its efforts 
to: (a) limit the spread of reprocessing and enrichment technologies, 
as a critical element of a strengthened nonproliferation effort; (b) 
ensure that every nuclear warhead and every kilogram of separated 
plutonium and highly enriched uranium (HEU) worldwide are secure and 
accounted for, as the most critical step to prevent nuclear 
terrorism;\20\ and (c) convince other countries to end the accumulation 
of plutonium stockpiles, and work to reduce stockpiles of both 
plutonium and HEU around the world. The Bush Administration should, in 
particular, resume the effort to negotiate a 20-year U.S.-Russian 
moratorium on separation of plutonium that was almost completed at the 
end of the Clinton Administration.
---------------------------------------------------------------------------
    \20\ For detailed recommendations, see Matthew Bunn and Anthony 
Wier, Securing the Bomb 2005: The New Global Imperatives (Cambridge, 
Mass., and Washington, D.C.: Project on Managing the Atom, Harvard 
University, and Nuclear Threat Initiative, May 2005, available as of 
June 10, 2005 at http://www.nti.org/cnwm).
---------------------------------------------------------------------------
    Similar recommendations have been made in the MIT study on the 
future of nuclear energy,\21\ and in the American Physical Society 
study of nuclear energy and nuclear weapons proliferation.\22\
---------------------------------------------------------------------------
    \21\ John Deutch and Ernest J. Moniz, co-chairs, The Future of 
Nuclear Power: An Interdisciplinary MIT Study (Cambridge, MA: 
Massachusetts Institute of Technology, 2003, available as of June 9, 
2005 at http://web.mit.edu/nuclearpower/).
    \22\ Nuclear Energy Study Group, American Physical Society Panel on 
Public Affairs, Nuclear Power and Proliferation Resistance: Securing 
Benefits, Limiting Risk (Washington, D.C.: American Physical Society, 
May 2005, available as of June 9, 2005 at http://www.aps.org/
public<INF>-</INF>affairs/proliferation-resistance).
---------------------------------------------------------------------------
    It remains possible that someday approaches to reprocessing and 
recycling will be developed that make security, economic, political, 
and environmental sense. Research and development should explore such 
possibilities. Continued investment in R&D on advanced fuel cycle 
technologies is justified, in part to ensure that the United States 
will have the technological expertise and credibility to play a leading 
role in limiting the proliferation risks of the fuel cycle around the 
world. But the leverage of these technologies in meeting the most 
serious energy challenges of the 21st century is likely to be somewhat 
limited in comparison to the promise of other potential future energy 
technologies, and the emphasis that nuclear fuel cycle R&D should 
receive in the overall energy R&D portfolio should reflect that.
    The global nuclear energy system would have to grow substantially 
if nuclear energy was to make a substantial contribution to meeting the 
world's 21st century needs for carbon-free energy. Building the support 
from governments, utilities, and publics needed to achieve that kind of 
growth will require making nuclear energy as cheap, as simple, as safe, 
as proliferation-resistant, and as terrorism-proof as possible. 
Reprocessing using any of the technologies likely to be available in 
the near-term points in the wrong direction on every count.\23\ Those 
who hope for a bright future for nuclear energy, therefore, should 
oppose near-term reprocessing of spent nuclear fuel.
---------------------------------------------------------------------------
    \23\ For earlier discussions of this point, see, for example, John 
P. Holdren, ``Improving U.S. Energy Security and Reducing Greenhouse-
Gas Emissions:The Role of Nuclear Energy,'' testimony to the 
Subcommittee on Energy and Environment, Committee on Science, U.S. 
House of Representatives, July 25, 2000, available as of June 10, 2005 
at http://bcsia.ksg.harvard.edu/
publication.cfm?program=CORE&ctype=testimony&item<INF>-</INF>id=9; and 
Matthew Bunn, ``Enabling A Significant Future For Nuclear Power: 
Avoiding Catastrophes, Developing New Technologies, Democratizing 
Decisions--And Staying Away From Separated Plutonium,'' in Proceedings 
of Global '99: Nuclear Technology--Bridging the Millennia, Jackson 
Hole, Wyoming, August 30-September 2, 1999 (La Grange Park, Ill.: 
American Nuclear Society, 1999, available as of June 10, 2005 at http:/
/bcsia.ksg.harvard.edu/
publication.cfm?program=CORE&ctype=book&item<INF>-</INF>id=2).
---------------------------------------------------------------------------
                       Biography for Matthew Bunn

    Matthew Bunn is a Senior Research Associate in the Project on 
Managing the Atom in the Belfer Center for Science and International 
Affairs at Harvard University's John F. Kennedy School of Government. 
His current research interests include nuclear theft and terrorism; 
security for weapons-usable nuclear material in the former Soviet Union 
and worldwide; verification of nuclear stockpiles and of nuclear 
warhead dismantlement; disposition of excess plutonium; conversion in 
Russia's nuclear cities; and nuclear waste storage, disposal, and 
reprocessing.
    Before joining the Kennedy School in January 1997, he served for 
three years as an adviser to the Office of Science and Technology 
Policy, where he played a major role in U.S. policies related to the 
control and disposition of weapons-usable nuclear materials in the U.S. 
and the former Soviet Union, and directed a secret study for President 
Clinton on security for nuclear materials in Russia. Previously, Bunn 
was at the National Academy of Sciences, where he directed the two-
volume study Management and Disposition of Excess Weapons Plutonium. He 
is a consultant to the Nuclear Threat Initiative, and a member of the 
Board of Directors of the Russian-American Nuclear Security Advisory 
Council (an organization devoted to promoting nuclear security 
cooperation between the United States and Russia), the Arms Control 
Association, and the Center for Arms Control and Nonproliferation.
    Bunn is the author or co-author of a dozen books and book-length 
technical reports (most recently including Securing the Bomb 2005: The 
New Global Imperatives), and dozens of articles in magazines and 
newspapers ranging from Foreign Policy and The Washington Post to 
Science and Nuclear Technology. He appears regularly on television and 
radio. Bunn received his Bachelor's and Master's degrees in political 
science, specializing in defense and arms control, from the 
Massachusetts Institute of Technology in 1985. He is married to 
Jennifer Weeks, and lives in Watertown, Massachusetts. They have two 
daughters, Claire and Nina.

    Chairwoman Biggert. Thank you.
    Dr. Hagengruber, you are recognized for five minutes.

   STATEMENT OF DR. ROGER HAGENGRUBER, DIRECTOR, OFFICE FOR 
POLICY, SECURITY AND TECHNOLOGY; DIRECTOR, INSTITUTE FOR PUBLIC 
POLICY; AND, PROFESSOR OF POLITICAL SCIENCE, UNIVERSITY OF NEW 
                             MEXICO

    Dr. Hagengruber. Thank you, Madame Chairman, and I 
appreciate the invitation by the Committee to----
    Chairwoman Biggert. If you could, pull the mike a little 
bit closer to you. Thank you.
    Dr. Hagengruber. Thank you, Madame Chairman. I appreciate 
the invitation of the Committee to testify today.
    As you mentioned earlier, the Nuclear Energy Study Group 
was convened by the American Physical Society's Panel on Public 
Affairs. We have a report, which we have submitted for the 
record.
    I--it treats several matters related to nuclear energy.
    The first is related to the question of reprocessing. At 
this point, we don't see a foreseeable expansion of nuclear 
power in the United States that would make a qualitative change 
to the need for spent fuel storage, at least for a few decades. 
Even though Yucca Mountain may be delayed considerably, the 
interim storage of spent fuel in dry casks, it--the current 
sites, or at a few regional sites, is, we believe, safe and 
affordable, at least for a couple of decades into the future. 
So we believe that there is time to be able to take a more 
enduring and prudent decision with respect to reprocessing in 
regard to the issue of proliferation.
    We have identified a number of areas in our report of 
proliferation-resistant and cost-effective technologies that we 
think should be pursued. Some of these are, in fact, being 
addressed in the Department of Energy. They include issues of 
integration of advanced safeguards into reprocessing systems, 
additional approaches to adulterating or making the material 
less attractive. But I think that a detailed examination by 
nuclear weapon experts of the viability of this material in a 
true national nuclear weapons program is desperately needed, 
and that is an extensive and rather detailed classified portion 
of research, which I do not believe, at this point, has been 
accomplished.
    We think, in a way, it is in the best interest of the 
United States to maintain a reprocessing research program and 
to seek proliferation-resistant and cost-effective reprocessing 
technologies if they can be found. We don't oppose the eventual 
reprocessing but believe an early decision, given the current 
status, could threaten the growth of the use of nuclear energy 
in the future. And by the way, nuclear energy growth is 
something that the American Physical Society supports and 
supports quite strongly.
    We don't think that we should force a decision that might 
diminish the growing momentum for nuclear energy. An early 
decision on reprocessing may not have the policy robustness 
that can sustain it through the next two decades of almost 
certain persistent threat of proliferation. From our decade's 
worth of work and public survey on nuclear matters at the 
University of New Mexico, we know that energy and waste 
management issues are not as volatile in the minds of the 
public as the issue of proliferation.
    The goal of our recommendations here is straightforward. If 
reprocessing technology is determined to be adequately 
proliferation-resistant and cost-effective, reprocessing can 
emerge then as a consensus decision with industrial, 
scientific, political, and public support. The stronger the 
consensus, in my view, the more sustainable the momentum for 
nuclear energy, and the more assured that the schedule for 
proceeding with the nuclear fuel cycle for the rest of this 
century.
    On the other hand, we recognize the importance of 
timetables and respect Chairman Hobson's desire to have people 
appear by 2007 with some decisions made, and we certainly 
applaud that, because it does tend to force people to move. We 
would suggest, perhaps, that maybe 2007 is a good time to look 
at the status of the development of technologies for this 
purpose. Maybe they will be ready to go forward. But when those 
hearings are held, we think that strong and vigorous 
discussions should occur over the proliferation-resistance 
associated with these technologies, not just in the United 
States, we are not the threat of proliferation, but if, in 
fact, pursued across the world.
    Now we want to address one last item before completing my 
testimony, and that is the importance of reinvigorating 
research and development in technical safeguards for the 
International Atomic Energy Commission. Most of the technology 
today that has provided safeguards that detected programs in 
North Korea and in Iran is technology that was developed in a 
vigorous program conducted during the 1970s. This program at 
the time, in today's dollars, probably numbered some tens of 
millions of dollars. Today's investment in research and 
development for international safeguards is only a few million 
dollars, and is a very small amount of money considering the 
opportunities provided by the advanced technologies of this 
decade and the decade before. In addition, the expansion of 
enhanced safeguards by the International Atomic Energy 
Commission during the 1990s offers opportunities for monitoring 
that are unprecedented in the first two decades of the NPT.
    There are a number of areas, just to illustrate the point, 
we know today how to produce cost-effective, internationally-
acceptable, continuous monitoring through satellite links, 
providing assured security for an instance of air sampling 
systems that can be used in conjunction with reprocessing or 
enrichment facilities. It is literally impossible for such 
facilities to, in fact, create unapproved procedures or 
material without being detected in some fashion by that type of 
rigorous sampling. In addition, the control that we use 
frequently in our nuclear weapons, the things that have assured 
us with this very high reliability associated with nuclear 
things, can, in fact, be integrated into the operations of 
facilities, assuring more detectable capability on the part of 
the United States to be able to see the operation of facilities 
in unauthorized ways.
    In conclusion, the extent to which nuclear power will be an 
enduring option to meet future energy requirements in many 
regions of the world depend upon the steps that Congress takes 
now to manage the associated proliferation risks. Prudent 
management requires pursuing proliferation-resistant 
technologies exclusively and developing international 
agreements that limit the spread of enrichment facilities and 
investing in a strong safeguards program.
    Subject to your questions, that is my testimony, Madame 
Chairman.
    [The prepared statement of Dr. Hagengruber follows:]

                Prepared Statement of Roger Hagengruber

    Thank you Congresswoman Biggert and Members of the Subcommittee for 
the opportunity to testify.
    I'm Roger Hagengruber. I am a physicist by training and currently 
Director of the Office for Policy, Security and Technology (OPS&T) at 
the University of New Mexico. From 1991 to 1999, I was Senior Vice 
President of Sandia National Laboratory directing their nuclear weapons 
programs. I spent much of my more than 30 years at Sandia in arms 
control and non-proliferation activities including several tours in 
Geneva as a negotiator.
    I am also Chair of the Nuclear Energy Study Group (NESG), convened 
by the Panel on Public Affairs of the American Physical Society. We 
examined technical options for raising the barrier between nuclear 
power and nuclear weapons proliferation. With your permission, I would 
like to include a copy of the report in the hearing record.
    We reached conclusions in three general areas: technical 
safeguards, proliferation resistance evaluation & design, and 
reprocessing.
    Let me first say that I am presenting the consensus view of a 
diverse group of scientists who are experts on nuclear power and 
proliferation issues. Over the course of their careers, members of the 
NESG held positions as DOE Undersecretary of Energy, Chair of the DOE 
Nuclear Energy Research Advisory Committee, director of research for 
the Nuclear Regulatory Commission, and acting Assistant Secretary of 
Defense.
    Over the course of several months of discussion, we developed a 
consensus position on reprocessing. Here are our three main points:

        <bullet>  There is no urgent need to reprocess.

        <bullet>  Take the time to get the science right.

        <bullet>  Do no harm.

    Let me say a few words about each point.

No Urgency

    No foreseeable expansion of nuclear power in the U.S. will make a 
qualitative change to the need for spent fuel storage over the next few 
decades. Even though Yucca Mountain may be delayed considerably, 
interim storage of spent fuel in dry casks, either at current reactor 
sites, or at a few regional facilities, or at a single national 
facility, is safe and affordable for a period of at least 50 years.
    The U.S. can take some of the next ten years to evaluate 
technologies and make a more enduring and prudent decision on 
reprocessing.

Get the Science Right

    A decision on reprocessing shouldn't outpace the science. DOE 
should take the necessary time to carry out more thorough reprocessing 
research to identify the most proliferation resistant and cost 
effective technology. Examples of areas of research that could be most 
useful are:

        --  Detailed evaluations by nuclear weapons experts regarding 
        the implications of the reprocessed material on a reliable yet 
        concealable weapons program by a proliferating country.

        --  Concepts for the integration of advanced safeguards (e.g., 
        use control) into reprocessing systems.

        --  Additional approaches to increasing the inherent protection 
        of the reprocessed material by additional adulteration or other 
        means.

    And let me be clear, it is in the best interests of the U.S. to 
maintain a reprocessing research program and seek a proliferation 
resistant and cost-effective reprocessing technology. We do not oppose 
eventual reprocessing, but believe an early decision, given the current 
status, could threaten future growth in the use of nuclear energy.
    We believe that by pursuing appropriate reprocessing technology 
that gives the highest priority to proliferation resistance, the U.S. 
retains the ability to influence future directions, both technical and 
institutional, of the international community.

Do No Harm

    We should not force a decision that might diminish the growing 
momentum for nuclear power.
    We should take a lesson from the past. More than forty years ago, 
the Atomic Energy Commission, in an effort to establish a self-
sufficient, domestic commercial nuclear power industry, set in motion 
the transfer of nuclear fuel reprocessing from the Federal Government 
to private industry. In response to this call, Nuclear Fuel Services, a 
private company, built the West Valley plutonium reprocessing plant in 
upstate New York but without addressing economic and safety issues 
adequately. The plant began operating in 1966 and closed six years 
later to address safety, environmental and efficiency problems. It 
never re-opened. The costs for retrofitting were too high, and public 
concern about the plant had grown too large.
    I think the lesson is clear: we must be cautious and not rush into 
reprocessing again until the safety, proliferation and cost issues are 
well understood and have been addressed properly.
    The goal of our recommendations is straightforward: If a 
reprocessing technology is determined to be adequately proliferation 
resistant and cost-effective, reprocessing can emerge as a consensus 
decision with industrial, scientific, political, and public support.
    That said, I have to make a confession. As a former VP of Sandia, I 
recognize the value of timetables. I understand the importance of 
Congressman Hobson requiring action by 2007.
    Timetables keep programs from becoming endless academic exercises.
    And while the science may not be able to deliver a proliferation 
resistant and cost-effective technology by 2007, that doesn't mean you 
don't try.
    So, I applaud Congressman Hobson for challenging the scientists to 
deliver. That is an effective way to motivate programs.
    Nevertheless, I think we should be cautious about our expectations. 
The lesson from the Nation's West Valley foray is that we must proceed 
carefully.
    So, I would make a modest suggestion.
    Yes, as Congressman Hobson requires, have the DOE report on the 
state of reprocessing science in 2007. But, instead of having DOE 
recommend a particular technology that ``should'' be implemented in 
2007--I suggest that DOE identify the most promising technology at that 
juncture were a decision to be made to begin development and that its 
report include a detailed discussion of the relationship of the 
technology to the prospect of proliferation. And we must be realistic 
in our expectations. It may be that despite the best efforts of all 
involved, the most promising technology in 2007 may still not be 
satisfactory to all the necessary stakeholders.
    I'm recommending a modest change of tone. The change keeps a 
reprocessing decision as a goal but maintains an open view on the 
ability to deliver a cost-effective and truly proliferation resistant 
technology by 2007.
    The DOE is currently researching reprocessing technologies 
including pyroprocessing and UREX+. An aspect of assessing 
proliferation resistance is determining whether the intensity of 
radioactive ``self-protection'' of the resulting waste is sufficient to 
prevent or deter its clandestine development into a nuclear weapon.
    Our study group considered the proliferation resistance of UREX+. 
Some members believed that the current version of UREX+ would create a 
plutonium byproduct so hot that it was incapable of being used to make 
a weapon. Others thought that UREX+ ``self-protection'' is lower than 
the ``self-protection'' of current U.S. fuel cycle waste.
    Research is on going at DOE to settle this question. We'll see what 
the research bears out. But, based on my nearly 20 years of involvement 
in nuclear weapons design I'll make one observation. The ultimate 
assessment should not be based on whether it is theoretically possible 
to make a weapon from the waste. A meaningful assessment must evaluate 
practical factors associated with making a weapon: the level of 
technical sophistication, the willingness to assume risk, the financial 
resources available, and the likelihood of success. These are difficult 
factors to evaluate--some of them will require extensive classified 
treatment--but I urge DOE to approach the assessment in this manner.
    If no cost-effective and proliferation resistant reprocessing 
technology emerges in 2007, then the U.S. will continue to promote its 
current path of open-cycle & enrichment. A number of experts are 
concerned that this path presents significant proliferation risks, as 
evidenced by Iran. I concur; the spread of centrifuge technology is a 
significant national security risk.
    There are numerous proposals for new international agreements to 
limit the spread of enrichment technologies. In our report we examined 
technical steps to limit proliferation. These steps will be most 
effective when coupled with changes in institutional arrangements.
    The first technological step is to improve the primary line of 
defense against proliferation--international technical safeguards.
    Technical safeguards used by the International Atomic Energy Agency 
sound alarms as soon as nuclear systems stray from peaceful use. They 
have proven value. In North Korea, environmental sampling helped show 
that North Korea was making false claims about its reprocessing 
activities. In Iran, disclosures by opposition groups plus surveillance 
technologies and environmental sampling are revealing the status of 
Iran's nuclear program.
    Most of the implemented safeguards technologies are the result of 
scientific work done decades ago. Proliferators are adaptive and 
motivated adversaries; yet, we are currently relying on technology that 
is almost as dated as a rotary phone. We must re-invigorate our 
safeguards R&D program. I'll mention two of the ten R&D focus areas 
identified in our report.
    More inspectors carrying out more inspections is not a sustainable 
path--instead, next generation safeguards must spur a transition from 
the current system of periodic manual inspections to a reliable and 
cost-effective system of continuous remote monitoring. Also, more 
aggressive safeguards should be explored that would shut down a 
facility found to be violating international operating agreements. 
There are numerous other examples that represent ``fruit ripe for the 
picking'' as opposed to research that may never become practical. 
Additional progress in safeguards should involve collaborative research 
with international partners. In this regard, the large programs to 
improve the security of nuclear material in Russia and to assist in 
conversion offer major opportunities to advance joint safeguards 
concept to the IAEA.
    Unfortunately, as we understand it, the current fiscal year 2005 
international safeguards-related technology budget in NNSA (which we 
believe is already several times too small) was just reduced. At the 
very time when some would seek more rapid progress on the future of 
nuclear energy, modern safeguards and a deeper analysis regarding 
proliferation may be left in the dust. As a nation, we may live to 
regret our inadequate resources and emphasis in this area because for 
the future of nuclear energy, ``ignorance is not bliss.''
    Another technical step to manage global proliferation risks is 
designing proliferation resistance technology directly into the new 
nuclear power plants and enrichment facilities. Making proliferation 
resistance a design criterion would re-shuffle the priority of future 
reactors. Some fuel-cycles would be deferred, while smaller, modular, 
reactor designs might receive more emphasis. By carrying out this step 
with commercial participation, proliferation resistance can emerge as a 
strength of our nuclear industry. We think that Congress should be very 
demanding regarding measures of proliferation resistance in any 
proposed further technical initiatives.
    In conclusion, the extent to which nuclear power will be an 
enduring option to meeting future energy requirements in many regions 
of the world depends upon the steps Congress takes now to manage the 
associated proliferation risks. Prudent management requires exclusively 
pursuing proliferation resistant technologies, developing international 
agreements that limit the spread of enrichment facilities and investing 
in a strong safeguards program.
    I'm happy to answer any questions.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                    Biography for Roger Hagengruber

    Roger Hagengruber, Ph.D., is the Director of the Office for Policy, 
Security and Technology (OPS&T) and the Institute for Public Policy 
(IPP) and a Professor of Political Science at the University of New 
Mexico. He was formerly a Senior Vice President at Sandia National 
Laboratories. From 1991-99, he directed Sandia's primary mission in 
nuclear weapons during the transition following the end of the Cold 
War. He spent much of his 30-year career at Sandia in arms control and 
non-proliferation activities including several tours in Geneva as a 
negotiator. In recent years, he has focused on the nuclear transition 
in the former Soviet Union and in security issues associated with 
counter-terrorism and has chaired or served on numerous panels that 
have addressed these areas. He has traveled widely including many 
visits to Russia where he led the large interactive program between 
Sandia and the FSU.
    His work at the University of New Mexico includes directing the IPP 
work in public survey including sampling of U.S. and European views on 
a wide range of security issues. The OPS&T is a relatively new function 
at UNM that creates multidisciplinary teams from labs and universities 
to execute projects that explore policy options in areas where security 
and technology are interrelated.
    Dr. Hagengruber has a Ph.D. in experimental nuclear physics from 
the University of Wisconsin and is a graduate of the Industrial College 
of the Armed Forces. He has been associated with UNM since 1975.

    Chairwoman Biggert. Thank you very much, Doctor.
    Dr. Finck, you are recognized for five minutes.

STATEMENT OF DR. PHILLIP J. FINCK, DEPUTY ASSOCIATE LABORATORY 
DIRECTOR, APPLIED SCIENCE AND TECHNOLOGY AND NATIONAL SECURITY, 
                  ARGONNE NATIONAL LABORATORY

    Dr. Finck. Madame Chairwoman, Representative Honda, Members 
of the Subcommittee, it is my pleasure to be here today to 
testify on technical aspects of nuclear fuel reprocessing, and 
I have submitted a more detailed written statement for the 
record.
    I am going to discuss how advanced nuclear fuel cycles can 
help mitigate the accumulation of spent nuclear fuel, and I 
will also describe the major options available and their 
respective advantages and disadvantages.
    And I have brought two charts to help frame this 
discussion.
    [Chart.]
    The first chart that is on your right illustrates projected 
scenarios for the accumulation of spent nuclear fuel in the 
United States until the end of this century. Two limits to--
related to the Yucca Mountain repository are important.
    First is the legislative limit of 70,000 metric tons of 
spent nuclear fuel that will be reached around 2010.
    Second is a technical limit of the repository's capacity of 
approximately 120,000 metric tons, which will be reached around 
2030, assuming nuclear maintains its current market share. But 
if we can implement advanced fuel cycles rapidly enough, the 
amount of spent nuclear fuel could be systematically managed to 
remain below the Yucca Mountain technical limit, as indicated 
by the blue curve on the plot on the left.
    The right-hand side of that chart illustrates also a key 
technical point for spent nuclear fuel. It is compromised 
primarily of uranium that, if separated from the fuel, can be 
disposed of as low-level waste or reused. The technical 
difficulties for disposal lie with the remaining elements that 
create short- and long-term heat loads and contribute to 
estimated doses at the boundary of the repository. In 
particular, it must be noted that the technical capacity of 
Yucca Mountain is limited by the very long-term heat generated 
by isotopes of plutonium, americium, and neptunium. To 
effectively manage repository space, these should be eliminated 
or significantly reduced. Reprocessing can separate these 
elements from the spent fuel, which makes it a first necessary 
step to eliminate them and must then be followed by recycle.
    [Chart.]
    The second chart on your left illustrates the three major 
options for managing spent nuclear fuel. The once-through 
cycle, that we are doing today in the United States, consists 
of sending the unprocessed spent fuel to the repository. Costs 
are fixed to one mill per kilowatt-hour, but the repository is 
not yet available. The mountain picture on the right 
illustrates how much repository space the United States needs 
to deal with the spent fuel.
    Limited recycle is currently implemented in France and will 
soon be implemented in Japan. And that is the second picture. 
The spent fuel is reprocessed, and pure plutonium is separated 
and recycled as mixed-oxide fuel, partially burned in a 
commercial reactor and then stored or sent to disposal. The 
benefits to our repository would be quite limited, only an 
improvement of about 10 percent. This scheme as implemented 
today also raises the flag of proliferation risk. Claims that 
this scheme is overly expensive are not correct. The life cycle 
cost of limited recycle, using real actual French data, is only 
a few percent higher than that for the once-through option.
    The last option, full recycle, is being researched 
intensely in the United States, France, Japan, and to some 
extent, in Russia. The U.S. approach relies on advanced 
technologies that significantly mitigate the disadvantages of 
the limited recycle option.
    The first step, separations, could rely on the UREX+ 
technology that minimizes liquid waste streams, separates key 
elements in groups that are well suited for transmutation in 
different reactors. It offers a significant advantage for 
nonproliferation as we can effectively eliminate the risk of 
material diversion or facility misuse by developing advanced 
monitoring, modeling, and detection technologies, and 
integrating these technologies within the plant design. Also, 
consolidation of reprocessing facilities could be a key aspect 
for increasing proliferation resistance.
    The second step consists of partially recycling plutonium, 
neptunium, and some other elements in thermal reactors. This 
step is not necessary, but may have an economic advantage that 
must be balanced with proliferation concerns.
    The last step consists of closing the fuel cycle by 
transmuting all remaining elements in fast reactors using 
pyroprocessing separations technology, with enhanced 
proliferation resistance.
    The full recycle option, as presented here, has major 
benefits.
    It increases repository space utilization by a factor of 
more than 100 and delays the need for a second repository well 
into the next century. It eliminates all isotopes that are a 
proliferation concern. It allows adoption of modern separations 
and safeguards technologies that will greatly increase its 
proliferation resistance. The increase in life cycle costs is 
10 percent or less according to OECD studies, and this must be 
contrasted with the significant benefits of this approach, 
particularly with regard to the cost and difficulties of a 
second repository.
    To conclude, we believe that the technologies being 
considered today are mature enough to justify a down-selection 
by 2007 and the startup of an engineering-scale demonstration 
that could lead to large-scale commercialization. It is 
critical that the down-selection and demonstration be performed 
not only for reprocessing technologies but in concert with 
research in recycle technologies, including fast reactors.
    Thank you, again, for the opportunity to testify before you 
on this timely and very important subject, and I would be 
pleased to answer any questions you might have.
    [The prepared statement of Dr. Finck follows:]

                 Prepared Statement of Phillip J. Finck

SUMMARY

    Management of spent nuclear fuel from commercial nuclear reactors 
can be addressed in a comprehensive, integrated manner to enable safe, 
emissions-free, nuclear electricity to make a sustained and growing 
contribution to the Nation's energy needs. Legislation limits the 
capacity of the Yucca Mountain repository to 70,000 metric tons from 
commercial spent fuel and DOE defense-related waste. It is estimated 
that this amount will be accumulated by approximately 2010 at current 
generation rates for spent nuclear fuel. To preserve nuclear energy as 
a significant part of our future energy generating capability, new 
technologies can be implemented that allow greater use of the 
repository space at Yucca Mountain. By processing spent nuclear fuel 
and recycling the hazardous radioactive materials, we can reduce the 
waste disposal requirements enough to delay the need for a second 
repository until the next century, even in a nuclear energy growth 
scenario. Recent studies indicate that such a closed fuel cycle may 
require only minimal increases in nuclear electricity costs, and are 
not a major factor in the economic competitiveness of nuclear power 
(the University of Chicago study, ``The Economic Future of Nuclear 
Power,'' August 2004). However, the benefits of a closed fuel cycle can 
not be measured by economics alone; resource optimization and waste 
minimization are also important benefits. Moving forward in 2007 with 
an engineering-scale demonstration of an integrated system of 
proliferation-resistant, advanced separations and transmutation 
technologies would be an excellent first step in demonstrating all of 
the necessary technologies for a sustainable future for nuclear energy.

Nuclear Waste and Sustainability

    World energy demand is increasing at a rapid pace. In order to 
satisfy the demand and protect the environment for future generations, 
energy sources must evolve from the current dominance of fossil fuels 
to a more balanced, sustainable approach. This new approach must be 
based on abundant, clean, and economical energy sources. Furthermore, 
because of the growing worldwide demand and competition for energy, the 
United States vitally needs to establish energy sources that allow for 
energy independence.
    Nuclear energy is a carbon-free, secure, and reliable energy source 
for today and for the future. In addition to electricity production, 
nuclear energy has the promise to become a critical resource for 
process heat in the production of transportation fuels, such as 
hydrogen and synthetic fuels, and desalinated water. New nuclear plants 
are imperative to meet these vital needs.
    To ensure a sustainable future for nuclear energy, several 
requirements must be met. These include safety and efficiency, 
proliferation resistance, sound nuclear materials management, and 
minimal environmental impacts. While some of these requirements are 
already being satisfied, the United States needs to adopt a more 
comprehensive approach to nuclear waste management. The environmental 
benefits of resource optimization and waste minimization for nuclear 
power must be pursued with targeted research and development to develop 
a successful integrated system with minimal economic impact. 
Alternative nuclear fuel cycle options that employ separations, 
transmutation, and refined disposal (e.g., conservation of geologic 
repository space) must be contrasted with the current planned approach 
of direct disposal, taking into account the complete set of potential 
benefits and penalties. In many ways, this is not unlike the premium 
homeowners pay to recycle municipal waste.
    The spent nuclear fuel situation in the United States can be put in 
perspective with a few numbers. Currently, the country's 103 commercial 
nuclear reactors produce more than 2,000 metric tons of spent nuclear 
fuel per year (masses are measured in heavy metal content of the fuel, 
including uranium and heavier elements). The Yucca Mountain repository 
has a legislative capacity of 70,000 metric tons, including spent 
nuclear fuel and DOE defense-related wastes. By approximately 2010 the 
accumulated spent nuclear fuel generated by these reactors and the 
defense-related waste will meet this capacity, even before the 
repository starts accepting any spent nuclear fuel. The ultimate 
technical capacity of Yucca Mountain is expected to be around 120,000 
metric tons, using the current understanding of the Yucca Mountain site 
geologic and hydrologic characteristics. This limit will be reached by 
including the spent fuel from current reactors operating over their 
lifetime. Assuming nuclear growth at a rate of 1.8 percent per year 
after 2010, the 120,000 metric ton capacity will be reached around 
2030. At that projected nuclear growth rate, the U.S. will need up to 
nine Yucca Mountain-type repositories by the end of this century. Until 
Yucca Mountain starts accepting waste, spent nuclear fuel must be 
stored in temporary facilities, either storage pools or above ground 
storage casks.
    Today, many consider repository space a scarce resource that should 
be managed as such. While disposal costs in a geologic repository are 
currently quite affordable for U.S. electric utilities, accounting for 
only a few percent of the total cost of electricity, the availability 
of U.S. repository space will likely remain limited.
    Only three options are available for the disposal of accumulating 
spent nuclear fuel:

        <bullet>  Build more ultimate disposal sites like Yucca 
        Mountain.

        <bullet>  Use interim storage technologies as a temporary 
        solution.

        <bullet>  Develop and implement advanced fuel cycles, 
        consisting of separations technologies that separate the 
        constituents of spent nuclear fuel into elemental streams, and 
        transmutation technologies that destroy selected elements and 
        greatly reduce repository needs.

    A responsible approach to using nuclear power must always consider 
its whole life cycle, including final disposal. We consider that 
temporary solutions, while useful as a stockpile management tool, can 
never be considered as ultimate solutions. It seems prudent that the 
U.S. always have at least one set of technologies available to avoid 
expanding geologic disposal sites.

Spent Nuclear Fuel

    The composition of spent nuclear fuel poses specific problems that 
make its ultimate disposal challenging. Fresh nuclear fuel is composed 
of uranium dioxide (about 96 percent U238, and four percent U235). 
During irradiation, most of the U235 is fissioned, and a small fraction 
of the U238 is transmuted into heavier elements (known as 
``transuranics''). The spent nuclear fuel contains about 93 percent 
uranium (mostly U238), about one percent plutonium, less than one 
percent minor actinides (neptunium, americium, and curium), and five 
percent fission products. Uranium, if separated from the other 
elements, is relatively benign, and could be disposed of as low-level 
waste or stored for later use. Some of the other elements raise 
significant concerns:

        <bullet>  The fissile isotopes of plutonium, americium, and 
        neptunium are potentially usable in weapons and, therefore, 
        raise proliferation concerns. Because spent nuclear fuel is 
        protected from theft for about one hundred years by its intense 
        radioactivity, it is difficult to separate these isotopes 
        without remote handling facilities.

        <bullet>  Three isotopes, which are linked through a decay 
        process (Pu241, Am241, and Np237), are the major contributors 
        to the estimated dose for releases from the repository, 
        typically occurring between 100,000 and one million years, and 
        also to the long-term heat generation that limits the amount of 
        waste that can be placed in the repository.

        <bullet>  Certain fission products (cesium, strontium) are 
        major contributors to the repository's short-term heat load, 
        but their effects can be mitigated by providing better 
        ventilation to the repository or by providing a cooling-off 
        period before placing them in the repository.

        <bullet>  Other fission products (Tc99 and I129) also 
        contribute to the estimated dose.

    The time scales required to mitigate these concerns are daunting: 
several of the isotopes of concern will not decay to safe levels for 
hundreds of thousands of years. Thus, the solutions to long-term 
disposal of spent nuclear fuel are limited to three options: the search 
for a geologic environment that will remain stable for that period; the 
search for waste forms that can contain these elements for that period; 
or the destruction of these isotopes. These three options underlie the 
major fuel cycle strategies that are currently being developed and 
deployed in the U.S. and other countries.

Options for Disposing of Spent Nuclear Fuel

    Three options are being considered for disposing of spent nuclear 
fuel: the once-through cycle is the U.S. reference; limited recycle has 
been implemented in France and elsewhere and is being deployed in 
Japan; and full recycle (also known as the closed fuel cycle) is being 
researched in the U.S., France, Japan, and elsewhere.

1. Once-through Fuel Cycle

    This is the U.S. reference option where spent nuclear fuel is sent 
to the geologic repository that must contain the constituents of the 
spent nuclear fuel for hundreds of thousands of years. Several 
countries have programs to develop these repositories, with the U.S. 
having the most advanced program. This approach is considered safe, 
provided suitable repository locations and space can be found. It 
should be noted that other ultimate disposal options have been 
researched (e.g., deep sea disposal; boreholes and disposal in the sun) 
and abandoned. The challenges of long-term geologic disposal of spent 
nuclear fuel are well recognized, and are related to the uncertainty 
about both the long-term behavior of spent nuclear fuel and the 
geologic media in which it is placed.

2. Limited Recycle

    Limited recycle options are commercially available in France, 
Japan, and the United Kingdom. They use the PUREX process, which 
separates uranium and plutonium, and directs the remaining transuranics 
to vitrified waste, along with all the fission products. The uranium is 
stored for eventual reuse. The plutonium is used to fabricate mixed-
oxide fuel that can be used in conventional reactors. Spent mixed-oxide 
fuel is currently not reprocessed, though the feasibility of mixed-
oxide reprocessing has been demonstrated. It is typically stored or 
eventually sent to a geologic repository for disposal. Note that a 
reactor partially loaded with mixed-oxide fuel can destroy as much 
plutonium as it creates. Nevertheless, this approach always results in 
increased production of americium, a key contributor to the heat 
generation in a repository. This approach has two significant 
advantages:

        <bullet>  It can help manage the accumulation of plutonium.

        <bullet>  It can help significantly reduce the volume of spent 
        nuclear fuel (the French examples indicate that volume 
        decreases by a factor of four).

    Several disadvantages have been noted:

        <bullet>  It results in a small economic penalty by increasing 
        the net cost of electricity a few percent.

        <bullet>  The separation of pure plutonium in the PUREX process 
        is considered by some to be a proliferation risk; when mixed-
        oxide use is insufficient, this material is stored for future 
        use as fuel.

        <bullet>  This process does not significantly improve the use 
        of the repository space (the improvement is around 10 percent, 
        as compared to a factor of 100 for closed fuel cycles).

        <bullet>  This process does not significantly improve the use 
        of natural uranium (the improvement is around 15 percent, as 
        compared to a factor of 100 for closed fuel cycles).

3. Full Recycle (the Closed Fuel Cycle)

    Full recycle approaches are being researched in France, Japan, and 
the United States. This approach typically comprises three successive 
steps: an advanced separations step based on the UREX+ technology that 
mitigates the perceived disadvantages of PUREX, partial recycle in 
conventional reactors, and closure of the fuel cycle in fast reactors.
    The first step, UREX+ technology, allows for the separations and 
subsequent management of highly pure product streams. These streams 
are:

        <bullet>  Uranium, which can be stored for future use or 
        disposed of as low-level waste.

        <bullet>  A mixture of plutonium and neptunium, which is 
        intended for partial recycle in conventional reactors followed 
        by recycle in fast reactors.

        <bullet>  Separated fission products intended for short-term 
        storage, possibly for transmutation, and for long-term storage 
        in specialized waste forms.

        <bullet>  The minor actinides (americium and curium) for 
        transmutation in fast reactors.

    The UREX+ approach has several advantages:

        <bullet>  It produces minimal liquid waste forms, and 
        eliminates the issue of the ``waste tank farms.''

        <bullet>  Through advanced monitoring, simulation and modeling, 
        it provides significant opportunities to detect misuse and 
        diversion of weapons-usable materials.

        <bullet>  It provides the opportunity for significant cost 
        reduction.

        <bullet>  Finally and most importantly, it provides the 
        critical first step in managing all hazardous elements present 
        in the spent nuclear fuel.

    The second step--partial recycle in conventional reactors--can 
expand the opportunities offered by the conventional mixed-oxide 
approach. In particular, it is expected that with significant R&D 
effort, new fuel forms can be developed that burn up to 50 percent of 
the plutonium and neptunium present in spent nuclear fuel. (Note that 
some studies also suggest that it might be possible to recycle fuel in 
these reactors many times--i.e., reprocess and recycle the irradiated 
advanced fuel--and further destroy plutonium and neptunium; other 
studies also suggest possibilities for transmuting americium in these 
reactors. Nevertheless, the practicality of these schemes is not yet 
established and requires additional scientific and engineering 
research.) The advantage of the second step is that it reduces the 
overall cost of the closed fuel cycle by burning plutonium in 
conventional reactors, thereby reducing the number of fast reactors 
needed to complete the transmutation mission of minimizing hazardous 
waste. This step can be entirely bypassed, and all transmutation 
performed in advanced fast reactors, if recycle in conventional 
reactors is judged to be undesirable.
    The third step, closure of the fuel cycle using fast reactors to 
transmute the fuel constituents into much less hazardous elements, and 
pyroprocessing technologies to recycle the fast reactor fuel, 
constitutes the ultimate step in reaching sustainable nuclear energy. 
This process will effectively destroy the transuranic elements, 
resulting in waste forms that contain only a very small fraction of the 
transuranics (less than one percent) and all fission products. These 
technologies are being developed at Argonne National Laboratory and 
Idaho National Laboratory, with parallel development in Japan, France, 
and Russia.
    The full recycle approach has significant benefits:

        <bullet>  It can effectively increase use of repository space 
        by a factor of more than 100.

        <bullet>  It can effectively increase the use of natural 
        uranium by a factor of 100.

        <bullet>  It eliminates the uncontrolled buildup of all 
        isotopes that are a proliferation risk.

        <bullet>  The fast reactors and the processing plant can be 
        deployed in small co-located facilities that minimize the risk 
        of material diversion during transportation.

        <bullet>  The fast reactor does not require the use of very 
        pure weapons usable materials, thus increasing their 
        proliferation resistance.

        <bullet>  It finally can usher the way towards full 
        sustainability to prepare for a time when uranium supplies will 
        become increasingly difficult to ensure.

        <bullet>  These processes would have limited economic impact; 
        the increase in the cost of electricity would be less than 10 
        percent (ref: OECD).

        <bullet>  Assuming that demonstrations of these processes are 
        started by 2007, commercial operations are possible starting in 
        2025; this will require adequate funding for demonstrating the 
        separations, recycle, and reactor technologies.

        <bullet>  The systems can be designed and implemented to ensure 
        that the mass of accumulated spent nuclear fuel in the U.S. 
        would always remain below 100,000 metric tons--less than the 
        technical capacity of Yucca Mountain--thus delaying, or even 
        avoiding, the need for a second repository in the U.S.

Conclusion

    A well engineered recycling program for spent nuclear fuel will 
provide the United States with a long-term, affordable, carbon-free 
energy source with low environmental impact. This new paradigm for 
nuclear power will allow us to manage nuclear waste and reduce 
proliferation risks while creating a sustainable energy supply. It is 
possible that the cost of recycling will be slightly higher than direct 
disposal of spent nuclear fuel, but the Nation will only need one 
geologic repository for the ultimate disposal of the residual waste.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

APPENDIX 1:

                       Reprocessing Technologies

    There are currently three mature options to reprocess spent nuclear 
fuel.

PUREX--Is the most common liquid-liquid extraction process for 
treatment of light water reactor spent fuel. The irradiated fuel is 
dissolved in nitric acid, and uranium and plutonium are extracted in 
the organic phase by an organic solvent consisting of tributyl 
phosphate in kerosene, while the fission products remain in the aqueous 
nitric phase. Further process steps enable the subsequent separation of 
uranium from plutonium.
    Advantages--fully commercialized process, with over 50 years of 
experience.
    Disadvantage--it is not efficient enough to achieve the present 
requirements for separations of technetium, cesium, strontium, 
neptunium, americium and curium.

UREX+--Is an advanced liquid-liquid extraction process for treatment of 
light water reactor spent fuel. Similar to PUREX, the irradiated fuel 
is dissolved in nitric acid. The UREX+ process consists of a series of 
solvent-extraction steps for the recovery of Pu/Np, Tc, U, Cs/Sr, Am 
and Cm.
    Advantages--meets current separations requirements for continuous 
recycle. Builds on engineering experience derived from current aqueous 
reprocessing facilities such as La Hague.
    Disadvantage--can not directly process short-cooled and some 
specialty fuels being designed for advanced reactors.

Pyroprocessing--These technologies rely on electrochemical processes 
rather than chemical extraction processes to achieve the desired degree 
of conversion or purification of the spent fuel. If oxide fuel is 
processed, it is converted to metal after the irradiated fuel is 
disassembled. The metallic fuel is then treated to separate uranium and 
the transuranic elements from the fission product elements.
    Advantages--ability to process short-cooled and specialty fuels 
being designed for advanced reactors.
    Disadvantages--does not meet current separations requirements for 
continuous recycle in thermal reactors, but ideal for fast spectrum 
reactors.

APPENDIX 2:

                     Answers to Specific Questions

1.  What are the advantages and disadvantages of using reprocessing to 
address efficiency of fuel use, waste management and non-proliferation? 
How would you assess the advantages and disadvantages, and how might 
the disadvantages be mitigated?

    Reprocessing of spent fuel is a necessary step in an advanced fuel 
cycle, but is insufficient to yield any significant benefits by itself: 
benefits are only incurred once the reprocessed materials are recycled 
and partially or totally eliminated. Two types of recycle schemes are 
typically considered: limited recycle in conventional reactors, and 
full recycle in advanced reactors.

Limited Recycle

    Limited recycle options are commercially available in France, 
Japan, and the United Kingdom. They utilize the PUREX process, which 
separates uranium and plutonium, and directs the remaining transuranics 
to vitrified waste, along with all the fission products. The uranium is 
stored for eventual reuse. The plutonium is used to fabricate mixed 
oxide (MOX) fuel that can be used in conventional reactors. Spent MOX 
fuel is currently not reprocessed (though feasibility of MOX 
reprocessing has been demonstrated) and is typically stored or 
eventually sent to a geologic repository for disposal. Note that a 
reactor partially loaded with MOX fuel can destroy as much plutonium as 
it creates. Nevertheless, this approach always results in an increase 
in the production of americium (a key contributor to the heat 
generation in a repository). This approach has several advantages:

        <bullet>  It can help manage the accumulation of plutonium.

        <bullet>  It can help significantly reduce the volume of spent 
        nuclear fuel (SNF) (the French examples indicates a volume 
        decrease by a factor of four).

    Several disadvantages have been noted:

        <bullet>  It results in a small economic penalty, as the 
        increase in the net cost of electricity is a few percent.

        <bullet>  The separation of pure plutonium in the PUREX process 
        is considered by some to be a proliferation risk; when MOX 
        utilization is insufficient, this material is stored for future 
        use as fuel.

        <bullet>  This process does not significantly improve the 
        utilization of the repository space (the improvement is around 
        10 percent, as compared to a factor of 100 for closed fuel 
        cycles).

        <bullet>  This process does not significantly improve the 
        utilization of natural uranium (the improvement is around 15 
        percent, as compared to a factor of 100 for closed fuel 
        cycles).

Full Recycle (the Closed Fuel Cycle)

    Full recycle approaches are being researched in France, Japan, and 
the United States. This approach is typically comprised of three 
successive steps: an advanced separations step based on the UREX+ 
technology that mitigates the perceived disadvantages of PUREX, partial 
recycle in conventional reactors, and closure of the fuel cycle in fast 
reactors.
    The first step, UREX+ technology, allows for the separations and 
subsequent management of very pure streams of products. It produces the 
following streams of products: uranium, that can be stored for future 
use or can be disposed of as low-level waste; a mixture of plutonium 
and neptunium that are intended for partial recycle in conventional 
reactors followed by recycle in fast reactors; separated fission 
products intended for short-term storage, possibly for transmutation, 
and for long-term storage in specialized waste forms; and the minor 
actinides (americium and curium) for transmutation in fast reactors. 
The UREX+ approach has several advantages: it produces minimal liquid 
waste forms (and eliminates the issue of the ``waste tank farms''); 
through advanced monitoring, simulation and modeling it provides 
significant opportunities for detecting misuse and diversion of weapons 
usable materials; it provides the opportunity for significant cost 
reduction; and, finally and most importantly, it provides the critical 
first step in managing all hazardous elements present in the SNF.
    The second step, partial recycle in conventional reactors can 
expand the opportunities offered by the conventional MOX approach. In 
particular, it is expected that with significant R&D effort, new fuel 
forms can be developed that can burn up to 50 percent of the plutonium 
and neptunium present in the SNF. (Note that some studies also suggest 
that it might be possible to recycle fuel in these reactors multiple 
times (i.e., reprocess and recycle the irradiated advanced fuel) and 
further destroy plutonium and neptunium; other studies also suggest 
possibilities for transmuting americium in these reactors. 
Nevertheless, the practicality of these schemes is not yet established 
and requires additional scientific and engineering research.) The 
advantage of the second step is that it reduces the overall cost of the 
closed fuel cycle by burning plutonium in conventional reactors, and 
reducing the number of fast reactors needed to complete the 
transmutation mission of minimizing hazardous waste. This step can be 
entirely bypassed, and all transmutation performed in advanced fast 
reactors, if recycle in conventional reactors is judged to be 
undesirable.
    The third step, closure of the fuel cycle, using fast reactors to 
transmute the fuel constituents into much less hazardous elements, and 
pyroprocessing technologies to recycle the fast reactor fuel, 
constitutes the ultimate step in reaching sustainability for nuclear 
energy. This process will effectively destroy the transuranic elements, 
resulting in waste forms that contain only a very small fraction of the 
transuranics (less than one percent) and all fission products. These 
technologies are being developed at Argonne National Laboratory and 
Idaho National Laboratory, with parallel development in Japan, France, 
and Russia.
    The full recycle approach has significant benefits:

        --  It can effectively increase the utilization of the 
        repository space by a factor in excess of 100.

        --  It can effectively increase the utilization of natural 
        uranium by a factor of 100.

        --  It eliminates the uncontrolled buildup of all isotopes that 
        are a proliferation risk.

        --  The fast reactors and the processing plant can be deployed 
        in small co-located facilities that minimize the risk of 
        material diversion during transportation.

        --  The fast reactor does not require the use of very pure 
        weapons usable materials, thus increasing their proliferation 
        resistance.

        --  It finally can usher the way towards full sustainability to 
        prepare for a time when uranium supplies will become 
        increasingly difficult to ensure.

        --  These processes would have limited economic impact: the 
        increase in the cost of electricity would be less than 10 
        percent (ref: OECD).

        --  Assuming that demonstration of these processes is started 
        by 2007, commercial operations are possible starting in 2025; 
        this will require adequate funding for demonstrating the 
        separations, recycle, and reactor technologies.

        --  The systems can be designed and implemented to ensure that 
        the mass of accumulated SNF in the U.S. would always remain 
        below 100,000MT, (Note: less than the technical capacity of 
        Yucca Mountain) thus delaying, or even avoiding, the need for a 
        second repository in the U.S.

    Several disadvantages have been noted:

        --  These processes would have limited economic impact: the 
        increase in the cost of electricity would be less than 10 
        percent (ref: OECD).

        --  Management of potentially weapons-usable materials may be 
        viewed as a proliferation risk.

    These disadvantages can be addressed by specific actions:

        --  Fuel cycle and reactor R&D is currently going on in the DOE 
        Advanced Fuel Cycle Initiative (AFCI) and Gen-IV programs to 
        reduce the costs of processing, fuel fabrication, and advanced 
        reactors.

        --  Advanced simulation, modeling, and detection techniques can 
        be used in fuel cycle facilities to improve material 
        accountability and decrease the risk of misuse or diversion.

        --  An aggressive development and demonstration program of the 
        advanced reactors and recycling options is needed to allow 
        commercialization in a reasonable timeframe.

2.  What are the greatest technological hurdles in developing and 
commercializing advanced reprocessing technologies? Is it possible for 
the government to select a technology by 2007?

    To answer the first part of the question, the first major hurdle is 
the current inability to test the chemical processing steps at a pilot-
scale using spent nuclear fuel (both as individual process steps and in 
an integrated manner simulating plant operations) to verify that both 
the process itself and the larger scale equipment will function as 
intended, and to minimize the technical risks in designing the 
commercial-scale plant. The processing methods currently being refined 
under the scope of the DOE AFCI program are being designed to very high 
standards for purity of products and efficiency of recovery, in order 
to reduce costs and minimize the hazardous content of high-level 
wastes. The processes have been successfully tested at laboratory scale 
(about one-millionth of industrial scale). Normal expectations for 
scale-up of industrial chemical processes are that the processes proven 
in the laboratory will perform well at full scale, provided that the 
process and equipment function as intended. In order to test process 
operations and equipment designs, it is necessary to conduct pilot 
plant operations at one/one-hundredth to one/one-thousandth of 
industrial scale with the complete process.
    The second major hurdle is related to the first, in that there is 
an insufficient supply of some of the various chemical elements needed 
for the development and testing of product storage forms and waste 
disposal forms. However, it is anticipated that these would become 
available as a result of pilot-scale testing, but the lack of materials 
will hinder progress prior to that time.
    For the second part of the question, yes, it is completely 
reasonable to select a processing technology by 2007, given the present 
state of development for the processing technologies. The level of 
success achieved in the DOE AFCI program to date indicates that the 
development of at least one processing technology satisfying program 
goals, UREX+, will be advanced to the stage where pilot-scale testing 
is warranted. At that time, it should also be possible to evaluate 
whether any of the other promising technologies currently being studied 
have proven capable of meeting program goals, and are also near to 
pilot-scale testing.
    However, it must be emphasized that the reprocessing technology by 
itself will not provide any significant benefits unless the development 
of such capability is matched by similar advances in recycling 
technologies. In the case of full recycle, the development of both 
suitable reactors for recycling transuranics and appropriate nuclear 
fuel forms containing transuranics must proceed in parallel to testing 
and implementation of spent fuel processing. Only with all of the 
pieces in place will substantial benefits be achievable.

3.  What reprocessing technologies currently are being developed at 
Argonne or at other national labs? What technical questions must be 
answered?

    AFCI processing (chemical separations) technology is being 
developed at Argonne National Laboratory, Idaho National Laboratory, 
Los Alamos National Laboratory, Oak Ridge National Laboratory, Sandia 
National Laboratory, and Savannah River National Laboratory. All are 
involved with the development of aqueous solvent extraction 
technologies (the suite of UREX+ processes), while ANL and INL are also 
developing the pyrochemical processing technology that will be required 
for the nuclear fuel cycle associated with Gen-IV reactors. The aqueous 
technology is needed for near-term application, and the emphasis is on 
process optimization, equipment development, and plant design. The 
pyrochemical technology is needed for deployment of the Gen-IV 
reactors, and requires large scale demonstration. Emphasis on 
pyroprocessing is in testing of process features, with some work in 
progress on process equipment and facility design.
    The UREX+ solvent extraction demonstrations have shown that it can 
meet separations criteria; however, integrated, engineering-scale 
testing is required to complete development. Continuing work is 
required to optimize flowsheets and increase process robustness and 
operations efficiency. An adequate facility is required for 
engineering-scale demonstrations to test equipment, advanced 
instrumentation for process control and PR&PP (Proliferation Resistance 
and Physical Protection), conversion of product and waste forms.
    Pyroprocessing requires continued process development followed by 
engineering-scale demonstration of flowsheets developed for 
reprocessing the many alternative advanced reactor fuels. Improvements 
in the areas of transuranic element recovery and process equipment 
design needs to be completed. Similar to the UREX+ process an adequate 
facility is required for engineering-scale demonstration.

4.  What reprocessing technologies are still in the basic research 
stage, what advantages might they offer, and what is the estimated 
timeline for development of laboratory scale models?

    There are currently two mature technologies for reprocessing, UREX+ 
and pyroprocessing. For industrial scale implementation optimization of 
these technologies is still necessary:

        <bullet>  Off-gas treatment from fuel decladding and 
        dissolution for retention of tritium, carbon-14, ruthenium, and 
        technetium to prevent their migration to downstream operations 
        where they are harder to sequester. Development of high 
        efficiency scrubbers is currently an effort in other countries.

        <bullet>  Advanced instrumentation and process-sampling 
        techniques for near real time accounting for process control 
        and material accountability.

        <bullet>  Process diagnostics for early on-line detection using 
        signals from process instrumentation to differentiate 
        legitimate process operation versus clandestine product 
        diversion.

        <bullet>  Waste forms optimization for preventing migration of 
        radionuclides and reduce potential heath hazard to the public.

    Nevertheless, there are a number of novel technologies where basic 
research could provide an alternative to the current technologies, with 
the potential of minimizing dose to the public and workers and 
environmental impacts. These research areas are:

        <bullet>  Development of ligands, chelating agents, and 
        advanced extractant molecules based on fundamental principles 
        to guide their preparation. Advantages--molecules could be 
        tailored to perform a specific function such as separations of 
        a given transuranic element. Estimated timeline 20 years.

        <bullet>  Development of environmentally benign separations 
        processes such as based on magnetic and electronic differences. 
        Advantages--produce minimum secondary wastes and significantly 
        decrease the consumption of chemicals. Estimated timeline 30 
        years.

        <bullet>  Development of bio-based separations. Advantages--
        identify methods and replicate biological compound functions 
        leading to new separation schemes, for example, separations of 
        actinides over lanthanides. Estimated timeline 50 years.

5.  How would you contrast what is being done internationally with U.S. 
plans for reprocessing, recycling and associated waste management? What 
countries recycle now? What components of the waste fuel are or can be 
used to make new reactor fuel?

    Commercial reprocessing plants in France, the United Kingdom and 
Japan utilize the PUREX process, which separates uranium and plutonium 
and directs the remaining transuranics (americium, neptunium, and 
curium) to vitrified waste along with all of the fission products. 
Reprocessing operations in the U.K. may be terminated within the next 
10 years, primarily because the shutdown of gas-cooled power reactors 
is limiting the need for the Sellafield B-205 plant. BNFL's THORP plant 
at Sellafield is principally used for light water reactor (LWR) spent 
fuel processing; the U.K. has only one LWR in operation and the market 
for foreign LWR fuel processing is decreasing. A shutdown of THORP has 
been announced for 2010. In contrast, a vigorous reprocessing activity 
is in progress in France at the La Hague plant of COGEMA. This plant is 
processing spent fuel from foreign sources as well as from the 57 power 
reactors of Electricite de France. Plutonium is recovered for recycle 
to the EdF reactors as mixed oxide (MOX) fuel. Research on means for 
improving waste management through reprocessing have been stimulated by 
the 1991 law, and research is in progress now at the laboratories of 
the Commissariat a l'Energie Atomique (CEA) that is following much the 
same lines as that pioneered in the AFCI program of DOE. Commercial 
reprocessing will begin soon in Japan at the Rokkasho-mura plant of 
Japan Nuclear Fuel Ltd. The Rokkasho Reprocessing Plant is designed for 
the production of a mixed uranium-plutonium product that can be used to 
produce mixed oxide fuel for recycle in Japanese light water reactors. 
Japanese laboratories are also experimenting with advanced spent fuel 
processing methods.
    The U.S. program represents a transition to an advanced nuclear 
fuel cycle. In the U.S., emphasis is being placed on technologies that 
can be successfully deployed in the next 20 years or so and be 
economically competitive as well as secure against all threats. The 
wastes arising from future U.S. process plants will be virtually free 
of radiotoxic elements, and there will be no generation of liquid 
wastes requiring underground tank storage. We expect our efforts to 
help us regain international leadership in the field of nuclear energy.
    Both Japan and France are currently developing advanced fuel 
cycles, similar to the ones described in this paper, where there first 
would be partial recycle in conventional reactors, followed by closure 
of the fuel cycle in fast reactors. The U.S. program has had 
significant international collaborations with these two countries, and 
there have been excellent exchanges of research results. The approaches 
in the three countries are relatively well aligned, with a stronger 
emphasis on the short-term development of separations technologies in 
the U.S., and a stronger emphasis on the long-term development of fast 
reactors in France and Japan.

                     Biography for Phillip J. Finck

    Phillip Finck received his Ph.D. in Nuclear Engineering from MIT in 
1982, and a MBA in 2001 from the University of Chicago. He was a 
mechanical engineer at NOVATOME, France from 1983 to 1986, and was 
involved in the safety and design of fast reactors, including 
Superphenix. In 1986, he joined Argonne National Laboratory and was 
involved in neutronics methods development for the Integral Fast 
Reactor concept, and later for the New Production Reactor. In 1991, he 
became the lead for EBR-II neutronics analyses at ANL-E. In 1993 he 
joined the French Atomic Energy Commission where he became the head of 
the Reactor Physics Laboratory at the Cadarache Center, with activities 
in LWR and LMR physics, criticality safety, fuel cycle physics, and 
nuclear data. In 1995, he was elected to chair the European nuclear 
data project--JEF. Dr. Finck rejoined ANL in 1997, where he became the 
Associate Director of the Technology Development Division. He has led 
the ANL activities in the Advanced Accelerator Applications program 
since 2000, and has been heavily involved in transforming the program 
from accelerator-based to reactor-based transmutation. In 2003 he was 
named Deputy Associate Laboratory Director, Engineering Research, where 
he was responsible for coordination of all nuclear energy related 
activities at ANL, including AFCI and Gen-IV programs, and development 
of new initiatives. Since 2004, Dr. Finck is the Deputy Associate 
Laboratory Director for Applied Science and Technology and National 
Security; in this position, he coordinates all energy-related 
activities at ANL.
    Dr. Finck is a Fellow of the American Nuclear Society.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               Discussion

    Chairwoman Biggert. Thank you very much for your testimony.
    We will now turn to the questions, and I will yield five 
minutes to the--Chairman Hobson.
    Mr. Hobson. I just have, quickly, a couple of things, 
because I have to leave, but I want to thank you all for your 
testimony. I may not agree with all of it, but I like it. I 
like the fact that we are having this dialogue, because it 
wasn't happening.
    Mr. Bunn, I would like to ask you, in your numbers that you 
have put together, do you include any costs associated to the 
liability increase each year that this government has to pay 
the utilities for not removing the waste from their site?
    Mr. Bunn. We include--one of the assumptions that we make 
that is favorable to reprocessing, we tried to make 
assumptions, in general, that were favorable to reprocessing in 
order to be, you know, fair and ironclad in our conclusions. 
And we assigned to the cost of the direct disposal option 100 
percent of the cost of interim storage for many decades prior 
to disposal, and we assumed that there was zero cost for 
interim storage with respect--on the reprocessing side. So yes, 
we did include that. And the costs of storage are actually----
    Mr. Hobson. Oh, no, no, no. I am talking about the 
liability----
    Mr. Bunn. I understand that, but the liability----
    Mr. Hobson.--cost. There is $500 million----
    Mr. Bunn. The liability to the government depends on the 
costs to store that fuel. The--if the government takes title to 
that fuel and pays for its storage, then its liability is the--
--
    Mr. Hobson. No, but you are making an assumption that would 
take legislation, as I understand it, to do. Is that correct?
    Mr. Bunn. I am saying that the government should not be in 
the business of paying the utilities amounts that far exceed 
their actual cost for storing the amount of nuclear fuel, and 
therefore, one should look at what the cost of storing spent 
fuel actually is. The cost of providing 40 years of dry cask 
storage for spent fuel is less than $200 a kilogram. The cost 
of reprocessing spent nuclear fuel, even in a new facility, 
financed entirely with government money at a low government 
rate of interest, would be more than $1,000 a kilogram if its 
capital and operating costs were identical to the costs of the 
plants built in France and Britain, and much more than that if 
it were identical to the cost of the most recent plant built in 
Japan, whose costs are astronomical.
    So it is really--it is quite a large difference. You will 
find, if you talk to utilities, that none of them are 
particularly interested in paying for reprocessing of their 
spent fuel if they can simply buy dry casks.
    Mr. Hobson. Well, a lot of them are trying to move them out 
of the area that they have got them in, so----
    Mr. Bunn. Yes, they would love to have the government take 
it away. There is no doubt about that.
    Mr. Hobson. No. No. Excuse me. They are providing a site in 
Utah--they are attempting to provide a site in Utah, because 
they want to move them----
    Mr. Bunn. That is right.
    Mr. Hobson.--out of the cities where they have got them.
    Mr. Bunn. Right.
    Mr. Hobson. And the security problems that they have, which 
I am suspect of the--let me put it this way. I am suspect of 
the numbers, but we will look at the numbers.
    I would also like to ask you, have you visited the sites in 
France?
    Mr. Bunn. I have.
    Mr. Hobson. And have you written the same negative 
situation with the sites in France and encouraged them to do 
away with their sites and get away from reprocessing? Because 
if you look where those sites are, there are vineyards growing 
up. And if you go to the Netherlands, there is a playground on 
the other side. Obviously, there are differing opinions in the 
world, and I am always interested how we always write about our 
side of it, but we have not written--maybe you have, and I 
don't know the answer. You should never ask a question you 
don't know the answer to, but I am concerned that I don't see 
the same concerns expressed about these existing facilities, 
which what I have seen, seem to try to do it in a responsible 
way, and have--don't have the reliance upon fossil fuels in 
their country that we do, don't have the proliferation of the 
air that we do from the plants. And my point is, we need to 
move forward in this, but I don't see the same negatives 
written about that that is written about our ability to try to 
sustain our country. So I will let you answer that, and then I 
will----
    Mr. Bunn. Well, first of all, I am not against nuclear 
energy. I am a supporter of nuclear energy, and as I made the 
point at the end of my testimony, I believe that if--those who 
support nuclear energy ought to be trying to make it as cheap, 
as simple, as safe, and as non-controversial as possible in 
order to build the support needed to grow nuclear energy. And I 
think that reprocessing with traditional PUREX type 
technologies, as implemented in France and Britain and Japan, 
points in the wrong direction on every count. I have expressed 
concern about the facilities in France and Britain and Japan 
for many years, as have many of my colleagues. But the reality 
is those facilities exist. Large investments have been made. 
Those countries are not going to change their process--their 
approaches any time soon. However, it is worth noting that when 
those facilities were first built, they had substantial foreign 
customers, and now the foreign customer base is dwindling away 
to almost nothing, because utilities around the world are 
realizing increasingly that dry cask storage offers a cheaper 
alternative, which leaves all options open. There is nothing 
that says that after you have stored spent fuel for 30 years in 
a dry cask you can't then take it out and reprocess it later if 
technology develops that is, in fact, more promising than the 
traditional technologies. I should say that all of the numbers 
we used with respect to the cost of reprocessing are drawn from 
official French and British studies.
    Mr. Hobson. Yes.
    Mr. Bunn. They are the French and British numbers.
    Mr. Hobson. Well, I like your final conclusions that you 
came to on the processing. When you talked about--I will just 
finish with this. When you talked about drying up, you mean on 
the reprocessing side of it? Because the Germans, as I 
understand it, are buying energy, as we speak, from----
    Mr. Bunn. Yes, I mean, I----
    Mr. Hobson.--the French----
    Mr. Bunn. No, I mean the customers for the reprocessing 
plants.
    Mr. Hobson.--facilities. Okay.
    Mr. Bunn. I mean the customers are----
    Mr. Hobson. Okay. I am sorry.
    Mr. Bunn.--from the reprocessing plants.
    Mr. Hobson. Well, again, thank you all for--and I want to 
thank the Chairwoman for this dialogue, because we weren't 
having this dialogue. And what we need to do is continue having 
this dialogue, in my opinion, so that we do move forward and 
not just be in a stagnant situation, because every year that--
and I want to say in this forum before I leave, I am a big 
proponent of Yucca Mountain. I will have a huge fight with the 
Senate over that in getting it done. But I also understand that 
there are some things we have got to do along the way. And what 
we are both trying to do here is to create a dialogue that we 
move forward, and if we don't put some things into legislation 
and if we don't move and talk about this, we continue to be in 
a stagnant position, and we will continue our reliance upon 
fossil fuel, which I firmly believe we can not do. I don't 
think environmentally it is appropriate, and we just physically 
can't afford it in the future to continue in this way.
    So I want to thank you again. I am going to have to leave, 
and I want to thank the indulgence of the Committee for 
allowing me to intrude to show support and to listen to all of 
your testimony.
    Mr. Bunn. Thank you.
    Chairwoman Biggert. And thank you, Chairman Hobson, for all 
of the work that you are doing on this. And thank you for 
coming today.
    And with that, I would recognize Ranking Member, Mr. Honda, 
for five minutes.
    Mr. Honda. Thank you very much.
    I am going to set aside my written questions. I am going to 
submit them, if you don't mind, Madame Chair, to the witnesses 
and expect a written response from them.
    What I heard this morning is a range of opinions, but what 
I think I heard was that there is agreement that we need to 
continue on R&D. And I am judging by the nod of the heads that 
it sounds like that is correct.
    Then the question is really is the process or the steps 
that we need to take in order to get to a point where we think 
that the disposition of spent fuel is the most appropriate and 
the most safe way without rushing into a solution because of 
political timelines and things like that? So I was just 
wondering from each witness what their response is to each 
other's comments and why they feel the way they do. I am not 
trying to pit one against the other, but we have witnesses here 
who have a lot of----
    Mr. Johnson. A broad range of views.
    Mr. Honda.--knowledge and experience, and I would sort of 
like to listen to that before I ask any more questions. And we 
could start with Mr. Johnson.
    Mr. Johnson. Thank you, sir.
    I guess I would like to begin my answer by agreeing with 
your observation. I believe that what you heard this morning is 
there is more agreement among us than, possibly, disagreement 
with respect to the need of moving forward with a robust 
research and development program on the issue of spent nuclear 
fuel, recycle technologies, safeguard technologies. And the 
Department very much is supportive of that, and as you have 
seen in our budget request for the last couple of years, we are 
continuing to move forward in trying to walk through in a step-
wise, reasonable fashion the development of the technologies 
needed to address the issues associated with spent nuclear 
fuel.
    I believe I will leave my comments at that. Thank you.
    Mr. Honda. Oh, okay.
    Mr. Bunn. I am a supporter of continued research and 
development, but I think even with respect to research and 
development, we need to be very careful with respect to the 
proliferation implications. For example, I am somewhat 
concerned over pursuing research and development on 
reprocessing technologies with South Korea, which is a country 
that has a formal agreement not to have either enrichment or 
reprocessing on its soil. It is a country that had a secret 
nuclear weapons program that was stopped under U.S. pressure 
that was based on plutonium reprocessing. And some of these 
technologies, while they may reduce some of the hazards of 
PUREX, are not as proliferation-resistant if you look at the 
contribution they could make to the acquisition of the needed 
expertise and facilities if they were broadly deployed in the 
developing world--the contribution to a proliferating state's 
nuclear weapons program.
    Moreover, some of the technologies, the amount of other 
things that are being separated and cycled with the plutonium 
is pretty minor. In the case of UREX+, essentially, as I 
understand it, what you are--what is separated with the 
plutonium is the neptunium. Neptunium-237 is also a potentially 
attractive nuclear weapons material. So one has to worry about 
the possibility of theft of materials containing plutonium and 
neptunium-237 perhaps somewhat less than one would about theft 
of pure plutonium. But that is the kind of thing that requires 
the fact-finding examination that Dr. Hagengruber was talking 
about.
    I should mention, since I have been questioned on the 
subject of our economic assumptions and so on, that I did bring 
a number of copies of the full study, which has the complete 
references and so on. It is available on-line at a link that is 
included in my testimony, and I would like to submit, for the 
record, the article-length version of which is in the current 
issue of Nuclear Technology.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairwoman Biggert. Without objection.
    Mr. Honda. Thank you.
    Dr. Hagengruber. Yeah, a very interesting question to be 
done with an answer to be compact. Unfortunately, I am the age 
where I started more than 35 years ago, my first study was to 
look at long-term and short-term technical approaches to 
nuclear waste. The reactors cost $1 billion at the time. There 
wasn't a Three Mile Island. There wasn't a study on it, and 
there wasn't a Carter decision on reprocessing. And it seems 
like I have seen all of this before. We knew how to reprocess 
material in a way that produced the closed fuel cycle. We knew 
what the nuclear waste issues were, including interim storage 
as a very attractive option. We had lots of technical 
opportunities that were demonstrated up in Idaho and other 
places and Hanford for how to dispose the material, maybe not 
as good as today, but it is hard to see the last 30 years as 
having made that much progress.
    The issue, in the end, wasn't the cost of nuclear power and 
the issue of interest rates and--I mean, West Valley was built 
and then shut down not--in part not because the technology 
failed, but the basic decision of the infrastructure and the 
supporting infrastructure had a hole in it. The hole is that 
proliferation became an increasing concern, not just because it 
was President Carter. It was a national concern. There were the 
London Suppliers Group and other people got together, and 
decisions were struggled with, not consensus, to decide whether 
or not to reprocess in order to have this plutonium appear as 
an economy, whether it was in the United States. Whatever we 
did, the world would, in fact, eventually do. And today, even 
after all of these years of being out of the business, the 
world still waits for us to make the decision on Generation IV, 
to make the decisions on reprocessing, to make the decisions on 
Yucca Mountain. I mean, with all deference to France and the 
other countries making these choices, people are looking to us 
for leadership in the future of nuclear energy.
    Our position at APS and the position that is not in 
controversy with anything that has been said here, the 
technical information about the processes, the work of the 
Department in trying to pursue it, Matt's comments about it, I 
mean, we all--we would agree with many of these. We represent 
44,000 physicists, and you can probably not get two of them to 
have the same opinion on anything. But where they divide on the 
business of plutonium is simple. They believe that if this 
plutonium appears in the economy, one group believes that it is 
so unattractive that it will never be made into a weapon. The 
other group believes that it is explosive. From a physics point 
of view, interestingly enough, they are both absolutely right. 
You could make it into an explosive. On the other hand, no 
country sophisticated enough to do that, in my judgment, would 
ever choose to use that material for a weapons program. But we 
face the important decision, and you face the decision, that we 
can make all of the technical decisions about waste and 
reprocessing, and there will be good decisions. The Department 
of Energy will do good research, and laboratories like Argonne 
will provide good technologies. But if you wish to avoid 
another West Valley, if you wish to have a robust leadership of 
nuclear energy that will last for 30 or 40 years, the issue of 
proliferation has got to be central in the decision about 
whether to go forward. And these technologies not only have to 
be robust, there has to be a consensus in this country that 
they are, because what we do, the rest of the world will take 
as leadership. Thank you.
    Dr. Finck. Yes, I want to make five comments. And the first 
one is one of the most important one. And Madame Chairwoman 
made the right comment that we need to have a systems look at 
this issue. If when you look at the trees, we will forget to 
look at the forest. And the ``forest'' here is our future. The 
future where we need to have energy sources. We need to have a 
total look and integrate a nuclear energy system that needs to 
deal with its waste, needs to deal with its resources.
    And my second comment is about--is to Mr. Bunn about the 
UREX+ technology. The UREX+ can actually lure you to do a co-
separation of all of the transuranics. When we talk about 
proliferation resistance, we should actually not concentrate on 
what the separation technology is, but on where the recycle 
technology is for the following reasons. Thermal reactors for 
physics reasons need relatively pure products. You can not 
recycle fission products in thermal reactors, for example. 
Therefore, it is difficult to put dirty products, or 
proliferation-resistant products, back in a thermal reactor. 
The first reactor--pure physics reasons that we cannot change--
can take much dirtier product. So the issue of proliferation 
resistance should be put on the level of what reactors you want 
to use, what spectrum we are going to use. I mean, it is a real 
physics question.
    My third comment is on safeguards, and I absolutely agree 
with what Dr. Hagengruber has been saying. We are at a stage 
where we today can make major impacts on what we are doing with 
new technologies having developed new computing technologies, 
new modeling capabilities, and we can really change the future 
drastically there to avoid any risk of diversion of misuse of 
any plant.
    Comment number four on economics. Again, we should not look 
at a tree. We need to look at the forest. We need to do a full 
life cycle analysis for the economics of the nuclear system. 
The disposal part of the disposal component of the nuclear fuel 
cycle is only a few percent, changing the cost of a few percent 
by even 50 percent might not be that important in view of the 
benefits we can get out of that change.
    Lastly, a comment on research and development. I think this 
country in the last four or five years, I have been here about 
eight years, and we have made major progress in nuclear R&D. We 
have basically come from a place where there was not much going 
to a place where we can be the leaders of the world. But the 
objective here is not to be a leader of the world in R&D. The 
objective, to me, is very different. We are going to need 
nuclear power, because we are going to need clean energy. 
Global warming is probably a very major concern. Energy 
security is a concern. We are going to need to build these 
reactors. What I would like, personally, is to build them with 
U.S. technology in U.S. plants by creating high-tech U.S. jobs. 
It is important that we do this R&D so that the plants are 
fabricated here and we don't import them from elsewhere.
    Thank you.
    Chairwoman Biggert. Thank you. Thank you very much.
    And I will recognize myself for five minutes.
    Dr. Finck's testimony points out that the technology 
decisions link to reactor design and fuel cell choices. How is 
the Department coordinating a decision on reprocessing with the 
decisions for a next generation nuclear plant design, 
transmutation, technology, and overall fuel cycle choices? Are 
you working with industry on these choices?
    Mr. Johnson. Thank you. With respect to the future and the 
linkage between our advanced reactor technology development 
program and our advanced fuel cycle program, those two programs 
are actually very much intertwined where we have laboratory 
personnel across the complex working cooperatively across 
laboratory boundaries with one another, such as Argonne, Idaho, 
Los Alamos working together. The decisions that we are making 
with respect to the Generation IV reactor technologies, those 
decisions are being made in the context of the fuel 
technologies and recycle technologies that are being 
investigated or are under investigation within the advanced 
fuel cycle program. So it is very much a very well integrated 
activity. We are working in the Generation IV program on an 
international basis so that it also brings in our international 
laboratory partners in France, Japan, and others. So the 
decisions--it is, at this point, very early in the Generation 
IV reactor development, actually the fuels program, I believe 
rightly so, is leading the reactor development, trying to look 
at what type of reactor fuels are best for getting to the key 
issues of minimization of waste generation, maximizing the 
transmutation of the various waste products within an existing 
fuel cycle for a Generation IV program. We have much work left 
to do, don't get me wrong, but the--with respect to the 
execution of the Department's advanced reactor and fuel cycle 
program, it is highly integrated from top to bottom, both in 
the federal staff, laboratory staff. You asked with respect to 
the industry participation, we probably do not have as much 
industry participation as we could. The commercial industry 
today is focused on the near-term deployment, looking through 
our Nuclear Power 2010 program getting plants built in the 
next, you know, five- to 10-year time frame whereas the work we 
are doing in our advanced fuel cycle engine programs are 
longer-term looking 20 to 30 years out.
    Thank you.
    Chairwoman Biggert. One of the big differences, it seemed 
like, in particularly, France where the--it is a government 
subsidy, really, to operate these plants, which is a big 
difference than we have in the United States.
    Mr. Johnson. Yes, ma'am.
    Chairwoman Biggert. Then Dr. Finck, how long would it take 
Argonne or another DOE lab to develop a detailed engineering 
system of the fuel cycle, including the economics, the waste, 
proliferation-resistant, and general safety and security 
characteristics? I mean, is anyone working on such a model now?
    Dr. Finck. Yes. We are actually working in collaboration 
with all of other labs, including Idaho, Los Alamos, Oak Ridge, 
I think, yes, on the systems analysis. And I think we have been 
doing this for, now, three years in an integrated manner. We 
have made a lot of progress where I would say by 2007, which is 
a deadline that comes up often, and even maybe before, we 
already have many of the technical answers. I think we are in 
the stage of integrating them and we look at the systems. And 
so 2007 seems to me with a focused effort to be absolutely 
reachable.
    Chairwoman Biggert. Well, I seem to recall, since I have 
been on this committee and since I have been in Congress, that 
you have been working on EMT and pyroprocessing and things that 
it seems like it is not something new that has just come up 
this year that we are planning on doing.
    Dr. Finck. Yes, indeed. Many of the technologies we have 
put through these systems are relatively mature and the 
technical answers are well understood.
    Chairwoman Biggert. Yeah, and it is true that France is 
really operating on a system that really was developed years 
and years ago. Is it 30 years or so that----
    Dr. Finck. Well, I think the PUREX technology was first 
published integrally in 1957. I mean, this is a well-known 
technology, which is quite accessible. I think the book was 
published in 1957, if I recall. So they are using many of the 
technologies--actually U.S. technologies that we exploited----
    Chairwoman Biggert. That is what they told us that they 
have gotten them from----
    Dr. Finck. These are extremely well known, and then they 
improved them after--of course, after they acquired them. For 
example, one of the big improvements is to reduce the volume of 
waste by a factor of about four in the last 10 or 15 years. So 
there have been major incremental changes, but the basis is 
roughly the same. Yes.
    Chairwoman Biggert. And then are the safeguards in 
monitoring research and development part of Argonne's research 
program?
    Dr. Finck. We do very little bit of it. I think the places 
that have real expertise would be places like Los Alamos. But I 
think what is important is to integrate the research we do on 
separations and reactors with the research done in other labs. 
If we run these research programs in parallel, we have had good 
discussion with--certainly with integration. I think here is 
key.
    Chairwoman Biggert. Thank you very much.
    My time has expired.
    And I will recognize Mr. Matheson from Utah for five 
minutes.
    Mr. Matheson. Thank you, Madame Chairwoman.
    Mr. Johnson, in your testimony on page four, you state that 
a commercial scale-up of spent fuel technologies could be 
accomplished relatively rapidly if existing domestic facilities 
could be modified and used. What--which facilities were you 
talking about in terms of where are they and who owns those 
facilities?
    Mr. Johnson. I apologize. I am not able to recall the exact 
three locations. I would be more than happy to answer that 
question in writing, but off the top of my head, I don't want 
to give you the wrong answer.
    Mr. Matheson. No, that is okay. All right.
    How--when you look at how DOE is looking at selecting a 
reprocessing technology, you know, this is coming back on Mr. 
Honda's line of questioning a little bit in terms of as we move 
forward, the direction you have been given now, do we need to 
change the policy direction we have given you as Congress in 
terms of how you are going about your research and development 
in terms of looking at developing new technologies? What do you 
think? Do you need more flexibility? Do you need more 
direction? Or are you happy with the current circumstance?
    Mr. Johnson. I believe we are very happy with the current 
policy and direction that we have. We have tried to lay out a 
reasoned, logical process for stepping through various 
laboratory investigations in stepping, again, through looking 
at what technologies, whether it is a UREX+ type process, 
whether it is a crystallization process, a volatilization 
process. So there are--we do have several processes that have 
been--being investigated at the laboratory scale. Again, it 
just takes some time to take and develop these technologies, 
refine them in the laboratory, and then make decisions based on 
the technical data that has generated in moving and making a 
selection to move up a technology into a larger scale 
experiment. So what--one thing we are trying to do is to walk 
through the investigation of the issues and the potential 
treatment technologies and then make a sound technical decision 
of how we take those from the smallest investigation in the 
laboratory scale and scale-up the technologies to whether it is 
the next step up, an engineering scale, and that what would 
ultimately be used as the basis for a decision to move forward 
for a commercial-scale application. I mean, for example, we are 
currently looking at spent fuel on the order of kilograms of 
spent fuel material in the laboratory that if you did it for a 
year, it would be--but what we are talking about in a 
commercial scale would be, you know, thousands of metric tons. 
So we are--very small-scale work going on right now.
    Mr. Matheson. In your testimony, you also said the 
development of advanced fuel treatment technologies would 
improve repository capacity. Do you have an estimate of how 
much repository capacity would be increased under the different 
reprocessing options you are looking at right now?
    Mr. Johnson. An exact number, no. The--for example, uranium 
constitutes about 90 percent--96 percent of the mass in 
commercial spent fuel. So the--a process such as a UREX+ 
process that would take out the uranium would see a resulting 
reduction in the mass of heavy metal needing to go into a 
repository by an equivalent amount. But we are talking--but the 
issue in the repository isn't just volume. It is a heat 
generation. It is----
    Mr. Matheson. Right.
    Mr. Johnson. There are other constituents in the spent 
fuel, both in near-term, such as strontium, which is really a 
near-term heat issue, and then the longer-term heat issue 
associated with americium. So it is really the--it is a complex 
problem, multi-faceted. It is both a volume issue as well as a 
heat-generation issue. And the heat-generation issue, I 
believe, as Dr. Finck said, if really addressed, by taking it 
from the next step of the reprocessing and then the destruction 
of these higher actinides in a fast reactor system.
    Mr. Matheson. Thanks.
    I yield back, Madame Chairman.
    Chairwoman Biggert. Thank you.
    Now we will hear from our resident--one of our resident 
physicists, Mr. Bartlett, for five minutes.
    Mr. Bartlett. I am a physiologist rather than a physicist. 
The physicist is sitting to my right.
    I get very different estimates as to the world's supply of 
economically recoverable fuel for light wire reactors. Could 
each of you tell me, in terms of years at present use rates, 
what you understand that supply to be? It is not infinite.
    Mr. Johnson. No, sir, it is not infinite, as all our 
resources are not necessarily infinite. There have been some 
studies that have been produced, both within the Department and 
outside of the Department, and as you can imagine, they come up 
with different numbers. Those numbers have gone--range anywhere 
from--there is, you know, a 50- to 100-year supply of uranium 
around the globe to the fact that, you know, there is a 1,000-
year supply. So there really is no firm, strong agreement with 
respect to the energy resources available in the uranium ore 
around the globe, but the range--again, the range is anywhere 
from, you know, 50 to 100 years to 1,000 years.
    Mr. Bartlett. Mr. Bunn.
    Mr. Bunn. Yes, this--we have--in the Harvard study that I 
mentioned, there is an extensive appendix on this subject. The 
range of estimates comes from, I think, in part, differences of 
understanding of the terms by which the estimates are 
described. Very often, people refer to reserves, which is a 
term really used to describe, basically, uranium that you have 
actually struck a pick to, as though that were all of the 
uranium in the world, as opposed to resources, which is the 
amount of uranium that might be available in the future as 
technology develops and more uranium is found and so on. The 
reality is, because of, until very recently, very low prices 
for decades for uranium, there has been very little searching 
for uranium, particularly at higher prices than existed for the 
last couple of decades. And as a result, it seems certain to 
those who have looked at it in detail, I think, that there is a 
lot more uranium out there than is currently reported as 
reserves.
    Mr. Bartlett. What is currently reported as reserves?
    Mr. Bunn. Currently, the--let us see. The red book, which 
is the IAE document, suggests that there is something of the 
order of several million tons that are--there is basically 17.1 
million tons of uranium available at prices in the range of $40 
to $80 a kilogram of uranium, which is----
    Mr. Bartlett. Which is how many years' supply?
    Mr. Bunn. Let us see. That would be a couple of century's 
worth----
    Mr. Bartlett. Okay.
    Mr. Bunn.--at current rates, but, of course, if you expect 
nuclear energy to grow in the future, which I think many people 
in this room hope that it will, then, of course, you know, 
that--the amount of material used every year would grow. But 
the--that is what is sort of reported so far. And the reality 
is, as I said, there is a lot more out there. And particularly 
as you develop improved mining technology in the future, the 
record on, essentially, every mineral that is mined, if you 
look, over the past century or so, the price in real terms of 
extraction, rather than increasing as the good stuff gets mined 
out, has been decreasing because the technology has been 
developing faster than the good stuff gets mined out. And I 
would expect that to occur for uranium in the future as well.
    Mr. Bartlett. Let me ask you each very quickly to tell me 
how your testimony might have been different if you knew oil 
was going to be $100 a barrel next year.
    Mr. Johnson. I can guarantee you my testimony would not 
change.
    Mr. Bunn. I can guarantee you exactly the same, because as 
I say, I believe in the future of nuclear energy, and I believe 
the future of nuclear energy is best assured by not making a 
near-term decision to reprocess.
    Dr. Hagengruber. And my testimony would have been unaltered 
as well.
    Dr. Finck. My testimony would even be more optimistic. We 
need more nuclear power, certainly. But we also need ways to 
use nuclear power to fuel our cars. We don't have these ways 
today.
    Mr. Bartlett. Well, I hope there is a lot of additional 
uranium remaining in the world, because I suspect, as we run 
down Hubbard's Peak, we are going to need it.
    Thank you very much, Madame Chairman.
    Chairwoman Biggert. Thank you.
    The gentleman from South Carolina, Mr. Inglis, is 
recognized for five minutes.
    Mr. Inglis. Thank you, Madame Chairman.
    In South Carolina, you know, we have some sites that have 
done some work on reprocessing spent fuel from weapons used at 
Savannah River Site, and also some at Barnwell, South Carolina. 
If we went to a reprocessing approach, how attractive would 
those sites be as places to do that work? Mr. Johnson, 
particularly you. Could you comment on that?
    Mr. Johnson. Yes, sir. Thank you.
    The sites that you noted would be, I would expect, part of 
the evaluation that the Department would conduct as part of any 
national environmental policy act review that we would be 
required to undertake before moving forward with any kind of 
large scale demonstration. So I would say pretty confidently 
that those sites would be among the list of sites that would be 
evaluated for such a future use.
    Mr. Inglis. Let us see--other countries, and I have been at 
a markup, so I am not sure whether this has already been 
addressed, but other countries, Japan, France, England, Germany 
have all pursued reprocessing. And Mr. Johnson, do you have any 
comments about the success of their programs and what we can 
learn from those?
    Mr. Johnson. Yes. I believe that in those countries where 
reprocessing technologies have been used in support of their 
domestic commercial nuclear power plant operation, they have 
been successful, with success being defined as the ability to 
safely and securely separate spent fuel into its constituent 
parts, refabricate fuel for use for power production. And in 
that case, I would say yes, the programs have been very 
successful. And there is no reason to think that the same type 
of success could not be seen elsewhere as well.
    Mr. Inglis. Mr. Bunn, do you agree with that or----
    Mr. Bunn. I don't. If you define it in purely technical 
terms, they eventually manage to become successful, although in 
both France and Britain and particularly in Japan now they had 
tremendous difficulties with cost and startup problems and so 
on at these reprocessing plants. But if you look at the 
official government studies in both France and Japan, they 
conclude that their nuclear energy is noticeably more 
expensive--because they have pursued reprocessing--than it 
would have been had they not done so. And that is not me saying 
that. That is the official government studies in both of those 
countries saying that. And so it is hard for me to characterize 
that as a success when an alternative technology of dry cask 
storage would have provided nuclear energy with a way to manage 
its fuel more cheaply, more safely, and more securely.
    Mr. Inglis. Dr. Finck, do you agree or disagree with that?
    Dr. Finck. Well, I absolutely disagree, if I may. And I 
used to be French years ago, and I would characterize--it is 
not the case anymore, but I still have a little bit of pride 
left.
    First of all, I think the French program, in my mind, has 
been incredibly successful. They did meet their objective. They 
know how to deal with their waste. And it is true their reports 
say there were small costs associated with closing--that cost 
is very small. And in view of the benefit they are getting out 
of it, they have accepted that small cost. I mean, nothing is 
free in life. Where I live, we recycle our household things, 
and I pay a cost to the city to recycle, so I think it is well 
worth it in view of the benefits of not having to bury it in my 
own backyard. So I--you know, as a society, we have to take 
into account not only the small cost increase but the whole 
benefits. I think the French programs, I view those as having 
been extremely successful. And the demonstration of success is 
that they have not decided to stop. If it weren't worth it, 
they would not go on. They are doing it. And they will 
continue, I believe.
    Mr. Inglis. Germany, however, has suspended their program, 
right?
    Dr. Finck. Germany has suspended. Basically, they are going 
to--they want to suspend their whole nuclear program. They want 
to shut down all of their nuclear plants; therefore they don't 
want to do anything, no nuclear energy, no reprocessing, et 
cetera. This is a----
    Mr. Bunn. But they decided to stop reprocessing before they 
decided to shut down----
    Dr. Finck. Yes, let me finish. This is a political 
decision. My only question will be in 2015 and 2020, where will 
they get their electricity? They might have a real problem. 
They might import it across the French boundary using reactors 
and using reprocessing. They just happen to be down on the 
other side of the Rhine River, which two--the bottom line would 
be the same effect.
    Mr. Inglis. My time has expired.
    Thank you, Madame Chairman.
    Chairwoman Biggert. Thank you.
    The gentleman from Indiana, Mr. Sodrel.
    Mr. Sodrel. I don't have any questions at this time. Thank 
you. We don't have any nuclear power plants in Indiana. We do 
have a lot of coal.
    Chairwoman Biggert. The gentleman from Michigan, Mr. 
Schwarz.
    Mr. Schwarz. I want to make sure that I am getting this 
correct, and Mr. Bunn, I guess you would be the one that I 
would like to have answer this, so anyone else jump in, if you 
feel like it.
    You feel that the--we should not proceed to build any sort 
of reprocessing facility in this country now, that we should 
continue the open fuel cycle, storing the waste product, and 
that when we do, hopefully soon, start building new nuclear 
power plants, that is the technology that would be--that should 
be used, and if we go to the reprocessing and recycling, that 
would put off, significantly into the future, any expansion of 
the number of nuclear power plants we have in the United 
States. Do I have that right?
    Mr. Bunn. Except for the last bit. I think my argument is 
not that it would inevitably put off construction of new power 
plants, but that it would make--because of the increased 
complexity of cost, safety issues, and so on, it would make 
public acceptance and utility acceptance of new power plants 
somewhat more problematic to achieve.
    Mr. Schwarz. You led right into my next observation and 
question.
    What is the position of the investor-owned regulated 
utilities in this country who potentially would build these new 
plants? What is their position on the issue of the open fuel 
cycle versus using reprocessed and recycled fuel?
    Mr. Bunn. You would not be able to find a utility in the 
country who--that is willing to pay the cost of reprocessing 
its spent nuclear fuel or who would be interested in investing 
in a reprocessing plant today.
    Mr. Schwarz. So for anyone on the panel, then, if we are 
going to--if there is a need to build new nuclear power plants, 
and I believe there is, the sooner the better, in my opinion, 
why would we be considering building any sort of a reprocessing 
recycling facilities or be pushing that technology now when it 
is not a technology we are going to use?
    Dr. Hagengruber. Let me just venture a comment here.
    I--the industry--I can't speak for the industry, and I 
don't think any of us here can speak for the industry itself. 
But what I have heard from the industry would lead me to 
believe that the number one priority that they have, as far as 
nuclear energy is concerned, is to get a new reactor licensed 
and get something under construction in this country, a plan 
for one or several reactors. I think part of the industry that 
builds reactors would like to also sell a reactor to China and 
have some influence on that process.
    I think the number two thing is they would like to get 
something done on the waste, that they don't want to watch 
another licensing period go on without some hope. So whether it 
is interim storage of waste or dry cask storage at an interim 
site or Yucca Mountain, and there, one of the issues they would 
like to see is something, you know, that would lead them to 
believe that this 100,000-year standard, which is, you know, 
the--gotten into the way of Yucca Mountain, somehow that will 
be dealt with. I think in the case of the reprocessing, it is 
so far off in the future that from an economic horizon point of 
view, as businesses, they have to look at the issues of the 
reliability of the Federal Government to have a regulatory 
environment that allows them to predict cost so that they can 
transition over interest rates. And I think the last thing is 
not reprocessed fuel. I mean, I think technically they are 
interested in all of these questions, but I think it is really 
beyond the scope of them as a business, but we are, in fact, 
going to use some fuel from the nuclear weapons program, and I 
think they would like to actually see that successfully done 
and like to see a process that would actually burn these fuels, 
because before you start believing that these are going to have 
a major influence on the business you are in, you would like to 
really believe that there will be a business that will be 
predictable from a cost point of view. And so when I talk with 
the industry people, they are always very courteous about 
Generation IV and reprocessing. But it is really not on the 
horizon of the time that they are going to be in charge of the 
business.
    Mr. Schwarz. Thank you, sir.
    I yield back, Madame Chairman.
    Chairwoman Biggert. Thank you.
    I might note that we will be having a hearing later on 
focusing on the utilities and having them here.
    And also, the utilities do pay a fee to the Nuclear Trust 
Fund, and that is what provides for the waste, and that is why 
the Federal Government takes over at that point.
    I would like to recognize the gentlelady from Texas, Ms. 
Jackson Lee, for five minutes.
    Ms. Jackson Lee. Thank you very much, Madame Chairperson, 
and to the Ranking Member.
    I can't imagine, even in the calmness and quietness of this 
room, that there could not be a more important hearing to talk 
about reconfiguring how we deal with nuclear waste, 
particularly when we mention a favorite President of mine, 
Jimmy Carter, but that you can describe his legacy as decades 
ago. And certainly, nuclear waste is not something that should 
be described in the concept of decades ago.
    And so I would--I just would like to focus on the vitality 
of the question of reprocessing spent fuel. When I say the 
vitality, the good things that can happen by doing that. And 
then I would like to also--and I would like each of the 
witnesses to comment on that, since our friends in Japan and 
France have seemingly already done that. Those of us in Texas 
are still mourning the loss of a superconductivity lab, which 
is a parallel, not necessarily in sync with this, but new 
technology.
    At the same time, I would like to wear the hat of the many 
concerned persons about the danger of nuclear waste, and of 
course, as was noted in some of the information, the concern 
about PUREX, but also the concern about the potential of 
weapons. And some of my colleagues may have asked this 
question. I was interestingly just in a meeting on homeland 
security, and so I apologize for not hearing the totality of 
your testimony. But I would like to hear a balanced response of 
the answer back on the potential threat of the creation of 
terrorist weapons, but the vitality of doing this processing of 
finding a creative way to advise the Administration, meaning 
Congress to advise the Administration, or set policies and 
standards on how we do this.
    Let me also say that this question is in the backdrop of a 
great deal of concern and opposition that comes from both sides 
of the aisle with any traveling of nuclear waste, and certainly 
the concern that Nevadians have expressed, or persons from 
Nevada, in their utilization right now as to the storage place 
of nuclear waste.
    So my first question, the vitality of reprocessing this 
nuclear waste, the way that we can answer the question 
regarding the ability of terrorists accumulating or using this 
for weapons, and then guidance that might be helpful now 
decades later in a policy that would be effective in providing 
a way to transport and also to, if you will, handle nuclear 
waste.
    I could start with Mr. Johnson.
    Mr. Johnson. Thank you.
    Before I start, let me just reiterate that the 
Administration stands firmly behind Yucca Mountain and the need 
to proceed as expeditiously as possible with the completion and 
the opening of that facility, and that the talk that we are--
the work that we are engaged in at the Department and the 
investigation of recycle reprocessing technologies is looked at 
as complementary to that activity.
    Ms. Jackson Lee. And may I just, for a moment, so I can 
make the record, there are many of us that don't stand behind 
that, but we are certainly interested in the complementary part 
being more than a complementary part and maybe being a fixed 
part. But let me hear your answer to the complementary part. 
Some of us are in disagreement with the Administration's 
position on Yucca Mountain. But you may proceed.
    Mr. Johnson. Thank you.
    Yes, well, we are very much committed to continuing to 
investigate the possibilities that exist in treating spent 
fuel, not necessarily as a pure waste, but looking at what kind 
of energy content--the energy content that it has, how can we 
recapture that, how can we minimize the waste burden on future 
generations through the need--or through the positive impacts 
in geologic disposal.
    With respect to the commercial viability of the 
technologies, we are not there yet. We are continuing to work 
within the laboratories. Things look very promising at the 
laboratory, on the laboratory scale. There are technologies, as 
you know, being deployed and being in use worldwide. We think 
we can improve upon those, that the investigations we have 
going on within the Department are, we believe, vastly improved 
technologies over what are being used commercially worldwide.
    With respect to the--your question on security, as you 
know, spent nuclear fuel is being stored at, roughly, 60 
nuclear sites around the country. So there is a need to look at 
the issue of where does the spent nuclear fuel reside, for how 
long does it reside, and can there be some increased safety 
assurances by consolidation to less than the number of sites 
that are currently being used.
    Ms. Jackson Lee. Yes. Can I get questions--answers from the 
panelists? Thank you.
    Mr. Bunn. I would argue that the reprocessing industry 
today is not a very vital one, to use your words. British 
Nuclear Fuels, which operates one of the world's largest 
commercial reprocessing plants, has announced that they are 
going to be out of the business in less than a decade, because 
they simply don't have customers anymore. France is running out 
of foreign customers, will continue its domestic reprocessing, 
but will end up using significantly less than the total 
reprocessing capacity that it has. Japan is about to open its 
new reprocessing plant after a prolonged struggle in which the 
utilities sort of tried without saying so publicly to get out 
of having to pay for it and have now--are now talking to the 
government about imposing a huge lines charge on all users of 
electricity in order to pay the immense costs of reprocessing. 
No other country is seriously thinking about getting into the 
business. I should mention that Russia is struggling to keep 
its last commercial reprocessing plant open, because it has so 
little business, and the costs are so high.
    So this is, in a sense, a dying industry that we are 
thinking of joining here.
    With respect to the terrorist risks, as I mentioned in my 
testimony, there has not yet been a good, credible study, a 
life cycle comparison of the terrorist risks of the once-
through fuel cycle versus reprocessing and recycling. But if 
you just look at the situation, it is--the National Academy of 
Sciences, and others, have concluded that the risk of terrorist 
attack on a thick dry cask is very modest. The risk of a 
terrorist attack on fuel in a pool is somewhat more, 
particularly if the fuel is fresh enough that there is 
potential for a fire if the water is drained. But when you are 
processing the--you know, in this kind of intensely radioactive 
material, in huge facilities with volatile chemicals, often at 
high temperatures, there are more potentials for accident or 
for dispersing that radioactive material than there are if it 
is just sitting in a thick steel or concrete cask. And 
similarly, then you are going to be--for the transportation 
part, you are going to be shipping some pretty radioactive 
stuff from place to place in order to send it to the 
transmutation reactors, and that will require significant 
investments in security.
    More broadly, with respect to actual nuclear weapons 
terrorism, I hope that we will not proceed with any technology 
that won't be reasonably resistant against theft of nuclear 
material for that purpose, although I have some doubts about 
some of the technologies we are looking at now. But the 
traditional approach to reprocessing involves a huge number of 
shipments of directly weapons-usable plutonium from place to 
place every year. And those--you know, the part of the nuclear 
materials life cycle, when it is most vulnerable to sort of 
overt, forcible theft, is when it is being shipped from place 
to place.
    As I mentioned in my testimony, there is a problem 
worldwide with security and accounting for nuclear stockpiles, 
both nuclear warheads and nuclear material that could be used 
to make a nuclear bomb. Regardless of what we do about 
reprocessing, our government needs to step up its efforts very 
substantially to make sure that every kilogram of plutonium, 
every kilogram of highly-enriched uranium, every nuclear 
warhead worldwide, wherever it may be, is secure and accounted 
for, because our homeland security starts there. It starts 
wherever there is a vulnerable cache of nuclear material 
anywhere in the world that terrorists might use for a nuclear 
attack.
    Chairwoman Biggert. The gentlelady's time has expired. If 
the next two witnesses could give very short answers, please.
    Ms. Jackson Lee. I thank the Chairwoman.
    Dr. Hagengruber. I will only address one part of it. I 
spent my whole career on issues relating to security, nuclear 
security. I have done many security studies, including 9/11 
studies for the Department of Energy, their facilities. So let 
me address this in particular.
    The worst places in the fuel cycle are the reactor, as the 
National Academy Report on Terrorism said, would be something 
happening at the reactor, because there is a lot of energy 
stored there. It can be dealt with.
    The other place is when fissile material, that is plutonium 
or highly-enriched uranium, which is weapon-like materials, 
appear. Plutonium is particularly bad, because when you scatter 
it about, it costs an enormous amount of money to clean it up. 
I would disagree with my colleague, Matt Bunn, on the business 
about weapon-useable, because many of these things, unless they 
are really fuel grade, the plutonium's biggest risk is this 
dispersal risk. It is not easy to make a weapon out of it. Even 
in fuel grade, weapons--it is just very hard to make that. So 
just--my view of this is the reprocessing opens a door up for 
plutonium to be available in transport.
    And here I would agree with them that, in fact, opens this 
risk up. And so it needs to be done with the greatest of care 
in terms of looking at--over at that overall system or there 
will be another panel like this meeting on that issue.
    Thank you.
    Dr. Finck. I will try to answer very quickly.
    As far as terrorist use, I think there are many options 
today for increasing proliferation resistance. We have heard 
them. The bottom line, to me, is to never separate pure 
weapons-useable material, and we can do that. Therefore, we 
never have to ship it, and it won't be very attractive to 
potential terrorists.
    As far as vitality, Shane Johnson made a very good point. 
Yucca Mountain is needed whatever we do. And what we are trying 
to do is making better use of the one Yucca Mountain we might 
have soon. So we raise a real complementary effort between 
repository work and transmutation work.
    Finally, for the question of vitality in Europe Mr. Bunn 
addressed, I think the issue is not deciding to go out of 
reprocessing. Several countries have decided to go out of 
nuclear in Europe, therefore, they are not doing reprocessing 
anymore. When the time comes, and I think it is now, where 
energy costs are going up and the gentleman asked the question 
of the cost of oil at $100, when that time comes, nuclear, I 
believe, will be reborn in Europe and many other countries, and 
the fuel cycle will have to follow, because they will need as 
much as I know. They will try to avoid having to build many 
repositories in the countries that are very dense.
    Ms. Jackson Lee. Thank you.
    Chairwoman Biggert. Thank you.
    The gentleman from Alabama, Mr. Bonner, is recognized.
    Mr. Bonner. Thank you, Madame Chair, and this is a very 
timely conversation, I agree.
    Mr. Bunn, you say in your testimony that there is little 
doubt that Yucca Mountain could hold far more than the current 
legislative limit, perhaps even all of the waste produced over 
the life of the existing nuclear fleet. Why are you so 
confident of Yucca Mountain's ability to hold more waste? And 
would this require an expansion of the repository? And if so, 
would you be willing to venture a guess of what it costs?
    Mr. Bunn. Well, the costs of the repository are not--it is 
only a very minor portion of those costs that are related to 
digging more tunnels. And I am confident in part because my 
colleagues, Mr. Johnson and Dr. Finck, have both published 
reports that indicate that their view of the technical limit is 
120,000 tons of heavy metal, as opposed to 70,000, which is the 
legislative limit. But I--the reality is that the Department 
hasn't really looked at the subject in the--of how you could go 
about expanding that capacity in any significant detail. For 
example, there are--you can go outward in some directions until 
you get to the edges of the areas that have sufficient geologic 
stability to deal with that situation. You can think about 
whether it is possible to have a second or a third tier, 
because currently it is just one tier, a flat repository. I 
have talked to a number of analysts within the Yucca Mountain 
program who think it is quite plausible that you could do a 
second or a third tier. So there are a variety of things that, 
as I said in my testimony, need to be looked at in more detail. 
The American Physical Society Panel that Dr. Hagengruber 
chaired also talked about the potential that it could hold all 
of the fuel from the existing nuclear fleet.
    I should also mention, with respect to other countries, the 
United States is, I believe, the only country that has made the 
mistake of locating its repository in a mountain with fixed 
sides. In most other countries, they are looking at giant 
blocks of granite that you could put centuries of spent fuel 
into simply by extending the size of the tunnel. So it is, in 
most countries, not an issue of having to build, you know, lots 
and lots and lots of Yucca Mountains all of the time.
    I should also mention, in respect to Dr. Hagengruber's 
disagreement with me, it is not just my view. It is the 
published view of the U.S. Government in a report sited in my 
prepared testimony. It is also--was gone through in some 
considerable detail in a report of the National Academy of 
Sciences that included the former Director of Lawrence 
Livermore Laboratory, a former Chairman of the Joint Chiefs of 
Staff, and so on, among its panelists. So Roger and I can talk 
about that more off-line after the hearing.
    Mr. Bonner. If I could just ask the panel, anyone willing 
to take a stab at this, hearing the questioning from the 
gentlelady from Texas. In respect that there are many people 
who have different views on Yucca Mountain, but as a Nation, we 
are in an energy crisis, and we are depleting fossil fuels 
faster than we are replenishing them, and we are more and more 
dependent on foreign countries for energy. That would have to 
be a problem that we could all agree to, and yet I sit back 
sometimes, when I hear my friends who do not want to proceed 
with Yucca Mountain and yet want the benefits of nuclear power, 
and wonder, ``What are the other alternatives out there if we 
don't proceed, as Chairman Hobson said before he left, with the 
plan that we have in front of us?'' Are there other reasonable 
plans out there that can allow us to continue down the path of 
pursuing nuclear but being responsible with what we do with its 
waste?
    Mr. Bunn. To me?
    Mr. Bonner. To any of the four of you.
    Mr. Bunn. Ultimately, we are going to need a nuclear waste 
repository. We are going to need that whether we go direct 
disposal or whether we pursue reprocessing and transmutation. 
That is clear. There isn't--unfortunately for Ms. Jackson Lee, 
there isn't an alternative to a nuclear waste repository. 
There--one could potentially cancel the Yucca Mountain and try 
to find a different nuclear waste repository. My own view is 
that that would--the prospects of political success in 
licensing a different nuclear waste repository somewhere in the 
United States before I retire are probably pretty modest.
    Mr. Bonner. Anyone else disagree?
    Dr. Finck. I would like to answer that.
    With the technology we have discussed today, we have a path 
towards sustainability on energy security in the United States 
by--we will need the repository, certainly, but we will need a 
unique repository where we will use it much better than we plan 
to use it today. It will last us well beyond this century. So 
there are ways to make nuclear much more sustainable than what 
we are doing today.
    Dr. Hagengruber. I would like to just offer a comment on 
that.
    I--that was the first study I did back in 1972. And at the 
time, we were classifying separated waste from reprocessing at 
Hanford. We were also doing work at Savannah River Site. And 
there was waste being stored in tanks in Idaho. It was very 
obvious, at the time, that engineered storage, which is storage 
that might be monitored--retrievable storage that might be 
monitored for hundreds of years into the future as a concept 
with something that was not hard to do, that trying to get a 
solution that would meet people's acceptable standard of 
permanent disposal with no chance of anything ever being 
returned to the environment was too hard. It is just as hard, 
in fact, it is even worse now, because the legal barriers to 
making any kind of progress are higher. The prospect--you know, 
I don't know how you will deal with the 100,000-year standard. 
It is too ice age for--and we don't know of any technology that 
is going to survive that. So practically speaking, I think a 
permanent disposal repository for nuclear waste is something 
that probably 30 years from now, somebody will be sitting here 
talking about the same thing, because it still hasn't happened. 
I think that what people will have to face is that we have very 
poor interim intermediate storage capabilities by using 
reactors as places to store stuff. We need to get on with the 
business of accepting the fact that it is not 100,000 years 
later some guy with a burrow digging a hole in the ground is 
going to be the measure whether we did a good job on permanent 
storage. But the fight over Yucca Mountain is a fight that 
existed, by the way, very strongly in the 1970s, but for 
different things. It wasn't Yucca Mountain then. It was deep-
sea beds and granitic disposal, glass rods. It was the same 
kind of arguments you see today. It is 30 years later, and we 
still haven't made any progress. I am not a cynic, but I guess, 
realistically, I have--a physicist that has become an engineer. 
I would just get on with the job of some regional intermediate 
storage with dry cask storage and just expect to take care of 
it for the rest of our existence.
    Mr. Bonner. Thank you, Madame Chair.
    Chairwoman Biggert. Thank you.
    The gentleman from Missouri, Mr. Akin, is recognized.
    Mr. Akin. Thank you, Madame Chair.
    I had a bunch of questions, and I hope a couple of them 
maybe have fairly short answers.
    The first one was, somewhere or other I had heard that if 
you were just volumetrically to take the spent nuclear fuel 
that we have so far and stack it on a football field, it would 
end up about a meter or so deep. I understand that, from a 
thermal point of view, that wouldn't work very well, but just 
volumetrically, if you stacked it on a football field, is that 
about right? About a meter?
    Mr. Bunn. I haven't done that calculation, but it sounds 
like the right order of magnitude.
    Mr. Akin. Reasonable? Okay.
    The second question----
    Mr. Bunn. It is not huge volumes of stuff, you know, but--
--
    Mr. Akin. It generates a lot of heat, that is the----
    Mr. Bunn. The total amount is less than, you know, the 
waste from a coal power plant--one coal power plant every year.
    Mr. Akin. Okay. The second question is the small, 
inexpensive reactors possibly with--what generation would they 
be? Third generation or fourth or what?
    Mr. Bunn. Probably fourth.
    Mr. Akin. Fourth generation? First of all, my question is, 
are they available now, if we said, all of a sudden, we are so 
sick of paying for this oil. We are just going to build them, 
how long would it take us to get to the point where we would 
actually start digging some dirt and pouring some concrete and 
all?
    Mr. Johnson. If you are referring to some of the small, 
Generation IV reactor technologies that we have just begun, 
essentially, conceptualizing, we are, you know, a decade or 
more away from seeing any kind of commercialization of that 
particular technology, although I would----
    Mr. Akin. So those are the things that people talk about 
that it is pelletized, kind of, in ceramic pellets and that 
they are very small----
    Mr. Johnson. Oh, you are talking about the pebble bed? The 
pebble bed could be done somewhat sooner, potentially. There 
are smaller, as Mr. Bunn has eluded to, what is called a pebble 
bed, gas-cooled reactor technology that has been under 
development both in Japan and South Africa predominately that 
builds upon earlier German technologies. Those have been looked 
at by U.S. industry recently, although there is no one in 
industry currently pursuing that particular technology.
    Mr. Akin. Would that be called third generation? Maybe?
    Mr. Bunn. Probably.
    Mr. Johnson. Probably.
    Mr. Akin. Okay. So you are saying we are 10 years away, at 
a minimum, from a small, fourth generation type of facility?
    Mr. Johnson. At least, yes.
    Mr. Akin. At least. Okay. If you had to build something 
now, what would you build?
    Mr. Johnson. Well, as you may know, the commercial industry 
in this country is looking at the next generation light water 
reactor technologies, which build off the technology base that 
is currently deployed at 103 sites--or 103 reactors across our 
country. So they are looking at, essentially, an evolution of 
the current technology that is----
    Mr. Akin. A further improvement of what we have already 
had?
    Mr. Johnson. Yes, sir.
    Mr. Akin. Okay. Is that the same thing the Navy uses in 
their different ships and all? The same general technology?
    Mr. Johnson. The base technology of a pressurized reactor, 
or a boiling water reactor, yes. But there are considerable 
differences in fuel and the operation of those facilities.
    Mr. Akin. Just because the nature of what they are trying 
to accomplish is a lot different?
    Mr. Johnson. Correct.
    Mr. Akin. Okay. And now is it true that what you said that 
depending on how you come out on reprocessing might change the 
design somewhat of the power plant?
    Mr. Johnson. Yes, what I was trying to address was the 
Chairlady's question on the integration of our Generation IV 
reactor program and our fuels development program that those 
are integrated. They are interrelated. And it is an integrative 
process of trying to optimize the fuel to meet both power 
production requirements, waste minimization, and also enhances 
proliferation resistance to----
    Mr. Akin. So dry cask storage, that--would you take that 
off of the table, if you were talking about reprocessing then 
it may change your design parameter somewhat? Because if you 
are dry cask storage, you could use whatever gives you the most 
power out of the material and then you get rid of what is left 
over, right?
    Mr. Johnson. Yes, but I don't want to say that you would 
not have, somewhere in the process, the need for dry cask 
storage at some point in the process.
    Mr. Akin. Okay. The third thing was--and this was a point, 
I think, that you were making, Mr. Bunn, pretty heavily, and 
that is this reprocessing cost can drive the thing out of 
economic range. Relative to relative cost, and that was where, 
I gather, you disagreed with Mr. Finck. You are saying it is a 
relatively small cost and a responsible cost to add. Mr. Bunn, 
you are saying it is just disproportionately so large it makes 
it impractical. Better to postpone the problem until the 
technology develops a little bit more. We can always come back 
and catch it later at a lower cost. What is the relative cost 
of the reprocessing in the overall process? Are we talking 
about adding five percent or doubling the cost of electricity, 
or what would be the effect on the cost of electricity to the 
consumer if----
    Mr. Bunn. The effect on the cost of electricity, actually 
Dr. Finck and I don't disagree, is relatively modest, because 
the advantage of nuclear power, when you look at--when you 
compare it to other electricity sources, is that its whole fuel 
cost is pretty modest, because the energy in its fuel is so 
concentrated. So the main cost in nuclear energy is the capital 
cost of the nuclear plant that you have built. And so the total 
contribution to electricity generation costs would be 
relatively modest, a few percent, probably, depending on how 
expensive the reprocessing and the recycling ended up being.
    But that is a little bit like saying, ``Well, I should be 
willing to pay $300 rather than $100 for a pair of shoes, 
because it is still a small proportion of the cost of my 
wardrobe.'' And the reality is, if you look at the cost of 
nuclear waste management, which is one of the few costs that 
the owner of a nuclear power plant that is already built can 
still control going forward, you are, of order, doubling that 
cost of nuclear waste management, if you are going forward with 
reprocessing and recycling, as traditionally practiced, using 
the cost--you know, if we had a plant that was government-
financed at low cost, and if it had the same--managed to 
achieve the same capital and operating costs as the most 
efficient plants that exist today in France and Britain. So you 
know, a utility is not going to want to do that. So they--if 
left to the private market, reprocessing wouldn't happen. So 
then, as I said, you have to do one of three things. You either 
have to substantially increase the nuclear waste fee, which 
utilities are going to scream bloody murder about, or you are 
going to have to have the government provide tens of billions 
of dollars in subsidies over decades, and you know, while it is 
a small contribution to electricity, tens of billions of 
dollars is significant money. If we were talking about a 
weapons system, we would agree that that was an expensive 
weapons system. Or third, you are going to have to impose 
regulations that force the industry to take it out of their own 
bottom line and build these facilities themselves.
    Mr. Akin. And let me just stop you for a minute. Somehow or 
another there was a little leap here of reasoning that I didn't 
catch. Okay. What I was asking was, let us say--first of all, 
let us start with the assumption that the government is not 
going to subsidize anything. We are just going to try to keep 
the lawyers at bay and the politics at bay and let us just deal 
with it just from an engineering--let us--a perfect world.
    Mr. Bunn. Right.
    Mr. Akin. My question is, the total cost for generating, 
obviously you have got to put the plant cost in and your cost 
of capital to build it all. And so I am saying that is built 
into the cost to the consumable electricity.
    Mr. Bunn. Right.
    Mr. Akin. What you are saying is the reprocessing is still 
a small portion of----
    Mr. Bunn. It is a small portion of that----
    Mr. Akin.--the overall----
    Mr. Bunn.--total cost.
    Mr. Akin.--electrical establishment?
    Mr. Bunn. Correct.
    Mr. Akin. Okay.
    Mr. Bunn. Correct. That is what I am saying. And what--all 
I was saying, with respect to the regulations or the fee was 
how do we make that money for that small additional cost 
appear. You have got to either charge the utilities for it or 
force them to pay for it themselves or the government has to 
pay for it itself. Those are the only three options I can think 
of anyway.
    Chairwoman Biggert. The gentleman's time has expired. We 
will have a second round of questioning.
    Mr. Akin. Thank you.
    Chairwoman Biggert. We are experiencing technical 
difficulties.
    We will also be having a hearing on cost later on.
    So the gentleman from Michigan, the physicist, Dr. Ehlers.
    Mr. Ehlers. That puts a heavy burden on me.
    I--it is interesting listening to this, because the first 
in-depth look I took of this was in the late 1970s, slightly 
after you did, Dr. Hagengruber. And it doesn't seem much has 
changed. But I look at--I took a good look at this, because I 
was teaching a course on the environment, and I was also a 
member of the Sierra Club, which was adamantly opposed to 
nuclear power. And so I looked very carefully at the various 
forms of generating electricity and came to the conclusion that 
nuclear power and fossil-generated power are about equally bad. 
And I ended up disagreeing with the Sierra Club, which I was a 
member then and still am, in spite of occasional difficulties 
with them. I came down on the side of nuclear power, because 
the base--the biggest problems that you had to deal with, with 
the fossil-fueled plants, is the greenhouse gas effect. The 
biggest problem of the nuclear plants is the disposal of the 
radioactive waste. In other words, in both cases, dealing with 
the waste products. And I felt much, much more comfortable 
dealing with a compact, solid material that is a waste product 
than a gaseous dispersed product, which is virtually impossible 
to deal with capture, and we talk about a lot of solutions, but 
none of them look as easy as either reprocessing or storage of 
waste.
    I would also pick up on Dr. Hagengruber's comment on the--I 
am supposed to be at another meeting, so I am sure I am being 
summoned.
    Dr. Hagengruber's comment was about disposal versus 
storage. And he is absolutely right. I got into politics 
because of an environmental problem in my area. That was 
ordinary, solid waste. And one of the things I proposed is that 
we change the name of our landfill from the Kent County Solid 
Waste Disposal Facility to the Kent County Solid Waste Storage 
Facility, because it is still there. And it is still there and 
it is still creating problems. And we have to recognize that. 
Yucca Mountain, I think the legislative language that we put on 
Yucca Mountain is just impossible to fulfill, and we ought to 
wake up to that, and I have tried to wake my colleagues up to 
that. Monitored, retrievable storage is the only viable 
solution politically, because you can not guarantee that this 
will--that if you just stick it in the ground and leave it 
there it is never going to leak, never going to create 
problems.
    I always thought that recycling of waste was a good idea. 
And Mr. Bunn, you seem to argue against it on, primarily, 
economic grounds. I would point out, if there is that much 
excess capacity in other parts of the world, I would be 
perfectly happy to ship it over there and let them reprocess it 
and pay for it.
    The--I also would disagree, and this is because I have to 
leave for another meeting. I am not--I am just stating my 
opinions here and will not--probably not have time to listen to 
your responses, but the economic argument, I don't think, is a 
valid one in this case. I find it hard to believe that the cost 
of recycling the waste is going to be greater than the 
perpetual care over the long-term of the stored waste, because 
I think the only way to do it is to set up a trust fund to make 
sure the money is always there, otherwise there are going to be 
political hassles every year about the cost of that.
    I would also point out that this is not a cost on the 
utilities. It is a cost on the customers. We have been talking 
about the utilities pay this fee that they are paying now. That 
goes right into the rate base, and since they are mostly 
regulated industries, it is the customers who really pay the 
bill. And so I feel comfortable just--if, in fact, recycling is 
a better alternative, I feel comfortable just telling the 
customers that that is a fee that has to be paid as part of the 
total cost of the system.
    So I haven't quite exhausted my time. There are probably 30 
seconds, if any of you would like to respond and argue with me 
or say something different about it.
    Mr. Bunn. Well, I would like to argue with you a bit. I 
think that you and I are supporting the same option, which is 
monitored retrievable storage. I believe that if we put the 
fuel in storage while moving forward in a responsible way with 
a geologic repository, that we are going to leave open whatever 
option we take. Then we can allow time for technology to 
develop. We can allow time for interest to accumulate on funds 
that we set aside today. And I completely agree that the only 
way to manage a geologic waste repository, which we are going 
to need, again, no matter what path we take, is to set aside a 
trust fund so that the money will always be available. But with 
the wonders of compound interest, that is possible to do 
without spending enormous amounts of money today.
    So I think that that is really the best path forward: to 
continue looking at the technology, but not to make a rush to 
judgment today on technologies that currently are more 
expensive, more risky, and more proliferation-prone than the 
alternatives.
    Mr. Ehlers. Okay. And I don't have that much argument with 
that. Obviously, we have to know what we are going to do. But 
I--the difficulty of siting, I think, is the biggest problem 
with the storage system. And I think it is a large enough 
problem that recycling will have to--just so that you don't 
have to cite as many sites. And the economics may not win in 
this case. The politics may win.
    Mr. Bunn. But then you have to site the reprocessing and 
transmutation facilities, and since they will pose greater 
hazards to their neighbors than a repository will, that may be 
even more difficult.
    Mr. Ehlers. Well, possibly, but I am not convinced that it 
would pose greater hazards, if it is done properly. And after 
all, we have two polluted sites we can start with and just 
build a large perimeter fence around them and say, ``Okay. Keep 
on doing it.'' But I don't--I think your view of the dangers is 
somewhat exaggerated.
    Madame Chairwoman, I appreciate your consideration, and I 
yield back the balance of my time.
    Chairwoman Biggert. Thank you very much, Mr. Ehlers.
    And we will start a second round now. And Mr. Honda, why 
don't you----
    Mr. Honda. Madame Chairwoman, let me yield to Mr. Matheson, 
please.
    Mr. Matheson. Well, thank you, Mr. Honda.
    The question I would like to ask about is in the evaluation 
of reprocessing, I am assuming that there would--if we moved 
ahead with the commercial effort of reprocessing at some point, 
we would have it at a few sites around the country, or perhaps 
fewer than a few?
    Mr. Bunn. Maybe only one. Who knows?
    Mr. Matheson. In terms of looking at all of this effort for 
R&D and reprocessing, what effort is being looked at in 
assessing the risk of transporting of the waste to another 
site?
    Mr. Bunn. Do you want to handle that?
    Mr. Johnson. Well, with respect to our Advanced Fuel Cycle 
Initiative, we are not looking at transportation issues. 
Probably the only part of the Department that is looking at 
transportation issues associated with spent nuclear fuel would 
be the Office of Civilian Radioactive Waste Management, and to 
their work, I apologize, but I can't really address.
    Mr. Bunn. There is a fairly substantial R&D effort in the 
Department related--not--I wouldn't say--R&D is the wrong word. 
A fairly substantial effort to look into what measure should be 
applied to secured transports of spent fuel, and there is a--
what is called the Transportation Safeguards Division within 
DOE that today safeguards shipments such as how weapons are 
shipped from place to place.
    Mr. Matheson. It may be getting a little outside of the 
scope of this hearing, but as a member of the Transportation 
Committee, we held a hearing in Las Vegas talking about 
transportation relative to moving waste to Yucca Mountain. I 
was not given a lot of assurance that the Department has really 
done a lot of work on assessing transportation risk of nuclear 
waste, and so it would be an interesting issue to----
    Mr. Bunn. I don't disagree with the--your assessment of the 
adequacy of what has been done so far.
    Mr. Matheson. Well, since I am from a state where 95 
percent of that waste would go through, I have a certain 
interest in this issue.
    Dr. Hagengruber. Let me just speak, because on that--I 
think people have said the right thing. The RW Office actually 
is the one that is taking the responsibility for the security 
aspects of transportation. There has been work done. I know, 
because some of the work was done at--you know, involving 
Sandia National Labs. Some of the work in the transportation 
area, including the transportation of casks, for instance, fuel 
casks and accidents that occur, the idea of people shooting 
weapons at fuel casks or transport casks, that work goes back 
25 or 30 years. So there is--if you look at the integrated 
total of the amount of money that has gone into both purposeful 
and accidental attacks on the transportation of fresh fuel and 
spent fuel, there has been a lot of work, and we are talking 
about many, many millions of dollars.
    Now in particular, RW has been looking at--was looking at 
the question of whether or not to federalize the transportation 
or to make it commercial in its nature. Transportation Security 
Division, one that Matt mentioned, transports, in effect, 
trigger quantities of material weapons and pits and other types 
of material. And it is a very, very expensive thing. The trucks 
cost a couple of million dollars. They have a full cadre of 
highly trained, armed forces with them. They have constant 
communication. If you were to move to that, the implications in 
cost and transportation of anything, whether you have a 
reprocessing plant, spent fuel, or doing anything, would become 
staggering.
    The question of federalization of the forces, that is to 
actually have federal people driving those trucks, has 
additional cost implications. But I think it is wrong to 
believe that there hasn't been work done. I mean, you may have 
been talking with people that don't know the historical work 
that was done. You may have been talking about people that 
don't know what RW was trying to do. Whether it is adequate or 
not, in light of this, I don't know, but I know that it has 
gone far enough to do studies looking at all of the donor 
sites, of which there are--I think there are 106 or 108, not 
just the operating reactors. And there are certainly--there is 
a stack of documents this thick on security at Yucca Mountain, 
including the transportation from the entry to Yucca Mountain 
to the location at the Yucca Mountain site. I know this, 
because I--the National Academy panel that I am part of was 
asked to consider doing a study on research and development and 
the security at Yucca Mountain. So we have seen some of those 
reports. I don't think--it may not be enough, sir, but there is 
a substantial amount of work out there.
    Mr. Matheson. Thank you, Madame Chair.
    Chairwoman Biggert. Thank you.
    Do you have any more questions, Mr. Honda?
    Mr. Honda. Just a quick question, and this is probably 
reflective of my ignorance. But what I have heard is that, and 
I think it was Mr. Johnson that indicated that the reprocessing 
of uranium is, what, 96 percent or 94 percent of its total 
weight in volume, I guess. And encapsulating that for storage, 
that is one step, but aren't there other byproducts of 
reprocessing or of creating the waste that other materials have 
to be encapsulated, also, so that in practice it appears that 
there will be more volume than just the waste itself. There are 
other wastes that are created so that the volume is really 
more. If that is the case, then how does that really solve our 
storage and our nuclear waste problem?
    Mr. Johnson. Yes. What I was referring to was that, by 
mass, uranium constitutes 96 percent of the mass of spent 
nuclear fuel, and that uranium is primarily uranium--the 
isotope uranium-238. The fissile content of the uranium-235 in 
spent nuclear fuel is slightly above that of natural uranium. 
It is roughly--it is a little less than 1 percent, on average. 
You are correct in that the separations technologies that we 
are currently investigating within our--the Department's 
programs, is looking at partitioning spent fuel into 
different--into its different constituents, separating out the 
uranium. That does provide significant volume reduction, but as 
I mentioned earlier, the primary concern in repository 
performance is the heat generation. And that heat generation is 
driven both in a short-term and a long-term component. By 
separating the spent fuel into these different elemental 
constituents, yes, you have not really reduced the amount of 
material, it--the amount of material that has to be stored, but 
it is the recognition that all of that material doesn't then 
have to go into a geologic repository. For example, the uranium 
can be extracted at such purity that it could possibly be 
stored as a low-level class C waste. It would meet that type of 
requirement that would therefore not need to go into a 
repository--into a geologic repository. The other constituents 
could be stored for future destruction or transmutation in 
future fast reactor systems that would minimize the volume of 
the highly radioactive materials that would have to go into a 
repository.
    Mr. Bunn. I think that--I agree with Dr. Finck that what we 
need is an end-to-end systems analysis on this kind of thing, 
because when you look at reprocessing, you have got, depending 
on which technologies you are using, a variety of different 
streams of high-level waste or species you are going to send 
for transmutation, but you also then have to look at 
intermediate-level waste, low-level waste. You have to look at, 
when you are done with the reprocessing plant, when it has 
outlived its lifetime, the decommissioning waste, the same for 
the transmutation facilities and so on. And then you have to 
compare the costs of managing those various different waste 
streams and the hazards of managing those various waste streams 
and hazards with other options. So I think that is the kind of 
examination that needs to be done. The cost--the volumes of, 
for example, decommissioning waste projected from the 
reprocessing plants in France are quite large.
    Dr. Finck. If I may, volume in Yucca Mountain is not the 
issue, as the gentleman is saying. The issue is heat load 
generation, and most of the heat load comes from a few percent 
of the waste. That is what we have to deal with. Essentially, 
we have to get rid of that heat to increase the capacity of 
Yucca Mountain. No, I fully agree. We have to look at an 
integrated cycle to see where the benefits and costs are and to 
gain where we can.
    Mr. Honda. So the other wastes that are created that have 
to be contained, you are saying that those are safe and all we 
have to do is find a storage place for them?
    Dr. Finck. No, the ones that are toxic. What we want to do 
is transmute them. Basically take them, let us say, americium-
241, and fission it into elements or isotopes that are much 
less toxic. And you do this by running it through a--in a 
reactor.
    Mr. Honda. And is this what is happening in France and in 
Japan and in the UK where they are completely being able to 
deal with their waste or----
    Dr. Finck. No.
    Mr. Honda.--do they have waste issues, also?
    Mr. Bunn. Go ahead.
    Dr. Finck. They take the first step there. They take care 
of one of the elements, one of the isotopes. They take care of 
plutonium-239 by burning it partially, but they plan, in the 
future, to do exactly what we described earlier, take care of 
the other elements, which we usually call minor actinides. And 
their plans for the years to come, roughly when we plan to do 
it, is also to find ways to destroy these minor actinides. But 
right now, they only burn plutonium-239 partially, and they 
store the resulting fuels and the resulting minor actinides are 
stored for future use.
    Mr. Bunn. But the way that they are implementing 
reprocessing today, with, as Dr. Finck said, one round of 
recycling of the plutonium as in plutonium mixed-oxide, or MOX, 
fuel, in their existing light water reactors, has essentially 
no noticeable waste management benefits. As Dr. Finck and Mr. 
Johnson have both said, the volume and cost of a repository is 
determined by the heat output, while if you go to a system with 
one round of reprocessing and MOX and then disposal, you 
actually have more heat rather than less for--compared to a 
direct disposal per unit--you know, per number of kilowatt 
hours generated. And you don't have any significant reduction 
in the radiological toxicity, the doses from the repository, 
because the only thing you are separating is the uranium and 
the plutonium, and those, basically, don't contribute 
significantly to the doses--from geologic repositories. So you 
really have to go to the kinds of transmutation technologies 
that Dr. Finck is developing in order to get the kinds of 
benefits that----
    Dr. Finck. If I may complement. We actually get a very 
small benefit from MOX. It is like 10 percent, not really big.
    Mr. Bunn. The studies I have seen go the other direction, 
but we can talk about that.
    Dr. Finck. Well, I like to do my own studies.
    Mr. Honda. Well, through the Chair and--I just want to 
thank you for your testimony, but my sense is that it is much 
more complicated of an issue that requires a systems approach 
to look at the entire problem and look in that--some matrix 
that would address the issues of proliferation and the dangers 
intermittently----
    Mr. Bunn. And for that reason----
    Mr. Honda.--combined together rather than just talking 
about storage and transferring to other countries for 
processing and coming back. It is much more complicated than 
that, and I appreciate the--your input in providing this 
insight for me.
    Chairwoman Biggert. Thank you.
    I am glad that Mr. Honda brought this back to the systems 
analysis, because I think that is where we needed to go back. I 
would like to go one step further back, and I think in my 
opening statement I talked about the log and how we take three 
percent off one side and three percent on the other end and 
throw the rest into the fire to burn and then we take it out 
and put it in a mountain, or we are going to try.
    When I was--in the 1960s and I first went to France, and I 
can remember going to these hotels. We used to go in Europe on 
$5 a day. That doesn't happen anymore, but it was--we would go 
to these hotels, and you would walk into the hotel, and you 
would come in at night, and to turn on the lights to go up the 
stairs, you would push a little button and the lights would go 
on, and then you would get--try and make it to the top of that 
staircase to push the next button, because the next staircase 
the lights were going to--and having been to France since then, 
you know, things have changed. They--the electricity that is 
there, you don't drive with your--just the car headlights 
anymore, the buildings are lit up like it was never before. And 
80 percent of France's electricity is nuclear. Ours is 20 
percent. Now I live in a state that is over 50 percent 
electric, because we have had a lot of nuclear facilities 
there. My point is that, you know, here we have a clean, 
environmentally-friendly energy source, and we keep saying, 
``Well, we should wait. We should wait and, you know, just use 
that small amount of the energy, the fuel, and let the--just 
burn up the rest or--and then put it away.'' And that concerns 
me that in--you know, for future generations, we have got to 
find means of energy that is going to be--to have that rather 
than being oil now--oil dependent. Now we don't need 
electricity, but we need natural gas. We need different fuels 
that are not going to be around, fossil fuels. And I think that 
this is imperative that we start to work on it, because the 
time it is going to take to create the fast reactor where we 
are going to have the closed fuel cycle and be able to do all 
of this in one place and really, you know, time after time use 
this fuel until it is gone and then have this small amount to 
put into Yucca Mountain. And it always seems to come down to 
the issue of non-proliferation. That is the first--everything 
everybody says, and I know that this has been worked on for 
years and years. France is using something that is really 
outdated, compared to what we can do now, and just for one 
thing that Mr. Bunn said that--you know, you had said that 
there are 240 tons of separated--where--weapons-usable 
plutonium already exists throughout the world. So you know, I 
know we have to be concerned about terrorists, but--seeking 
nuclear material, but if there is plutonium that is being used 
and produced by UREX+ and even if it isn't lethal, wouldn't 
somebody--you know, somebody go after the pure plutonium that 
they can find rather than something that has, you know, been 
reprocessed like that?
    Mr. Bunn. Well, I, for one, agree that there are a huge 
number of places in the world that, today at least, are 
sufficiently vulnerable that have either highly-enriched 
uranium or plutonium that they would be the places of choice 
for terrorists to get that kind of material. And one of the 
points I made in my testimony is that we, as a Nation, have to 
be working as fast as we can to lock down all of those 
stockpiles.
    I don't think that proliferation is the only issue here. I 
agree with you that nuclear energy is something that I would 
like to see grow as one of the potential answers to climate 
change----
    Chairwoman Biggert. And don't you think that----
    Mr. Bunn.--but I don't think we need reprocessing as part 
of that. In fact, I think a near-term decision to reprocess 
would be more likely to undermine than to promote the future of 
nuclear energy.
    Chairwoman Biggert. But don't you think that we really need 
to take in the cost consideration of the global climate?
    Mr. Bunn. Absolutely. And because we need to take into the 
cost consideration, that is one of the reasons why I think we 
shouldn't reprocess. The cost of climate change is an issue of 
nuclear energy----
    Chairwoman Biggert. But what we will be spending for other 
types of--like the carbon that is--you know, that is creating 
the problems, and if we have the nuclear, then that is going to 
change the costs that we are going to have to spend on the 
environment.
    Mr. Bunn. But what I am saying is you can have nuclear 
energy without reprocessing. In fact, I believe you are more 
likely to have growth in nuclear energy if we don't pursue 
reprocessing with the technologies that are available now or in 
the near-term.
    Chairwoman Biggert. But having been over in France and 
having seen those pools and the way that the storage is, I 
mean, they are getting to--you know, like the big rooms, like 
the football field with the cask, and then you have got the 
water pool in the other room. And that is--you know, they are 
doing well, but when we can reduce, you know, the amount of 
radioactivity and the heat to where--to--down to, let us say, 
300 years versus 10,000 years, that is a big difference in a 
cost to us as far as, you know, having the ability to put that 
some place.
    Dr. Hagengruber. If I could just make a comment.
    I think it is really important in the systems analysis to 
also look at the history of how the government participated in 
the industry, not only in this country, but in France, and how 
they participate today, just like Airbus and Boeing, are 
interesting issues.
    I think the other thing is that from a systems point of 
view, this is the only energy source that we are going to look 
at, that attractive energy source, where the government will 
bear an enormous burden. It is worse than ethanol or solar 
energy or geothermal in terms of the subsidy, because you will 
not be able to create an industry that would freely build this 
reprocessing plant, would freely move and recycle the material, 
would freely build the generations of reactors in which it 
would most efficiently be done if the entire--almost the entire 
research and development burden for this, not just the 
reprocessing facility, the Generation IV reactors, everything, 
will be borne by the government, and that is quite unlike any 
other energy source. If you put that into the context, then, of 
how much we spend dealing with the threat of nuclear weapons or 
the threat of proliferation of weapons of mass destruction, it 
means that--I mean, I actually believe, from a physicist's 
point of view, recycling makes sense for the very reasons that 
you say. On the other hand, proliferation has been a persistent 
problem. It is an emotional problem. It is one that gets into 
the deepest sense of fear that people have. And it affects the 
political environment, the cycles of support and non-support 
for nuclear energy. We have seen those cycles now since the 
Manhattan Project, and we will see them again. It seems to me 
that it behooves us then to make a decision that is most robust 
that draws the most constituency across the political spectrum. 
And I think that decision should include the closed cycle. But 
I think the time--the timing of the closed cycle is something 
where there should be an exquisite attention paid not to how 
efficiently we could get the Department of Energy to do the 
research, but how much the Congress, committees like this, 
could demand that the standards of proliferation be reasonably 
answered when they see the alternative technologies, because in 
the end, Madame Chairman, you and your colleagues will bear 
almost the entire cost of the development of this part of the 
cycle.
    Chairwoman Biggert. Well, I know that, you know, the 
Administration has come out and said we need to move forward 
with the advanced fuel. And there has been some discussion 
that, you know, the cost of doing the first fast reactor or 
doing the first--the whole process is going to be huge. But 
once that is built, then it will reduce the costs that the 
utilities will be able to come in and do that, is that 
something that you think is possible?
    Dr. Hagengruber. We have--we built a fast reactor in 
Tennessee, essentially completed. And it did not run. We built 
the West Valley field facility for recycling, and it ran for a 
few years and was shut down.
    Chairwoman Biggert. But we actually had one in Illinois, 
too, that was built but never opened.
    Dr. Hagengruber. Right. And it seems to me that it goes 
back to the----
    Chairwoman Biggert. But that was political.
    Dr. Hagengruber. But it is just, in a way--well, but that 
is my point is it is not physics. And it is--and we are not the 
threat of proliferation. Our material is very unlikely to be 
truly the threat to terrorists, even in this country, because 
we do provide a high level of security. It certainly is true in 
France. The security is exquisite. In the end, the question is 
whether or not the international regime we launch now, as we 
did in the 1950s, launched the nuclear regime that is around 
the world, whether or not that regime will be one we want to 
live with, you know, in the--for the next 20 years.
    Chairwoman Biggert. Well, we launched that, but I would say 
in the 1970s, you know, we said shut down all of the 
reprocessing. The United States did. Nobody else did, and they 
haven't followed our lead on that. Do you think we are still a 
leader in this industry at the moment?
    Dr. Hagengruber. I think that the--I believe that the 
international community still looks to the United States in 
terms of, like, the permanent geologic repository, I know from 
my discussions with the RW people, that people in France and 
everywhere look to the United States asking, ``What are you 
going to do?'' They look at Yucca Mountain to see. I think in 
the question of reprocessing and what will happen to an 
economy, a plutonium economy in the world, the question about 
Generation IV reactors, the investments that our government 
makes will be the ones that set the standards. So even though 
there have been countries that are successfully reprocessing, 
et cetera, is that the reactors the French are trying to sell 
to China are the reactors that were developed in the technology 
here in the United States. It is changed somewhat, but they are 
not an original design. And so, you know, in the end, we will 
have a major influence. The decisions made, you know, in these 
next few years will have a major influence on what the world 
decides. And even though we should have lost our leadership, I 
mean, we have been sitting still for 25 years, we have not. I 
mean, there is still--they will look to us to see how much of 
an investment we make. Generation IV, the advanced fuel cycle, 
these decisions are ones in which the U.S. leadership will have 
a profound effect on the world's decisions.
    Chairwoman Biggert. Dr. Finck.
    Dr. Finck. Yeah, if I may, two comments.
    I would like the United States to regain leadership in the 
nuclear business. I wouldn't be as optimistic as Dr. 
Hagengruber that we have kept everything. For example, in the 
repository, sure they look at our solution, but as Matt Bunn 
was saying, we are the only one to have put it in a mountain 
with limited walls. They are looking at very different 
solutions. Maybe, possibly, they are learning from our 
mistakes. I don't know.
    But you know, one more thing I would comment on, we need to 
stop thinking the same way we were thinking 30 years ago. The 
world has really changed. Global warming is, today, a 
recognized issue, at least by many scientists, and it is going 
to affect the future, maybe not mine, but certainly my children 
and grandchildren. It will affect more than any other program 
we had in our civilization before. We--oil, the price of oil 
has gone up, and I believe, unlike in the past where we have 
oil crisis due to a supply of political issue on the supply 
side, this time it has to deal with a major increase in demand, 
mostly in China and India. And I believe, I might be wrong, and 
hopefully I am wrong, the price of oil will be up for a very, 
very long time, maybe forever because these countries are 
consuming more. So the world has really changed, and the way we 
look at nuclear must address these changes, too. We need to 
increase nuclear to have a cleaner environment, to have more 
secure energy, and if we do not deal with the waste problem, 
that will prevent nuclear from moving forward. We need to deal 
with it.
    Chairwoman Biggert. Thank you very much.
    Mr. Bunn.
    Mr. Bunn. I believe that we do have some leadership and 
some influence on other countries, and that is part of the 
reason that I am concerned that President Bush's approach, 
where he has made stopping the spread of reprocessing to 
additional countries a key element of his nonproliferation 
policy, will be more difficult to carry out if we, ourselves, 
are moving forward with large-scale commercial reprocessing in 
our country. If we are doing it, it will be more difficult to 
convince others not to. Countries like South Korea and Taiwan 
have both expressed interest in reprocessing. They have been 
not pursuing it, because of U.S. pressure, and they both had 
secret nuclear weapons programs based on reprocessing in the 
past that were stopped under U.S. pressure. We just read in the 
newspaper this morning about additional secret reprocessing 
work in Iran that the IAEA has reported. So I think a 
nontrivial part of the consideration is what influence will 
this have on our ability to convince other countries to follow 
what is a significant part of President Bush's 
nonproliferation----
    Chairwoman Biggert. So I guess what you are saying is that 
we shouldn't move forward in our research and development if 
another country might do it, too?
    Mr. Bunn. That is not correct. I have strongly supported 
continued research and development in my testimony. What I am 
saying is we should allow time for the technology to develop. 
We have available today commercially safe, cheap, reliable ways 
to manage our nuclear fuel for decades to come. We should allow 
the time for a responsible decision with more development of 
the technology.
    Chairwoman Biggert. Mr. Johnson, do you have anything to 
add?
    Mr. Johnson. No, ma'am.
    Chairwoman Biggert. No? Okay. Thank you, all. Thank you, 
all of the panelists today, for testifying before this 
subcommittee, and I really appreciate all that you have--the 
expertise that you have brought to this Committee. And 
obviously, this is a very complex issue, and we will be holding 
further hearings, and I know that it is--I think we do have a 
responsibility to know all of the facts and make decisions 
based on that, and I appreciate all that you have contributed 
to that.
    So if there is no objection, the record will remain open 
for additional statements from the members and for answers to 
any follow-up questions the Subcommittee may ask the panelists. 
Without objection, so ordered.
    The hearing is now adjourned.
    [Whereupon, at 12:34 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Robert Shane Johnson, Acting Director, Office of Nuclear 
        Energy, Science, and Technology; Deputy Director for 
        Technology, U.S. Department of Energy

Questions submitted by Chairman Judy Biggert

Q1.  There was some discussion during the hearing about the economics 
of reprocessing, once it becomes commercial scale. What are the major 
steps necessary before the technology is mature enough for commercial 
deployment? For each of those steps, do we have enough information to 
estimate the associated costs? If so, what are the costs?

A1. Assuming that any near-term (e.g., within twenty years) commercial 
deployment in the United States would involve one of the UREX+ flow 
sheet variations, the major steps remaining are (1) completion of both 
laboratory-scale experiments and modeling efforts to characterize the 
selected flow sheet and its associated control/accountability system, 
and (2) successful testing at an engineering scale of the integrated 
flow sheet and controls. Some preliminary cost estimates have been made 
based on laboratory experience to date plus related data from 
commercial scale separations operations in foreign countries. 
Additional research and development is needed to identify the losses 
between process steps and the scalability of the technology.

Questions submitted by Representative Dave G. Reichert

Q1.  I understand that there is likely to be a shortfall of trained 
professional nuclear engineers, nuclear scientists, health physicists, 
radiochemists and actinide specialists brought on in part by the 
impending retirement of a substantial portion of the national lab staff 
with experience in these fields. I am further advised that Universities 
in my state with leading radiochemistry programs are hindered in 
attracting nuclear science and engineering students.

        <bullet>  How will a renewed development of the nuclear fuel 
        cycle, including nuclear reprocessing, in the U.S. be staffed 
        with competent scientists and engineers?

A1. The Department of Energy's (DOE) Office of Nuclear Energy, Science 
and Technology's (NE) supports nuclear science, radiochemistry, health 
physics, and engineering programs at U.S. colleges and universities 
through the University reactor Infrastructure and Education Assistance 
program (University Programs). This program has been in place for over 
a decade and it along with the efforts of universities and industry has 
led to a significant increase in enrollments in these programs. For 
example, nuclear engineering programs in the U.S. increased from 490 
students in 1998 to more than 1,500 today. Additionally, the Department 
provides targeted opportunities to outstanding students interested in 
disciplines related to nuclear fuel cycles, through fellowships awarded 
through the Advanced Fuel Cycle Initiative.

Q2.  Numerous National Academy studies have emphasized the need for 
international cooperation and collaboration in the development of 
future nuclear fuel cycles.

        <bullet>  What role might international agreements play in the 
        growth of our involvement in closing the loop on the nuclear 
        fuel cycle? In other words, how might we achieve a mutual 
        benefit through cooperation with the French, the Japanese or 
        the Russians who are all involved in advanced fuel cycle work?

A2. The Department is actively engaged with several other countries in 
developing next-generation nuclear energy systems including advanced, 
proliferation-resistant fuels and fuel cycles. Through the Generation 
IV Nuclear Energy Systems Initiative, the Advanced Fuel Cycle 
Initiative (AFCI) and the International Nuclear Energy Research 
Initiative (INERI), collaborative research and development (R&D) into 
advanced fuel cycles, including treatment and recycling of spent 
nuclear fuel, has been underway for over four years. The United States 
is currently collaborating with France, Japan, and the European Union. 
The United States is gaining insight into other countries' recent 
operational experience and sharing in their expertise as new, improved, 
proliferation-resistant advanced fuel cycle technologies are jointly 
developed. These cooperative activities involving spent fuel 
reprocessing and advanced plutonium-bearing fuel fabrication 
technologies are sensitive and subject to technology transfer export 
controls.

Questions submitted by Representative Michael M. Honda

Q1.  The House report language mentions the West Valley reprocessing 
plant. How much has it cost to clean up the reprocessing waste left 
over from operation of West Valley from 1966-1972? How much is it 
expected to cost? How long will the clean-up take?

A1. The Department's cost from the 1980 inception of the West Valley 
Demonstration Project (WVDP) through 1996 was $1.1 billion and included 
design, construction and initiation of hot operation of the high-level 
waste vitrification facility. Since 1997 (when the Office of 
Environmental Management began formally collecting cost information) 
through Fiscal Year 2004, the Department spent an additional $832 
million (current year dollars). Per the WVDP Act (P.L. 96-368, 1980), 
this represents the Federal Government's contribution of 90 percent; 
the State of New York contributes 10 percent.
    The Department plans to address its responsibilities under the WVDP 
Act in two phases. The preliminary estimated cost to complete the first 
step (associated with interim end state completion on or before 2010) 
is an additional $443 million for a total of $1.275 billion since 1997. 
The scope associated with this phase of the work includes completion of 
off-site low-level and transuranic waste disposition, and 
decontamination and demolition of facilities previously utilized to 
support tank waste solidification. The preliminary cost estimate 
associated with storage, surveillance, and monitoring of the vitrified 
waste canisters through 2035 (when off-site disposition is planned for 
completion) is $390 million.
    The second step includes tank decommissioning. DOE and the State of 
New York are jointly developing an Environmental Impact Statement (EIS) 
for Decommissioning and/or Long-term Management of the West Valley 
Demonstration Project to evaluate various options for the site, 
including the technical, cost, and schedule considerations. The cost 
estimate and schedule associated with this final phase of the WVDP will 
be developed based on the outcome of the EIS, to be published in 2008.

Q2.  Do you have an estimate of what it would cost to implement the 
plan proposed by Chairman Hobson to reprocess 50,000 metric tons of 
commercial nuclear waste at one or more Department of Energy (DOE) 
sites?

A2. No, the Department does not have an estimate for these costs. This 
is a very large undertaking and the Department is pursuing order of 
magnitude estimates during FY 2006.

Q3.  Is the estimate for reprocessing of $280 billion from DOE's 
roadmap over 117 years still current? What fraction of this cost 
estimate was from reprocessing? Does this include cost for physical 
protection and safeguards of plutonium created? What design basis 
threat is assumed? Are you assuming a 9/11 magnitude threat in these 
estimates?

A3. These cost estimates are out of date. New technologies are under 
development that would represent a fraction of the costs that were 
estimated in 1999 with different technologies.

Q4.  What are the principal technological uncertainties related to the 
development of the UREX+ process?

A4. While there are five technology variations under the UREX+ 
technology, the Department believes that one of these variations is 
most advantageous from a proliferation resistance perspective (in that 
it does not separate pure plutonium or separate pure plutonium plus 
neptunium). For that reason, most of the research and development is 
expected to be focused on that variation.

Q5.  On page 4 of your testimony you state that commercial scale-up of 
spent fuel technologies could be accomplished relatively rapidly if 
existing domestic facilities could be modified and used. Where are 
these facilities and who owns them?

A5. There are four such facilities that could possibly be used in 
demonstrating the technologies. Two are private facilities built in the 
1970s but never completed or operated with spent fuel. One is the 
Barnwell plant on the edge of the DOE Savannah River Site in South 
Carolina, designed and built by the Allied Chemical Company. The second 
is the General Electric Company's Morris Plant, at the edge of the 
Dresden Power Reactor south of Chicago, which is an active fuel storage 
facility containing about 800 tons of spent fuel originally slated for 
processing in the plant.
    The other two facilities are at DOE sites: Savannah River Site and 
the Idaho National Laboratory (INL). The Savannah River facility is 
known as the H Canyon, previously used for processing spent reactor 
fuel for weapons purposes and now used as part of the site cleanup. The 
INL facilities are at the Idaho Nuclear Technology and Engineering 
Center (INTEC), consisting of several buildings previously used or 
intended to be used to process spent naval nuclear reactor fuel.

Q6.  How will DOE select a reprocessing technology for the future? What 
factors will be taken into account?

A6. The selection of a reprocessing technology is dependent on 
economics, reliability, ease of scale-up and considerations related to 
safety and proliferation resistance. Advanced aqueous processing are 
best suited to treat spent nuclear fuel being stored and generated 
today and therefore are the technologies likely to be selected for 
reprocessing of those fuels. Pyrochemical processes may be better 
suited for spent fuel from advanced fast reactors.

Q7.  Does the use of MOX fuel in light water reactors in conjunction 
with reprocessing actually reduce the amount of waste that will 
ultimately need to go into Yucca Mountain from the existing fleet of 
reactors in the U.S.? Please provide some specific numbers to 
illustrate your answer.

A7. The present technical capacity of Yucca Mountain is limited not as 
much by the amount of waste, but rather by the long-term heat produced 
by the waste and certain repository design restrictions. The principal 
sources of long-term heat are the transuranic elements in the waste. 
The most important of these are plutonium-241, americium-241 and 
neptunium-237. Aqueous reprocessing and the recycle of plutonium/
neptunium into a modified form of MOX fuel to light water reactors can 
be used to transmute the critical transuranic isotopes and eliminate 
uranium (95 percent of the spent fuel by weight) from the final waste 
going to the repository. Therefore, by using these two processes 
together, it is possible both to decrease the amount of waste and to 
increase the technical capacity of the repository by a factor of about 
two.

Q8.  Is MOX a U.S. technology? If MOX is used, will the U.S. have to 
pay royalties to the owners of the technology?

A8. The MOX technology was originally developed in the United States 
and therefore the U.S. would not need to pay royalties if MOX 
technology is used.

Q9.  Does reprocessing itself create additional waste? If so, what is 
it?

A9. Reprocessing using a technology such as UREX+ would not create 
additional liquid high level waste as is associated with current 
generation PURER technology. The purpose of reprocessing is to reduce 
the total quantity of high level waste requiring repository disposal as 
compared with direct disposal of the same fuel. The French reprocessing 
experience with the PURER process has demonstrated a factor of four 
reduction in waste volume. Advanced aqueous recycling processes under 
development in the Advanced Fuel Cycle Initiative (AFCI) program have 
the potential for further volume reductions. This is because the high 
level waste would not have short or long term heat producing isotopes 
and therefore, would be superior to the PURER technology.

Q10.  Are there other ways to burn nuclear waste in a reactor than MOX? 
What are they?

A10. MOX is the only fuel technology that has been commercially 
deployed for light water reactors. Research has been ongoing for 
several advanced technologies:

        --  Multi-recycle schemes based on MOX fuels have been 
        investigated that provide greater benefits than the standard 
        MOX approach, but come at a cost of significant difficulties in 
        designing and operating fuel cycle plants.

        --  Advanced fuels, called Inert Matrix Fuels, that contain no 
        uranium are being investigated and could provide additional 
        benefits beyond MOX fuel. However, the development of Inert 
        Matrix Fuels is not sufficiently advanced for 
        commercialization.

Q11.  Can high temperature gas cooled reactors burn nuclear waste after 
it has been reprocessed? If a gas cooled reactor is built at the Idaho 
National Lab, could it be used to demonstrate another means of getting 
rid of nuclear waste?

A11. Spent fuel from existing light water reactors contains plutonium 
and other transuranic elements (higher actinides) which are the most 
important contributors to the long-term radiological hazards and 
performance uncertainties for a geologic repository. Reprocessing can 
be used to separate these isotopes, which can then be fabricated into 
fuel for light water reactors or gas cooled reactors. By burning this 
fuel, thermal reactors (light water and gas cooled reactors) could 
destroy higher actinides, the plutonium.

Q12.  DOE has many nuclear related issues that must be addressed 
including nuclear waste, non-proliferation, building new reactors in 
the near term, Gen IV reactors, rebuilding nuclear capability and 
industry in the U.S., nuclear hydrogen production and so on. I have the 
sense that many of these issues have been treated as unrelated and that 
there has not been an effort to take a systems view at DOE of these 
opportunities and issues. Is this the case? Would there be benefits 
from trying to see whether certain technologies or strategies would 
address two or more of these issues?

A12. The Department agrees that an integrated approach is needed to 
address the front and back end of the nuclear fuel cycle as well as 
reactor technologies. To that end, the Department has employed a 
systems approach to its research, specifically treating the issues such 
as waste minimization, energy optimization, proliferation resistance, 
economics and safety in an integrated fashion. The performance criteria 
associated with Generation IV reactors are closely coordinated with the 
advanced fuel cycle research and development. For example, as part of 
the fuels development effort, the Department is pursuing fuels that are 
proliferation resistant and recyclable, and are integrating the 
research and development on the fuels to meet both fuel cycle and 
reactor performance requirements.
    In addition, in FY 2006, the Administration is proposing to 
commission a comprehensive review of NE program goals and plans by the 
National Academy of Sciences. The evaluation will validate the process 
of establishing program priorities and will result in a comprehensive 
and detailed set of policy and research recommendations, including 
performance targets and metrics for an integrated agenda of research 
activities.

                   Answers to Post-Hearing Questions

Responses by Matthew Bunn, Senior Research Associate, Project on 
        Managing the Atom, Harvard University, John F. Kennedy School 
        of Government

Questions submitted by Representative Michael M. Honda

Q1.  If the United States made a decision to proceed with reprocessing 
its commercial spent nuclear fuel what impact would that have on our 
efforts to limit the spread of reprocessing and enrichment technologies 
around the world, and convince other countries not to pursue this 
technology themselves?

A1. If the United States undertakes large-scale reprocessing of its own 
commercial spent nuclear fuel, it will become significantly more 
difficult to convince other states that it is not in their national 
interest to pursue similar technology. The United States will have 
little ability to ensure that other states adopt proliferation-
resistant approaches to reprocessing. Thus, the effort to stem the 
spread of reprocessing technology, a key element of President Bush's 
nonproliferation strategy, could be significantly undermined. At the 
same time, the magnitude of this effect should not be overstated; there 
are only a limited number of countries that do not already have 
operating reprocessing capabilities but are interested in establishing 
such capabilities (or might plausibly become interested in the next 
decade). Over the longer-term, the effect might be more significant.

Q2.  It is vital to ensure that plutonium already separated by 
reprocessing is adequately secured against terrorist theft. What more 
should the U.S. Government be doing to ensure that nuclear stockpiles 
around the world are secure and accounted for and cannot fall into 
terrorist hands?

A2. A sea-change in the level of sustained White House engagement 
focused on sweeping aside the bureaucratic and political obstacles to 
rapid progress in locking down the world's nuclear stockpiles is 
urgently needed. An accelerated and strengthened effort would have many 
ingredients, but three are essential:

        <bullet>  accelerating and strengthening the effort in Russia, 
        where the largest stockpiles of potentially vulnerable nuclear 
        materials still exist, with the goal of ensuring that all 
        nuclear weapons and weapons-usable materials there are secure 
        enough to defeat demonstrated insider and outsider threats in 
        Russia by the end of 2008, in a way that will last after U.S. 
        assistance phases out;

        <bullet>  removing the potential bomb material entirely from 
        the world's most vulnerable sites (particularly research 
        reactors fueled with highly enriched uranium), with the goal of 
        removing nuclear material or providing highly effective 
        security for all of the most vulnerable sites within four 
        years, and eliminating the civilian use of highly enriched 
        uranium worldwide within roughly a decade; and

        <bullet>  building a fast-paced global coalition to improve 
        security for nuclear weapons and weapons-usable nuclear 
        materials around the world, with the goal of ensuring that 
        every nuclear weapon and every kilogram of weapons-usable 
        nuclear material, wherever it may be in the world, is secure 
        and accounted for.

    In addition to securing nuclear material at its sources--the 
critical first line of defense--strengthened efforts are also needed to 
beef up the inevitably weaker lines of defense that come into play 
after a nuclear weapon or nuclear material has already been stolen, 
including particularly strengthened police and intelligence operations 
(including sting operations and the like) focused on preventing nuclear 
smuggling and identifying potential nuclear terrorist cells.
    The effort to lock down nuclear stockpiles around the world should 
be considered a central part of the war on terrorism. Homeland security 
begins abroad; wherever there is an insecure cache of potential nuclear 
bomb material, there is a potentially deadly threat to the United 
States. As Senator Richard Lugar (R-IN) has argued, the war on 
terrorism cannot be considered won until all nuclear weapons and 
weapons-usable nuclear materials worldwide are demonstrably secured and 
accounted for, to standards sufficient to prevent terrorists and 
criminals from gaining access to them.
    President Bush should issue a directive identifying prevention of 
nuclear terrorism as a top national security priority, and appoint a 
senior official, with the access needed to get a presidential decision 
whenever necessary, to lead the many disparate efforts now underway to 
keep nuclear capabilities out of terrorist hands. A detailed set of 
recommendations is available in Securing the Bomb 2005: The New Global 
Imperatives, available on-line at http://www.nti.org/cnwm.

Q3.  You state in your testimony (p. 8) that if the government is 
fulfilling its obligation to take title to spent fuel and clear 
progress is being made on the waste repository then potential investors 
in nuclear plants will have sufficient confidence to make a commitment. 
Given that the repository is about 10 years late in opening the 
government has yet to take possession of significant volumes of fuel, 
how much longer do you believe investors will give the benefit of the 
doubt to the government that it will ultimately fulfill its contractual 
obligations to take possession of existing spent fuel and open a 
permanent repository?

A3. From the perspective of a potential investor in a new nuclear 
plant--or the owner of an existing one--the most important thing is 
that the spent fuel must not become an indefinite political and 
economic liability hanging around the neck of the privately owned 
plant. If it was clear that the government was going to pay all the 
costs of the fuel's storage, or better yet, take it to an off-site 
location (for example, an interim storage facility), that would address 
the most important investor concerns; what happens to it after that, 
whether reprocessing or storage followed by direct disposal, is less 
critical from the investor's point of view.
    Indeed, a decision to reprocess U.S. spent nuclear fuel would be 
more likely to undermine than to strengthen investor interest in new 
nuclear power plants. Reprocessing would be significantly more costly 
than direct disposal, meaning that either (a) the nuclear waste fee 
would and would have to be substantially increased; (b) the government 
would have to pass onerous regulations forcing industry to build and 
operate facilities that would not be economic in themselves; or (c) the 
government would have to provide many billions of dollars in subsidies 
for this approach to spent fuel management. From the point of view of a 
potential investor in nuclear power, options (a) and (b) are quite 
unattractive, and whether the government would actually fulfill its 
obligations in option (c) is, if anything, more uncertain than Yucca 
Mountain (and a permanent repository would still be needed in any 
case). Moreover, it is clear that reprocessing would provoke 
substantial political controversy in the United States, which would 
also be a negative from an investor's perspective. If we want nuclear 
energy to have a bright future, we need to make it as cheap, as simple, 
as safe, as proliferation-resistant, and as non-controversial as 
possible, and near-term reprocessing points in the wrong direction on 
every count.
    In short, the government must meet its contractual obligations, but 
that does not help make the case for reprocessing of the fuel. The 
actual cost of storage of U.S. spent fuel for another decade--to the 
utilities, or to the government--is actually quite modest; estimates 
that storage will cost the government $1 billion per year are vastly 
overstated. That being said, it is important, regardless of what 
decisions are made about reprocessing, to move forward in a timely way 
with licensing and opening a permanent repository.

Q4.  You note that the Department of Energy (DOE) has not performed a 
credible life cycle cost analysis of the cost of a reprocessing and 
transmutation system compared to that of direct disposal. Do you 
recommend that the Committee direct DOE to conduct such an analysis? Is 
that a necessary first step, in your opinion?

A4. Such an analysis is certainly needed, but it should be only one 
part of a broader assessment of the costs and benefits of near-term 
reprocessing, compared to interim storage followed by direct disposal. 
If advocates argue that separations and transmutation are needed to 
make more repository space available, then a credible study is needed--
which does not yet exist--of all the available options for achieving 
that goal, with their costs, risks, and benefits, not just of 
reprocessing. If advocates argue that separations and transmutation 
will reduce the toxicity and lifetime of the waste to be disposed, then 
a credible study is needed--which does not yet exist--of the total 
life-cycle environmental hazards posed by direct disposal compared to 
those of separations and transmutation (including near-term doses from 
operations of the relevant facilities, not just long-term doses from a 
permanent repository, and including not only doses from normal 
operations but from plausible accidents as well). In the post-9/11 era, 
detailed analyses of the terrorist risks of both approaches are needed, 
and these, too, have not yet been done. No realistic evaluation of the 
impact of a reprocessing and transmutation on the existing nuclear fuel 
industry has yet been done. No serious evaluation of the licensing and 
public acceptance issues facing development and deployment of a 
separations and transmutation system has yet been done. No serious 
assessment of the safety and terrorism risks of a reprocessing and 
transmutation system, compared to those of direct disposal has yet been 
done. Assessments of the proliferation implications of the proposed 
systems that are detailed enough to support responsible decision-making 
have not yet been done. In short, virtually none of the most important 
information on which to base a responsible decision to carry out 
reprocessing of U.S. nuclear fuel is yet available. The Committee 
should consider directing DOE to carry out studies of all these 
matters, or assigning such studies to the National Academy of Sciences. 
In either case, the Committee should allow enough time for careful 
consideration of the relevant issues.

Q5.  You recommend the establishment of expanded interim storage 
facilities ``as a complement and interim backup'' to the Yucca Mountain 
repository. Is there any reason why that interim facility shouldn't 
also be located at Yucca Mountain?

A5. The area around Yucca Mountain is one plausible location for such 
an interim facility, but there are others, and the different possible 
locations have both advantages and disadvantages. Obviously, there are 
advantages to shipping the fuel to a site close to where it will 
ultimately be disposed of. There are also disadvantages, however. 
Technically, the area around Yucca Mountain has a high level of seismic 
activity, which is more of a problem for an above-ground interim 
storage facility than a below-ground repository (just as a storm at sea 
is more of a problem for surface ships than for submarines). 
Politically, Congress has in the past judged that it would not be fair 
to burden Nevada with both the permanent repository and an interim 
storage facility. For any interim site, detailed analysis of the best 
approaches to providing safe and secure transportation of spent fuel to 
the site is needed, and such analyses may reveal that some sites have 
significant safety or security advantages over others.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by Phillip J. Finck, Deputy Associate Laboratory Director, 
        Applied Science and Technology and National Security, Argonne 
        National Laboratory

Questions submitted by Chairman Judy Biggert

Q1.  There was some discussion during the hearing about the economics 
of reprocessing, once it becomes commercial scale. What are the major 
steps necessary before the technology is mature enough for commercial 
deployment? For each of those steps, do we have enough information to 
estimate the associated costs? If so, what are the costs?

A1. The UREX+ aqueous reprocessing technologies have already been 
demonstrated at the laboratory scale with spent nuclear fuel. As these 
processing technologies are similar to the mature PUREX process 
currently being used in France and the United Kingdom (U.K.) at an 
industrial scale, it is likely that scale-up to industrial size will be 
successful and relatively straightforward if similar equipment is used. 
If advanced equipment, reducing size and cost, is desired, then an 
intermediate stage of pilot plant demonstration would be prudent, and 
represents the only major step in development. The UREX+ technologies 
are candidates for processing spent fuel from light water reactors 
(LWRs), typical of present-day nuclear power plants.
    Less developed technologies, such as pyroprocessing, should be 
viewed as being further from commercialization at an industrial scale. 
Ongoing research and development of this method in the DOE Advanced 
Fuel Cycle Initiative (AFCI) program is aimed at facilitating the 
large-scale commercialization of this technology as well. However, at 
this time, the likely use for pyroprocessing is to process spent fuel 
from fast neutron reactors that are used for actinide transmutation and 
uranium resource extension. Since the U.S. currently does not have any 
reactors of this type, but would likely implement them in the future as 
part of an overall energy strategy, there is sufficient time for this 
technology to mature.
    The proposed Advanced Fuel Cycle Facility in the AFCI program would 
address the need for pilot scale demonstration of both UREX+ and 
pyroprocessing. Results from testing in this facility should allow the 
competent design of industrial facilities using these technologies. 
While cost estimates for such a facility are necessarily highly 
uncertain, due to the lack of recent experience in building such a 
facility, it is likely that the current cost estimate for this facility 
would be in the range of $1B (including not only processing 
demonstration but fuel fabrication capabilities as well), with an 
estimated annual operating cost to demonstrate these technologies of 
$100M/year. Although admittedly large, these costs need to be placed in 
the context of the existing nuclear power industry in the United 
States, with capital investment of several hundred billion dollars, and 
electricity generation of about $50B or more per year. Payments into 
the nuclear waste fund also approach $1B per year, with the anticipated 
cost of the Yucca Mountain repository in the neighborhood of $50B.

Questions submitted by Representative Michael M. Honda

Q1.  The House report says that European countries ``recycle'' 
(plutonium) as they go, but actually MOX fuel is not made and used 
immediately. (Nor is the high-level liquid waste generated from 
reprocessing immediately vitrified; rather it is stored in stainless 
steel tanks to cool.) More than 200 metric tons of commercial plutonium 
worldwide is separated and has not been used as MOX and the surplus is 
building up each year. Many reactors need costly modifications to use 
MOX and some reactors cannot be modified. There are about 80 metric 
tons of surplus plutonium at La Hague in France and similar amounts at 
Sellafield in the United Kingdom (U.K.) and more than 30 metric tons in 
Chelyabinsk, Russia. The UK has no reactors which can use plutonium 
fuel and no operating MOX factory. How can you explain that this is a 
recycling program when the UK has amassed about 80 metric tons of civil 
weapons-usable plutonium and has no plans to use this material? (For Pu 
amounts reported to the International Atomic Energy Agency (IAEA)--see 
INFCIRC 549, on IAEA web site.)

A1. At this time, there is a mismatch in the ability to process 
commercial spent fuel and the ability to re-use the separated materials 
in reactors, both in Europe and elsewhere. As a result, substantial 
stockpiles of separated materials have been accumulated, although that 
was not the original intent. In France and other countries, the spent 
fuel processing activity was intended to be part of an integrated 
system where the recovered plutonium would be used in thermal and fast 
reactors. However, due to shifting program emphasis and priorities, the 
construction and operation of the processing plants has proceeded 
mostly as planned, while the reactor systems to use the plutonium have 
not. A similar situation also exists in the U.K. and in Russia, for 
basically the same reason.
    One can ask why the current situation has developed, and the answer 
is probably found in a combination of factors. First, electricity 
demand, and hence reactor construction, did not grow as envisioned, but 
stagnated instead, driven mainly by large improvements in efficiency 
for a wide variety of electricity-driven products, including 
electronics, appliances, etc., and by a drop in heavy industrial use. 
Second, opposition to the use of nuclear power increased dramatically 
in the wake of the Three Mile Island and Chernobyl accidents. This 
opposition exacerbated the situation, leading to the large mismatch in 
capabilities that exist today. Other minor reasons can also be cited, 
but the point is that when the plans were originally conceived, the 
systems were intended to balance, and achieve the ``recycle as they 
go'' condition.
    That being said, it should be noted that France is engaged in 
recycling the plutonium in those reactors capable of using this 
material. Newer reactor designs are intended to allow for increased use 
of MOX fuel, which should address the stockpile concern as these 
reactors are constructed and brought into service to replace reactors 
being decommissioned. The situation in the U.K. and Russia is 
different, where the future direction of nuclear power has still not 
been decided. Until the time that these countries decide to adopt 
plutonium recycling as originally planned, or another disposition path 
is taken, the accumulated stockpile of separated plutonium will 
continue to exist with no specified purpose, and should be considered 
as either a resource for the future or as a separate waste stream for 
eventual disposal. The Russian position has been made quite clear many 
times: they regard separated plutonium as a valuable energy resource 
and plan to utilize this material in the fast reactors that are planned 
for deployment in the future.
    It is correct that many reactors would need costly modifications to 
use MOX, and some cannot be modified to use MOX. But it is also correct 
to state that many reactors are ready to use MOX with only minor and no 
modifications. Furthermore, I believe that the U.S. should move towards 
a close fuel cycle, where the MOX approach would be at best of limited 
relevance; this approach would involve the transition towards a new 
generation of fast reactors, with novel fuel types and separations 
techniques, that would eliminate a very high fraction of radiotoxic 
elements.

Q2.  France uses plutonium fuel (MOX) in 20 out of 58 reactors, but the 
stockpile of civil plutonium continues to increase with no end in 
sight. How can this growing stockpile be presented as ``recycling''? 
MOX fuel produces only about 15 percent of France's nuclear electricity 
and imposes about $1 billion per year in added electricity costs, 
according to an official French report. Why does Electricite de France, 
the state-owned utility forced to use MOX fuel, place a negative value 
on plutonium they must take from the state-owned processing company 
(Cogema)?

A2. I am, of course, not able to speak for the French utility industry. 
As to the question of recycling, the fact is that the recovered 
plutonium is being recycled, but that the rate of recycling is lower 
than the design rate of production at the processing plant. As more 
reactors become available to use the MOX fuel, this mismatch in 
production and demand will diminish, and eventually reverse, gradually 
consuming the current stockpile of separated plutonium. This would be 
consistent with the original intent of the French planning, but it has 
not yet been put into place.
    The question of the added cost would need to be examined carefully 
to determine what is included and what is not included. The negative 
value on plutonium compared to standard enriched uranium fuel appears 
reasonable, as any fuel made from separated materials is likely to cost 
more than enriched uranium fuel as long as uranium ore costs remain 
low--it is not at all clear that this situation will remain stable for 
the foreseeable future. Basically, enrichment to the required level is 
currently cheaper than fuel processing, separation, and MOX 
fabrication. However, this probably does not account for the changes 
that have been made in the resulting waste stream. In France, and in 
other countries, such an accounting may be difficult, as no waste 
disposal strategy has been determined. Without a strategy in place, one 
cannot place a value on the reduction in waste volume and toxicity 
arising from spent fuel processing. Depending on the ultimate cost of 
disposal, the cost savings from the reduced amount of waste may be 
sufficient to offset or even exceed the additional costs of processing, 
or they may not. It is important to realize, though, that these costs 
still only represent a minute fraction of the cost of generating 
nuclear electricity, and when one examines the value of pursuing a 
given strategy, such as plutonium recycling, the entire system must be 
considered, from mining to geologic disposal.

Q3.  Japan is in the start-up phase of a massive new $20 billion 
reprocessing factory (Rokkasho). Its reprocessing program is estimated 
to cost $166 billion over 40 years (including construction, operating, 
and decommissioning costs). Japan has committed itself to keeping its 
plutonium supply and demand in balance but Japan already has 40 MT (35 
MT in Europe, five MT domestic) supply of plutonium. How can operation 
of Rokkasho and failure to implement a domestic MOX program be 
presented as balancing supply and demand? Especially when the utilities 
are wary of the program? Japanese politicians have spoken in recent 
years of making a weapon and one has suggested that Japanese commercial 
plutonium stocks could be used to make large numbers of weapons. What 
would this mean for global non-proliferation measures? What would this 
mean for stability of the region?

A3. It is highly desirable to construct and operate a reprocessing 
plant with the plant being part of an integrated system, where the 
recovered materials are quickly re-used in nuclear reactors. This is 
why the need for an integrated system is stressed, and one needs to 
either implement the entire system, or to not implement anything. It is 
surely the intent of the Japanese to re-use the recovered plutonium in 
their nuclear reactors to help increase the security of this part of 
their overall energy supply, although it would appear that there was 
not agreement by all parties involved in the government and industry as 
to how and when this would be accomplished. As to why the Japanese 
utilities are wary of the program, it is difficult to say why without 
explicit statements on their part. Presumably a great part of this 
concern is the uncertainty in future fuel cycle costs; this is 
countered to a degree by the assurance of a domestic fuel supply in a 
world economy in which the price of uranium may increase significantly.
    Although some Japanese politicians have spoken about constructing a 
nuclear weapon, I believe that the context for such comments is likely 
to be in response to what the Japanese perceive as an increasing 
instability in the region due to the recent actions of China and North 
Korea. As a result, comments about global non-proliferation and the 
impact to the stability of the region are probably best left to the 
diplomats.
    It does need to be noted, however, that the Japanese commercial 
plutonium stocks are already ill-suited for weapons use, and is part of 
the reason that civilian reprocessing activities are only marginally 
related to the issue of non-proliferation. Plutonium obtained from 
commercial spent fuel with a typical amount of irradiation in the 
reactor not only has an isotopic composition that makes weapon 
fabrication problematic (although not impossible), but storage of this 
plutonium leads to further degradation such that the plutonium would 
need to be refined again before weapons use could even be contemplated. 
It is likely that such refining may be necessary for the fabrication of 
new nuclear fuel as MOX, depending on the storage time. This is one 
reason why a mismatch between spent fuel processing rate and the 
ability to use the separated plutonium is undesirable, and should be 
avoided if possible.

Q4.  Dr. Finck, in your presentation before the Advanced Fuel Cycle 
Initiative's Semi-Annual Review Meeting in August of 2003, you stated 
that, ``Expect that proposed dual tier fuel cycle cannot be made 
intrinsically proliferation resistant.'' Why don't you consider UREX-
plus proliferation-resistant? What are the issues here?

A4. I do stand by my statement of 2003. Nevertheless, I never stated 
that UREX-plus is not proliferation resistant.
    The use of dual tier systems requires that relatively pure streams 
of Plutonium and Neptunium be separated from the Spent Nuclear Fuel, as 
Light Water Reactors have a limited ability to recycle other materials 
such as Americium and fission products. That clean separated material 
can be viewed as a proliferation concern. Nevertheless, the same system 
can be made proliferation resistant by the use of advanced safeguards 
measures, which are currently being vigorously pursued in the AFCI 
program. Furthermore, the single tier system, that does not utilize 
recycle in thermal reactors, but directly transmutes elements in fast 
reactors, can accommodate much less pure mixtures of elements, and 
therefore presents interesting proliferation resistance attributes. 
Even in this system, we would insist on the incorporation of advanced 
safeguards features in fuel cycle facilities.

Q5.  You state in your testimony that nuclear energy could produce 
process heat that could be used in the production of transportation 
fuels such as hydrogen. However, you also included synthetic fuel in 
the product slate. What synthetic fuels would be possibly produced at a 
nuclear plant?

A5. I apologize if my inclusion of synthetic fuels in the product slate 
has created some confusion. The application of nuclear power to the 
production of synthetic fuels is to provide either process heat, 
electricity or hydrogen, to a plant that is making synthetic fuels from 
other feedstocks such as coal or gas. The synthetic fuels are basically 
the same concepts that were heavily investigated in the 1970's in 
response to the energy crisis at that time, and include coal 
gasification and liquid synfuels.

Q6.  In your statement (p. 1-2) you say that the U.S. needs to take a 
more comprehensive approach to nuclear waste management and you mention 
that resource optimization and waste minimization as two objectives 
that must be pursued with targeted R&D to minimize their economic 
impact. With respect to waste minimization, what is the potential for 
reducing the volume and/or heat contained in the waste? What are the 
tradeoffs necessary to achieve maximum waste reduction?

A6. For the Yucca Mountain repository, the utilization of space in the 
repository is constrained by the amount of decay heat generated in the 
spent fuel. If this fuel is processed, and the actinide elements are 
removed along with the fission products cesium and strontium, it is 
possible to reduce the decay heat of the resulting waste by a factor in 
excess of 200. This can be used to greatly increase the utilization of 
the Yucca Mountain repository in terms of the amount of space needed to 
store the waste resulting from the production of a given amount of 
energy. At the same time, a lower total inventory of hazardous 
materials is placed in the repository as compared to the current plan 
for direct disposal of spent fuel, postponing the need for 
consideration of a second repository until the next century or beyond.
    Processing of the spent fuel removes the uranium, which accounts 
for over 95 percent of the waste volume. Removal of the other actinide 
elements accounts for another two percent, while the cesium and 
strontium would account for about two percent. As a result, less than 
one percent of the original spent fuel material remains for disposal. 
The volume required to dispose of this material depends on the waste 
form, and is a current area of research. It is anticipated that about a 
factor of 50 to 100 reduction in waste content for a given amount of 
energy production can be achieved, perhaps greater. This would 
translate into an equivalent increase in the utilization of space in 
the Yucca Mountain repository.
    There are not any ``tradeoffs'' required to achieve these 
reductions, although all of the removed materials need to be treated in 
some manner and in some respects that can be viewed as the tradeoff: 
any materials that are removed need subsequent treatment. The higher 
actinide elements can be efficiently recycled in nuclear reactors, 
preferably fast neutron reactors, and can be recycled as many times as 
required to consume the more troublesome elements. The separated 
fission products, cesium and strontium, can be placed in separate 
storage for 100-300 years to allow sufficient decay, and then disposed 
in the repository with no additional impact. Lest this sound like an 
unreasonably long time, it is useful to remember that some spent fuel 
has already been in storage for almost 50 years.

Q7.  You assert that with a ``significant R&D effort'' new forms can be 
developed that can burn up to 50 percent of the plutonium and neptunium 
present in the spent nuclear fuel. What are the R&D challenges to being 
able to achieve a burn rate at this level?

A7. These consumption amounts in a single irradiation in a light water 
reactor can only be achieved with the development of what is known as 
``inert matrix fuel'' or IMF. This fuel consists only of recycled 
materials, and uses an inert matrix material for the rest of the 
required fuel volume instead of using additional natural or depleted 
uranium. In this way, further creation of higher actinide elements from 
the uranium is avoided, and the recycled materials provide the only 
fission sources. The R&D challenges center on the development of an 
appropriate inert matrix material, which has become more complicated as 
explained in the next paragraph. This approach was briefly in favor for 
certain applications, such as the destruction of weapons-grade 
plutonium, and has been examined in the DOE AFCI program as a potential 
approach for recycling the higher actinide elements.
    However, detailed studies have shown that the IMF approach does not 
provide substantial benefits either to waste management or resource 
utilization by itself, but would also need to be recycled to provide 
the opportunity for greater benefits. The major difficulty is in 
formulating an inert matrix that can be reprocessed easily, and is the 
subject of some ongoing research. It should be noted, though, that even 
if such a fuel form can be developed, the utility of the IMF approach 
is greatly inferior to that of the fast neutron reactors. For this 
reason, the IMF approach is not being actively considered for either 
the single tier or dual tier strategy. An advanced LWR with MOX-type 
fuel can already be implemented as the first tier of the dual tier 
strategy with maximum overall benefit, and the IMF approach would not 
add to this benefit.

Q8.  The U.S. has entered into an international framework agreement for 
the development of the Generation IV nuclear reactor. Is the 
reprocessing necessary for this reactor design covered under the 
agreement? If not, why not? What other countries are engaged in 
reprocessing R&D for the Gen IV reactors?

A8. The reprocessing activities associated with the Gen IV reactors are 
the same as are being discussed here, as are the advanced reactors 
being considered in the DOE AFCI program for a single tier or dual tier 
system. All of the fast reactor concepts that would be part of a two 
tier system are represented in the Gen IV program.
    As for the other countries that are engaged in reprocessing R&D, 
virtually all of the members of the Gen IV International Forum are 
conducting research to one degree or another. The most active members 
in this area are France and Japan along with the United States. We have 
active technical collaboration agreements in place with a number of 
countries involved in the development of reprocessing technologies for 
advanced nuclear reactors.

</pre></body></html>
